<html>
<title> - THE STATE OF THE UNITED STATES ARMY</title>
<body><pre>[Senate Hearing 110-369]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-369
 
                  THE STATE OF THE UNITED STATES ARMY

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 15, 2007

                               __________

         Printed for the use of the Committee on Armed Services


                     U.S. GOVERNMENT PRINTING OFFICE
42-289 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


  

                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN McCAIN, Arizona
ROBERT C. BYRD, West Virginia        JOHN WARNER, Virginia,
JOSEPH I. LIEBERMAN, Connecticut     JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              JEFF SESSIONS, Alabama
DANIEL K. AKAKA, Hawaii              SUSAN M. COLLINS, Maine
BILL NELSON, Florida                 SAXBY CHAMBLISS, Georgia
E. BENJAMIN NELSON, Nebraska         LINDSEY O. GRAHAM, South Carolina
EVAN BAYH, Indiana                   ELIZABETH DOLE, North Carolina
HILLARY RODHAM CLINTON, New York     JOHN CORNYN, Texas
MARK L. PRYOR, Arkansas              JOHN THUNE, South Dakota
JIM WEBB, Virginia                   MEL MARTINEZ, Florida
CLAIRE McCASKILL, Missouri           ROGER F. WICKER, Mississippi

                   Richard D. DeBobes, Staff Director

              Michael V. Kostiw, Republican Staff Director

                                  (ii)

  
?



                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

                  The State of the United States Army

                           november 15, 2007

                                                                   Page

Geren, Hon. Preston M. ``Pete'', III, Secretary of the Army......     7
Casey, GEN George W., Jr., USA, Chief of Staff, United States 
  Army...........................................................    15

                                 (iii)


                  THE STATE OF THE UNITED STATES ARMY

                              ----------                              


                      THURSDAY, NOVEMBER 15, 2007

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:35 a.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Commmittee members present: Senators Levin, Kennedy, Byrd, 
Reed, Akaka, E. Benjamin Nelson, Bayh, Pryor, Webb, Warner, 
Inhofe, Sessions, Collins, Cornyn, Thune, Martinez, and Corker.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Jonathan D. Clark, counsel; 
Daniel J. Cox, Jr., professional staff member; Michael J. 
Kuiken, professional staff member; Gerald J. Leeling, counsel; 
Peter K. Levine, general counsel; and William K. Sutey, 
professional staff member.
    Minority staff members present: Michael V. Kostiw, 
Republican staff director; William M. Caniano, professional 
staff member; Derek J. Maurer, minority counsel; Sean G. 
Stackley, professional staff member; Kristine L. Svinicki, 
professional staff member; Diana G. Tabler, professional staff 
member; and Richard F. Walsh, minority counsel.
    Staff assistants present: Fletcher L. Cork, Jessica L. 
Kingston, Benjamin L. Rubin, and Brian F. Sebold.
    Committee members' assistants present: Jay Maroney, 
assistant to Senator Kennedy; James Tuite, assistant to Senator 
Byrd; Frederick M. Downey and Colleen J. Shogan, assistant to 
Senator Lieberman; Elizabeth King, assistant to Senator Reed; 
Bonni Berge, assistant to Senator Akaka; Andrew R. 
Vanlandingham, assistant to Senator Ben Nelson; Jon Davey, 
assistant to Senator Bayh; M. Bradford Foley, assistant to 
Senator Pryor; Gordon I. Peterson, assistant to Senator Webb; 
Stephen C. Hedger, assistant to Senator McCaskill; Sandra Luff, 
assistant to Senator Warner; Anthony J. Lazarski, assistant to 
Senator Inhofe; Lenwood Landrum, assistant to Senator Sessions; 
Mark J. Winter, assistant to Senator Collins; Stuart C. 
Mallory, assistant to Senator Thune; and Stacie L. Oliver, 
assistant to Senator Corker.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody.
    Today, Secretary Geren and General Casey testify before our 
committee on the state of the Army. Secretary Geren testified 8 
months ago, on March 15, along with then-Chief of Staff, 
General Schoomaker, at the annual Army posture hearing. General 
Casey, no stranger to the Senate, is testifying for the first 
time before the full committee as Army Chief of Staff.
    We welcome you both and we thank you for your service.
    Over the last 8 months since Secretary Geren testified, the 
Army's committed even more forces to the wars in Iraq and 
Afghanistan. Thousands more soldiers have deployed to those 
wars, hundreds more have died, and thousands more have been 
injured, many of them critically. These soldiers, their marine 
counterparts, their families, have borne the greatest burdens 
of these wars, and we owe them our heartfelt thanks.
    Less than one-half of 1 percent of Americans, volunteers 
all, are fighting these wars while the vast majority of 
Americans go about their daily lives, largely unaffected and 
uninvolved. Yet, while Americans differ in their opinions about 
the war in Iraq, all Americans recognize and honor the bravery, 
self-sacrifice, and devotion to duty of our soldiers and their 
families; indeed, that of all of our military personnel and 
their families. Recognizing and honoring the soldiers and their 
families is not enough. All of us, no matter how we voted on 
authorizing the war and whether we've been critics or 
supporters of the President's handling of the war, are 
determined to see that our troops and their families are 
supported in every possible way.
    The pending National Defense Authorization Bill is an 
effort to do that, providing, as it does, a 3\1/2\ percent 
across-the-board pay raise, enhanced education-assistance 
benefits for reservists, increased hardship-duty pay, 
authorizing end-strength increases for the ground forces, fully 
funding operations and maintenance (O&M) accounts, adding 
substantial additional funding for critical force-protection 
equipment, and supporting Army transformation.
    Guiding our continuing efforts to support our troops must 
be an honest assessment of where we are, in terms of military 
readiness and investment in capabilities, present and future. 
We need our military leaders, in uniform and out of uniform, to 
help us help them by giving us the unvarnished truth as they 
see it about the state of the military and what needs to be 
done, no matter how costly or how politically popular or 
unpopular.
    The Army has been engaged in Afghanistan for over 6 years, 
and it is now in its fifth year of war in Iraq. None of the 
rosy predictions have come true. In fact, with the recent 
surge, the number of soldiers engaged in Iraq has approached 
previous high-level marks. Some Army units are on or entering 
their third year of Afghanistan or Iraq service, and some 
individual soldiers are on their fourth.
    According to recent press reports, Admiral Mullen, the 
Chairman of the Joint Chiefs of Staff, meeting with Army 
captains at Fort Sill last month, found the most prevalent 
concern was the impact on those soldiers and their families of 
the repeated deployments of 15 months, with 12 or fewer months 
home between rotations. One captain said, ``We have soldiers 
that have spent more time in combat than World War II. Is there 
a point where you can say,'' he said, ``that you've had 
enough?''
    The heaviest burden in this war has fallen on the ground 
forces and on their families, and we simply must find a way, as 
General Casey has said, to bring the Army back in balance so 
that the demand for soldiers does not exceed, and continue to 
exceed, the supply. To do that, it is essential to turn over 
responsibility for internal security more quickly to Iraqi 
forces, and to reduce U.S. force levels in Iraq, or we will not 
achieve that balance.
    The impact of the wars has affected the Army in many ways. 
In order to sustain the necessary high readiness levels in our 
deployed forces, the readiness of our nondeployed forces has 
steadily declined. Equipment and people are worn out. Most of 
those nondeployed units are not ready to be deployed. 
Consequently, getting those units reset and fully equipped and 
trained for their rotation to Iraq or Afghanistan is that much 
more difficult and risky. Getting those units equipped and 
trained for all potential conflicts, including high-intensity 
combat, is virtually impossible and is not being done. This 
Nation faces a substantially increased risk, should those 
forces be required to respond to other full-spectrum 
requirements of the national military strategy. The surge of 
additional forces to Iraq earlier this year puts even more 
pressure on an already strained readiness situation.
    Long before the President announced his new strategy in 
Iraq, military leaders raised questions about the Nation's 
readiness to deal with other contingencies. In his testimony to 
this committee last February, General Schoomaker was direct in 
his concern for the strategic depth of our Army and its 
readiness. He was clear in his apprehensions about the short- 
and long-term risks resulting from the lower readiness levels 
of our nondeployed forces. General Casey sounded a similar 
alarm in his recent testimony before the House Armed Services 
Committee. I believe the current situation is intolerable, 
there can be no excuse for subjecting this Nation to that 
degree of risk.
    In a marked change of position for the Department of 
Defense (DOD), the Army, earlier this year, proposed increasing 
its Active Duty end strength by 65,000 soldiers, to 547,000, 
over the next 5 years. General Casey has said that he wants to 
shorten that time by 2 years. In year 5 of the Iraq war, the 
proposed increases have come late, despite the proposals for 
increases from Senators on this committee over the past several 
years, proposals that the DOD previously opposed. But, even 
with General Casey's efforts to speed up the process, few of 
these proposed additional soldiers would be trained and ready 
to help relieve the stress on the Army in the next year or two. 
Plus, there are many who say even those increases are 
sufficient for the strategy the Army must be prepared to 
execute over the long term.
    When increasing end strength, recruiting and retention 
become ever more critical. While quantity is, of course, 
important, quality must remain the highest priority. The Army 
must continue to uphold high standards--moral, intellectual, 
and physical--for new recruits, to ensure that these young men 
and women are capable of handling the great demands that they 
will face.
    The committee is concerned that the Army is relaxing 
recruiting standards and approving more waivers in order to 
meet requirements. The press report cited earlier said that 
another one of those captains in the meeting with Admiral 
Mullen who said the following: ``concern over the Army's 
growing practice of granting waivers to recruits for legal and 
health problems,'' saying that he spent 80 percent of his time 
dealing with the 13 ``problem children,'' as he put it, in his 
100-person unit, some of whom went absent without leave or had 
been methamphetamine dealers.
    It has been reported that 18 percent of new recruits this 
year required a waiver, up by half from 2 years ago, and that 
recruitment from category 4, the least skilled category, has 
increased eightfold over the past 2 years. We cannot allow the 
Army to reach the state of the hollow Army of the 1970s. We 
must find a way to both increase the size of the Army and to 
maintain its standards.
    Had we started in earnest to grow the Army even 4 years 
ago, our forces today would be less stressed and more ready. We 
must guard against merely creating a larger version of a less-
ready force. Army plans for expansion must be comprehensive, 
detailed, and fully resourced.
    The Secretary of the Army must marshal the necessary 
resources to meet this challenge. Congress must understand what 
is needed to bring our ground forces to the level of strength 
and readiness necessary to avoid the unacceptable risks and 
readiness shortfalls that exist today.
    As daunting as it is to meet the current readiness 
challenge, we must also modernize our Army to meet our 
readiness requirements and our national security requirements 
into the future, and we must do so intelligently. In doing so, 
we must not fail to capture the lessons learned since the end 
of the Cold War and apply those lessons to building the force 
of the future.
    Although it appears somewhat fashionable to question the 
relevance of ground forces prior to September 11, that can 
hardly be the case now. The reality of warfare in the 21st 
century demands both the high intensity force-on-force combat, 
as characterized in the early weeks of the Iraq war, and the 
grinding, all-encompassing stability and support and 
counterinsurgency operations of the last few years. The answer 
is not one mission or the other; the Army must be prepared to 
do both. Almost all types of warfare require, in Army parlance, 
``boots-on-the-ground,'' they require an Army that is optimally 
organized, trained, and equipped for anything that we might ask 
it to do. The challenge for the Army, for this Nation, and for 
Congress, is sustaining an Army fully engaged in current 
operations of all varieties, while also modernizing and 
transforming that Army to meet future threats.
    This hearing will, hopefully, help us understand the state 
of the Army today and what needs to be done to ensure an Army 
that is ready for all of its potential missions, both today and 
in the future. The Army and Congress owe nothing less to the 
soldiers, their families, and to the American people.
    [The prepared statement of Senator McCain follows:]

               Prepared Statement by Senator John McCain

    Thank you, Mr. Chairman. Secretary Geren and General Casey, thank 
you for testifying before the committee today on the state of the Army. 
You both have enjoyed long and distinguished careers serving this 
Nation and I appreciate your patriotism. General Casey, as Commander of 
Multinational Forces-Iraq, you and I disagreed on the initial execution 
of the war in Iraq. Thankfully, the strategy I advocated for the first 
3 years of this war--a counterinsurgency strategy--prevailed and we are 
winning. I just regret that we wasted so much time on a strategy that 
was doomed from the start, but now we're succeeding. Overall violence 
is down 55 percent since June; civilian deaths are down 75 percent and 
we will begin to reduce our footprint there according to the situation 
on the ground. Despite our recent successes, the fight against radical 
Islamic extremism will remain the national security challenge of our 
time. Iraq is the central front of this conflict according to General 
Petraeus and our enemies.
    I commend General Petraeus and all of the soldiers, airmen and 
marines under his command. However, I want to commend the Army in 
particular. The wars in Iraq and Afghanistan have taken a tremendous 
toll on all our brave men and women in uniform. No Service, active-duty 
and reservists, has been asked to do more than the Army. It has been 
the backbone in our fight against Islamic extremism in Iraq and 
Afghanistan. I am grateful for each and every one of these soldiers for 
their service, their sacrifice and patriotism.
    We are winning in Iraq precisely because we have a strong, agile, 
and capable Army, but if we are to claim victory in this war and meet 
the challenges that will continue to confront us in the 21st century--
we must grow the Army. Much of the reason, the Army is seriously 
overstretched is because it has been underfunded for decades.
    Just as we did at the start of the Cold War, we must anticipate and 
prepare for future challenges and not resign ourselves to the paradigms 
of the past. Our Armed Forces are seriously overstretched and under 
resourced. I have called for an increase in the U.S. Army and the 
Marine Corps from the currently planned level of roughly 750,000 troops 
to 900,000 troops. While the enemy we confront threatens the freedom, 
peace and security, we tend to take all too often for granted, 
recruitment cannot rely solely on patriotism. Recruitment requires more 
resources and it will take time but it must be done and it must be done 
now.
    Along with more personnel, our military, the Army specifically 
needs more equipment to make up for recent losses and it needs to 
update current equipment and facilities. We can offset some of this by 
cutting wasteful spending and choosing to help the troops rather than 
earmarking billions of dollars for pet projects and special interest. 
We can afford to spend more on defense. Currently, we spend less than 4 
cents of every dollar that our economy generates on defense, that's 
less than what we spent during the Cold War. We face a formidable 
adversary--one who is determined to destroy us and our way of life. 
These radical Islamists are not afraid to die, nor do they 
differentiate between soldiers or civilians in their effort to incite a 
global jihad. We must accelerate the transformation of our military; 
build a larger and more nimble Army that is fully-capable of deploying 
without calling up Reserve units. We must invest and configure the Army 
to fight the enemies of the future not the past. For years, I've call 
for a larger Army. Now that the Army is at its near breaking point we 
realize what it will take to confront our enemy, on our terms, and 
destroy him.
    But we don't just need more soldiers, we need more soldiers with 
the skills necessary to help friendly governments and their militaries 
resist our common foes. The Army should have at least 20,000 soldiers 
dedicated to partnering with militaries abroad. We also need to 
increase the number of U.S. personnel available to engage in Special 
Forces Operations, civil affairs activities, military policing, and 
military intelligence. We need a nonmilitary deployable police force to 
train foreign forces and to help maintain law and order in states on 
the verge of collapse.
    It has taken us too long and too many lives for us to get it right 
in Iraq. Now that we are on the right path, it would be a national 
disgrace for us not to learn from the mistakes of the past and 
vigorously ensure they are not made in the future. For years, I have 
warned administrations of both parties that any major conflict ran the 
risk of breaking our military, particularly the U.S. Army. I hope, 
today, we all understand the grave consequences of inaction and are 
prepared to take the steps necessary to enhance our national defense 
and ensure that none of our brave men and women are ever sacrificed in 
vain.
    Thank you, Mr. Chairman.

    Chairman Levin. Senator Inhofe.

              STATEMENT OF SENATOR JAMES M. INHOFE

    Senator Inhofe. Thank you, Mr. Chairman.
    Let me just agree with a couple of things that you said, in 
terms of our readiness. It happens that I was chairman of the 
Readiness and Management Support Subcommittee during the 1990s, 
when we downgraded the military. I can remember, many times, 
going to the floor of the Senate and saying that we'll rue the 
day and the euphoric attitude that, ``The Cold War is over, we 
don't need a military anymore.'' So, the readiness went down, 
modernization went down, end strength went down, and we're 
paying for it now. Nobody knew that September 11 would take 
place. Nobody knew that we'd be in this long, arduous war.
    But I'll say this. You made reference to the hollow 
military of the Carter administration. A lot of the same things 
are going on today. We had to build up, and build up fast. It 
wasn't easy to do. I've been over there probably more than any 
other member has, 15 times in the area of responsibility. I'm 
going to be going to Afghanistan, Mr. Chairman, a couple of 
weeks from now. Every time I go, I see something that surprises 
me even more. I was a product of the draft, and I've always 
felt that we wouldn't be able to sustain the things we're doing 
today without having compulsory service. But I was wrong. I see 
these kids out there, and I see the commitment that they have, 
and I see, particularly since the surge, the two or three times 
that I've been there since then, to see not just the attitude 
of our troops that are over there--but the fact that they are 
now living with and working with the Iraqi security forces 
(ISF), and they're developing intimate relationships, and we're 
seeing the imams and the clerics no longer giving anti-American 
messages in their weekly mosque meetings. I think a lot of that 
is due to the fact that this has happened. The surge clearly 
has worked.
    I was gratified, yesterday, when up in room S-407 of the 
Capitol, the secure room--even though that's classified, a lot 
of the details are not classified--the fact that our improvised 
explosive devices (IEDs) are down 65 percent, attacks are down 
50 percent, casualties are down by 50 percent.
    My major concern now is that things are going well, and 
we're going to be able to tough it out. In your opening 
statements, you say something about the re-enlistments and some 
of the figures that we're having that are very, very favorable 
right now--but I would hope, also, that we keep in mind that we 
have to continue with the modernization program. I don't want 
the Future Combat System (FCS) program to suffer as a result of 
what we're going through right now, because we have to prepare 
for the future.
    I remember my last year in the House of Representatives on 
the House Armed Services Committee--it was 1994--I remember, 
someone testified--they said, ``In 10 years, we will no longer 
need ground troops.'' That's what they said. So, I have felt 
that if the American people's expectations are high--and I 
believe that we should have the best of everything--best on the 
ground, best in the air, best strike vehicles, best lift 
vehicles--that we should be prepared to have a larger 
percentage of our gross domestic product (GDP) to go into the 
military.
    I would hope that we can keep online with the FCS programs 
and these good things that you guys are doing.
    I just can't think of a better way to compliment the two of 
you than to say you're the best that there are, and you're 
doing a great job, and America appreciates you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Inhofe.
    Secretary Geren?

 STATEMENT OF HON. PRESTON M. ``PETE'' GEREN III, SECRETARY OF 
                            THE ARMY

    Secretary Geren. Mr. Chairman and Senator Inhofe, thank you 
very much for the opportunity to appear before your committee, 
and I appreciate the opportunity to talk with you and other 
members of the committee.
    Mr. Chairman, I have a written statement I would like to 
submit for the record.
    Chairman Levin. It will be made part of the record.
    Secretary Geren. You talked, in your opening statement, Mr. 
Chairman, about the strong bipartisan support our Army has. We 
certainly do have that, and, on behalf of the Army, I want to 
thank this Congress for your support.
    I recently met with the senior military leader of the 
British Army, and he was lamenting what a poor relationship 
they had with their parliament, and, frankly, with the British 
people, and how difficult it was to get them to cooperate with 
the British Army in meeting their needs and understanding their 
concerns. I told him, ``We don't have that problem.'' We're 
very grateful for the partnership that we have with the United 
States Congress and our United States Army. Thank you all very 
much for that.
    Chairman Levin. Thank you.
    Secretary Geren. I also want to thank members who regularly 
go visit the troops all around the world. As you well know, 
that means a tremendous amount to the troops. It's important 
for them to be able to talk to you firsthand. All of you use 
your very scarce time to get out around the world, and they 
appreciate it very much.
    We're here today to talk about the strategic direction for 
the Army. I'd like to just summarize some of the points that I 
made in my written statement.
    I'd like to talk about four areas that are very important 
for the long-term strategic needs of the Army: one; health care 
issues, taking care of soldiers who have borne the battle; 
contracting issues; support to families, Mr. Chairman, as you 
discussed in your opening statement; and then I'd like to just 
conclude briefly with--talking about our need for predictable 
funding, and particularly for the supplemental that's in front 
of Congress now.
    Out of calamity comes opportunity. Those of us who have 
been in the political world understand that, when crisis comes, 
it gives us an opportunity to do some things that we couldn't 
do without that crisis. It gives the political energy, the 
bureaucratic energy, to take on some hard issues and make some 
changes that are necessary, that we would never get around to, 
were it not for that.
    Unfortunately, we've had two calamities that have exposed 
some weaknesses in our Army; and we're using those calamities 
to seize the opportunity.
    One, well known to this committee, an area that you all 
have worked so aggressively in, is in the area of health care. 
What happened at Walter Reed, now nearly a year ago, has given 
us an opportunity to totally transform the military health care 
system, the government's disability system, something that we 
needed to do, and we are seizing this opportunity. Mr. Chairman 
and other members of the committee, we thank you for the work 
that you all have done in this area, as well. We look forward 
to continuing to work together.
    Our approach to the problems that surfaced at Walter Reed 
were on two fronts. One was: fix the immediate problem. In 
response to that, we have created an entirely new system for 
meeting the needs of our outpatients and wounded warriors. 
We've put 35 Warrior Transition Units (WTU) all across the 
country. You all have at your desk, it looks like a small 
thing, but it's a very important change in the way we run our 
WTUs. A different mission statement on the front, that talks 
about the job of the soldier who is in the WTU. Then, on the 
back is that soldier's chain of command. So, every soldier in 
the WTU knows who to call if he or she has a problem. This was 
a suggestion that came from Congress--have an 800 number for 
all of our folks in our health care system, and we've created a 
triad in support of all those soldiers.
    We also have learned what we don't know about Traumatic 
Brain Injury (TBI) and post-traumatic stress disorder (PTSD). 
Congress has been very generous in providing us funds, and we 
are making great progress, but we still have a ways to go.
    Reform of the disability system, this is something that 
Congress, DOD, and the administration are working hard on. We 
are beginning a pilot program, November 26, in the national 
capital region, to experiment with a single physical and other 
innovations.
    Second area: contracting. We have unfortunately learned the 
hard way--that our contracting system was not up to meeting the 
needs of the Army in this century. Right now--or in 2007, the 
Army did 25 percent of all contracting for the entire 
government, $111 billion.
    Chairman Levin. Secretary Geren, I hate to do this to you, 
but we have a quorum, and it's very much to the advantage of 
the Secretary to have some of our business done while we have a 
quorum.
    Secretary Geren. I understand that.
    Chairman Levin. So, I'm going to take this opportunity, 
since a quorum is present and one of our members must leave, 
which would end our quorum. [Recess.]
    Thank you. Please continue Secretary Geren.
    Secretary Geren. On the subject of contracting, we also 
found ourselves with some very serious problems, primarily in 
theater, in the Kuwait contracting which led to reactions on 
two fronts by us. One was to put a task force in place that 
worked to immediately stop the bleeding. But, as with the 
health care challenge, we are also looking long-term. What have 
we learned from this, and what can we do to fix the contracting 
system? What we've learned from the work of Dr. Gansler in the 
Commission, it's a problem that we have in the Department of 
Army, a problem we have in the DOD, and, frankly, a problem 
that extends across the government. We need to do a better job 
of developing professional acquisition and contracting 
officers, provide the resources, the training, and valuing the 
invaluable role that these acquisition and contracting officers 
provide to our government. So, this is an area where we'll be 
doing a great deal of work.
    As we look to this era of persistent conflict, and we look 
at how we are organized, trained, and equipped for conflict 
today, this one-to-one ratio of contractors to deployed forces 
is no aberration. The outsourcing that we've done as a result 
of the downsizing we did in the 1990s, this large size of the 
contracting workforce is a part of the future of our Army, and 
we have to do a better job of organizing, training, and 
equipping, and coordinating the work of those contractors in 
support of our soldiers.
    Lastly; families. Mr. Chairman, you spoke of this. We are 
in the 7th year of war in Afghanistan, over 4\1/2\ years of war 
in Iraq. This is the third longest conflict in United States 
history, behind the Vietnam War and the Revolutionary War. It's 
the longest conflict we have ever fought with an All-Volunteer 
Force, by quite a long shot. We're in uncharted waters, both 
for the soldiers and for the families.
    This All-Volunteer Force is a different Army than we've 
ever had before, when you look at the demographics. Over half 
of the soldiers are married, and more than half of those 
spouses work outside the home. The support that we provided to 
those key members of the All-Volunteer Force over the first 25 
years doesn't work as we move into the 7th year of conflict. We 
have to do a better job of supporting those families.
    One of the things that we've done recently--and you also 
have one of these at your desk--across the entire Army, all 154 
camp, posts, and stations around the world, we are entering 
into a Covenant with the Families--the commanders at each 
facility are signing this covenant; General Casey and I signed 
it here, and have been traveling around the world and signing 
it with soldiers--but, recognizing the importance of the 
families and the health of our All-Volunteer Force. Our 
families are volunteers. Our soldiers are volunteers, but our 
families are volunteers, as well, and our system must do a 
better job of supporting those families.
    We moved $100 million out of our budget, last summer, into 
family programs in 2008, with the supplemental, and the base, 
we've moved $1.4 billion into family programs. We ask your 
support for those initiatives, but also ask your help as we 
consider innovative ways to support families, that critical 
part of our All-Volunteer Force.
    Let me just conclude with a brief comment on the 
supplemental. Through our appropriations, we received $27 
billion in O&M funds. We spend roughly $6.6 billion a month, if 
you look at the Army's O&M and look at the funding that we 
provide to global war on terror. Very quickly, we run through 
the resources that are available to us. When the President 
signed the Appropriations Bill, it stopped the other source of 
funding for the global war on terror. Secretary Gates has told 
us to start planning for what we're going to do if we reach the 
point where we do run out of our O&M funding, and start making 
plans for what we, as an Army, would do to deal with that 
eventuality.
    Last year, we had bridge funding that helped us through 
this period. This year, we don't have that funding. So, we know 
there are many issues you all are working through regarding 
that supplemental, but it's very important for us to be able to 
provide the orderly and reliable support to our soldiers, for 
us to get that funding.
    Thank you, Mr. Chairman. Thank you, Senator Warner.
    Chairman Levin. Thank you, Mr. Secretary.
    Secretary Geren. Thank you, members of the committee.
    [The prepared statement of Mr. Geren follows:]

                 Prepared Statement by Hon. Pete Geren

    Chairman Levin, Senator McCain, and distinguished members of the 
Senate Armed Services Committee, I want to thank you for inviting 
General Casey and myself to appear before you today to discuss the 
Army's strategic imperatives.
    I'd also like to thank all of you for your unwavering support of 
our soldiers and their families. I know they appreciate your ongoing 
efforts to provide them not only with the ways and means to achieve the 
strategic objectives that our Nation demands, but also to improve their 
quality of life. Congress has been a partner in creating the remarkable 
Army we have today; we need the continued support of Congress and this 
committee to support and sustain it.
    Today, I'd like to discuss how our work with the Congress can help 
the Army execute its critical missions and achieve the four imperatives 
essential to the success of the Army. Those imperatives are:

        <bullet> Sustain our soldiers, families, and Army civilians;
        <bullet> Prepare our soldiers for success in the current 
        conflict;
        <bullet> Reset the force expeditiously for future 
        contingencies; and
        <bullet> Transform the Army to meet the demands of the 21st 
        century.

    Every issue I discuss with you this morning falls under one of 
those imperatives. They are crucial to the future of the Army and 
General Casey and I will work as a team to implement them. But we can't 
do it alone. We need Congress to be part of that team.
    In September, I visited soldiers and units in Afghanistan, Iraq, 
Kuwait, and Germany. As you all have seen on your own congressional 
delegations, our units, and their leaders, and most especially our 
great soldiers, continue doing a superb job under the most challenging 
conditions. Their courage and service are truly inspiring.
    We are now into the 7th year of major combat operations in the 
global war on terror, making this the third longest war in American 
history, after the Revolutionary War and Vietnam. This is also the 
first extended conflict since the Revolution to be fought with an All-
Volunteer Force.
    To be sure, our Army is being stretched to meet the demands of the 
current conflict. The Army has over 150,000 soldiers in Iraq, 
Afghanistan, and Kuwait, including approximately 16 percent Army 
National Guard and Reserve soldiers. Since the beginning of combat 
operations, over 550,000 soldiers have served in combat zones; over 
200,000 have been deployed multiple times. Our All-Volunteer Force is a 
national treasure, but after 6 years of major combat operations, it is 
in uncharted waters. We are adapting our policies, programs, and 
investments to reflect the realties of this era of persistent conflict.
    The All-Volunteer Force is 34-years-old. Some of you may recall 
that in its very first decade it struggled with many difficulties 
including military pay that was inadequate to sustain a force of 
volunteers. In the early 1980s, Congress increased pay a total of 26 
percent and has sustained competitive pay since that time. Today, the 
strain of multiple deployments on soldiers requires us likewise to work 
together to adapt in a way that ensures the health and well-being of 
the All-Volunteer Force.
    Despite our many challenges, our soldiers remain the best-trained, 
best-led, and best-equipped force we have ever put in the field. Our 
soldiers count on their Army leadership to provide them the training, 
equipment, and leadership to take the fight to the enemy. They also 
count on Army leadership to make sure their families receive the 
support they need to stay Army strong.
    On the wall in one of the Army conference rooms there is this quote 
by former Army Chief of Staff General Creighton Abrams: ``People are 
not in the Army, they are the Army.''
    The people who ``are'' the Army extend to more than just the 
soldiers. Spouses and children are as much a part of the Army as the 
soldiers they love. Everyone in Army leadership recognizes the role of 
the family in the All-Volunteer Force and is committed to improving 
support to our Army families; and I am proud to partner with General 
Casey in working to improve the quality of life for soldiers and their 
families.
    We are asking a great deal of our soldiers and Army families and we 
cannot expect that these demands will diminish in the foreseeable 
future. Organizational and institutional changes will continue for 
years and we must expect and plan for a future typified by persistent 
conflict and continuing deployments.
    In order to sustain our All-Volunteer Force, we must do more to 
provide soldiers and families a quality of life equal to the quality of 
their service. Family support systems--such as health care, housing, 
childcare, and education--designed for the pre-September 11 peacetime 
Army must be adapted to sustain an Army at war.
    Furthermore, the demographics of today's Army are markedly 
different from any Army that has fought an extended conflict in our 
Nation's history. Over half of our soldiers are married and a majority 
of Army spouses are employed. Army families include over 700,000 
children--a number greater than the entire population of the capital 
city where we meet today. These demographics alone pose new challenges.
    When a married mother or father deploys, he or she leaves behind a 
single parent household and all the challenges associated with that 
family dynamic. Single-parent soldiers must leave their children in the 
care of others. With multiple deployments and dwell time filled with 
training for the next deployment, the stress on the family increases.

                   SUPPORT FOR SOLDIERS AND FAMILIES

    Recognizing this, General Casey and I have recently signed the Army 
Family Covenant, which states:

        <bullet> We recognize the commitment and increasing sacrifices 
        that our families are making every day.
        <bullet> We recognize the strength of our soldiers comes from 
        the strength of their families.
        <bullet> We are committed to providing soldiers and families a 
        quality of life that is commensurate with their service.
        <bullet> We are committed to providing our families a strong, 
        supportive environment where they can thrive.
        <bullet> We are committed to building a partnership with Army 
        families that enhances their strength and resilience.
        <bullet> We are committed to improving family readiness by:

                <bullet> Standardizing and funding existing family 
                programs and services.
                <bullet> Increasing accessibility and quality of health 
                care.
                <bullet> Improving soldier and family housing.
                <bullet> Ensuring excellence in schools, youth 
                services, and child care.
                <bullet> Expanding education and employment 
                opportunities for family members.

    The covenant is a solemn commitment by our Army to do more for our 
soldiers and families; to provide them a quality of life commensurate 
with the quality of their service.
    When it comes to soldiers and families, Congress has been a strong 
partner in the service of our Army. For example, the Army continues to 
improve soldier and family housing, bolstered by congressional 
legislation allowing the Army to leverage its housing assets through 
private sector participation in military housing--we call it the 
Residential Community Initiative (RCI).
    As of the beginning of this month, the Army had privatized almost 
79,000 homes on 36 installations. The total cost to date is estimated 
at $10.4 billion of which the Army share is only $1.3 billion. The 
quality of the homes and neighborhoods built under the RCI has improved 
dramatically the quality of life for our Army families.
    Just a few weeks ago, I toured RCI homes and talked with Army 
families at Fort Belvoir about this program. An Army spouse I spoke 
with said she was so pleased with the housing and her community that 
she didn't really mind too much if her husband had to deploy, as long 
as she could stay in her house. She and her husband shared a laugh over 
that comment.
    A Sergeant said: ``As long as my family is happy, it makes it 
easier to go to work.'' That kind of peace of mind is one of the 
reasons why these kinds of programs are so important to our readiness.
    Congress deserves a great deal of the credit for this program and I 
look forward to working together on new initiatives to help Army 
families.
    Besides the RCI, the Army is on a course to eventually eliminate 
inadequate family housing, first in the continental United States 
(CONUS), later outside the CONUS. Additionally, we also have been 
expanding housing for unmarried senior noncommissioned officers and 
officers at locations where off-post rentals are not available.
    Our facility modernization efforts continue to focus on the long-
term effort to improve Senior Unaccompanied Personnel Housing and we 
have delivered 200 new units in recent years at no cost to the Army 
with plans for another 1,200. In the past 5 fiscal years, the Army has 
invested about $5.5 billion to fix, upgrade, and replace permanent 
party barracks for 72,400 soldiers.
    The Army is shifting additional resources into family programs for 
2008 and beyond. In recent years, the Army has increased by 40 the 
number of Child Development Centers with plans for 22 more. We also 
continue to build new fitness facilities, chapels, and youth centers. 
We've invested $170 million in 19 new post exchanges.
    Last summer, the Army transferred $100 million into existing family 
programs, which had an immediate and positive impact. These funds are 
being used to hire Family Readiness Support Assistants down to the 
battalion level, expand the availability and reduce the cost of child 
care, provide additional respite care for family members with special 
needs, and enhance morale and recreational programs across the Army.
    Additionally, after many months of work, the Army recently launched 
the Army Soldier-Family Action Plan (ASFAP). This plan to support 
families is based on the input of families from across our Army--here 
and around the globe. ASFAP will address issues such as education, 
access and quality of health care, employment opportunities, improved 
housing, and the resourcing of existing Army programs. It will be an 
important step forward, but it is not the final answer to the needs of 
Army families.
    We have established a good momentum in improving life for Army 
families--we need the continued assistance of Congress, now and in the 
future, to keep that momentum going.

                  KEEPING FAITH WITH WOUNDED WARRIORS

    As an Army, we pledge never to leave a fallen comrade--that means 
on the battlefield, in the hospital, in the outpatient clinic, or over 
a lifetime of dependency if that is what is required. I have witnessed 
the cost in human terms and to the institution of the Army when we 
break faith with that sacred pledge, as a handful did at Walter Reed 
Army Medical Center (WRAMC), and we have worked hard to make that 
right.
    Indeed, the silver lining in the WRAMC breakdown is that it 
prompted the Army to make dramatic changes in the way we care for our 
wounded warriors that go far beyond the fixes at WRAMC. Since that 
time, your Army has moved out aggressively to change what we can on our 
own.
    I am pleased to report that we have made significant progress in 
the areas of infrastructure, leadership, and processes issues as part 
of our Army Medical Action Plan. A few examples:

        <bullet> We've given wounded warriors a new mission that is 
        codified in the Wounded Warrior Mission Statement: ``I am a 
        Warrior in Transition. My job is to heal as I transition back 
        to duty or become a productive, responsible citizen in society. 
        This is not a status but a mission. I will succeed in this 
        mission because I am a Warrior.''
        <bullet> We've consolidated Medical Hold and Medical Holdover 
        into single Warrior Transition Units (WTU), organized into 
        military units that are under the command and control of the 
        medical treatment facility commander. The WTU's mission is to 
        focus solely on the care, treatment, and compassionate 
        disposition of its soldiers.
        <bullet> We've institutionalized a triad of support for every 
        wounded warrior to include a primary care manager, nurse case 
        manager, and squad leader, and we've organized outpatients in a 
        chain of command.
        <bullet> We've established Soldier and Family Assistance 
        Centers at medical centers across the entire Army. These are 
        one-stop shops where soldiers and families can get the 
        information they need regarding entitlements, benefits, and 
        services.
        <bullet> There is now a Wounded Soldier Family Hotline that 
        provides Warriors in Transition and their families 24-hour 
        access to information and assistance.
        <bullet> We've initiated a Post-Traumatic Stress Disorder 
        (PTSD) and Traumatic Brain Injury (TBI) chain teaching program 
        for every soldier in the Army, to not only educate and assist 
        them in recognizing, preventing, and treating these conditions, 
        but also to help remove the stigma associated with these 
        injuries. Similar training is being provided to family members.

    The problems at Walter Reed also led to a partnership between the 
Department of Defense and the Department of Veterans Affairs to 
overhaul our military disability system--the Senior Oversight Committee 
(SOC).
    The SOC goal is as simple to identify as it will be difficult to 
implement: a seamless transition for our soldiers from the Department 
of Defense disability system either back to service in the Army or to a 
productive life as a veteran. We begin that task not by thinking in 
terms of how we can improve the current outmoded system, but thinking 
instead about what kind of system we would build if we could start from 
scratch.
    The SOC has directed:

        <bullet> DOD and the VA to establish a single, comprehensive, 
        standardized medical exam for all Wounded Warriors;
        <bullet> the VA to update its rating disabilities schedule to 
        include TBI; and
        <bullet> the establishment of a TBI/PTSD Center of Excellence 
        supported by a $900 million appropriation from Congress.

    President Lincoln pledged our Nation to care for those who shall 
have borne the battle, their widows, and now, widowers and orphans. 
That pledge must be constantly renewed, not with words, but with deeds. 
I believe that the Department of Defense, Congress, and the Department 
of Veterans Affairs have an opportunity that does not come along 
often--to overhaul the entire military disability system. Let us not 
squander the opportunity.

                          FORCE OF THE FUTURE

    Even without the global war on terror, we would be a busy Army, 
implementing the largest base realignment and closure in history. We 
are growing the total Army by 74,000 and completing the transformation 
of the Reserve component from a strategic Reserve to an operational 
force. We are half-way through the largest organizational change since 
World War II, converting our combat and enabling formations to modular 
formations. Our depots are operating at historical levels to reset and 
recapitalize our battle damaged vehicles and equipment. We are working 
to transform and modernize the force.
    Our depots are operating at historical levels to reset and 
recapitalize our battle-damaged vehicles and equipment. We need your 
continued help with this vital reset effort.
    We must transform and modernize the force that has served us so 
well. That force relies on the Stryker and what we called the ``Big 
5''--the Abrams, Bradley, Blackhawk, Apache, and Patriot--to meet the 
challenges of a very different enemy.
    The new enemy that has emerged will not fight us in military 
formations on classic battlefields. The kind of warfare that dominated 
during the Cold War years is far different from the kind of warfare we 
confront now or will confront in the future.
    So we in the Army are changing the way we think and fight. We are 
changing training, organization, and equipment to meet all 
contingencies. We are pursuing a modernization effort that ensures 
dominance in the full spectrum of land operations.
    The purpose of the Army modernization effort is to maintain 
dominance in land operations--we never want to send our soldiers into a 
fair fight. The goal of Army modernization is to know before the enemy 
does where our forces are and where the enemy is. Knowledge is power, 
and nowhere is that dictum more applicable than on the battlefield.
    The Future Combat System (FCS) will give our soldiers the knowledge 
they need to fight and win in any battle space, day or night, whether 
the battle is conventional or asymmetrical. Indeed, theatre commanders 
are validating the FCS as they request for field use the operational 
capabilities and technologies that we are currently developing in FCS.
    For example, a few years ago in Afghanistan, one commander watched 
as his soldiers heaved grappling hooks into caves to detect booby 
traps. He knew there had to be a better way. So he asked for robots his 
soldiers could send into those caves. Robotic eyes and ears can tell 
our soldiers who and what is in that cave, down that alley, or in that 
darkened building--before they go in.
    Through FCS spinouts, soldiers now have those robots and we are 
providing other capabilities that are critical to their current 
missions and force protection--unmanned aerial drones, ground sensors, 
and communications devices capable of sharing critical intelligence 
data with troops on a real-time basis.
    We are doing all we can to allow our soldiers to accomplish their 
mission while mitigating their risk--force protection remains our top 
priority. Indeed, in the last few years the Army has experienced the 
greatest change in force protection since World War II.
    The soldier of today looks far different even from the soldier of 6 
years ago. Consider, in 2001 it cost the Army $11,000 to outfit a 
soldier; now it costs $17,000.
    The Army is rapidly fielding the best new equipment to our forces. 
To date we have fielded:

        <bullet> over 1 million sets of body armor to all soldiers and 
        DOD civilians;
        <bullet> over 21,000 uparmored HMMWVs and over 50,000 frag 
        kits;
        <bullet> theater requirement for 970 Armored Security Vehicles; 
        and
        <bullet> over 47,000 improvised explosive device defeat 
        systems.

    Integrated force protection strategy also includes Mine Resistant 
Ambush Protected (MRAP) vehicles, which Congress has done so much to 
support. To update you, the JROC has approved the Army's request for 
10,000 MRAPs and production is now underway at several facilities. By 
the end of April 2008, we project that we will have fielded almost 
4,100 MRAPs.
    Force protection will continue to be the highest priority and key 
challenges remain. The enemy continues to evolve and we must try to 
stay a step ahead.
    As you can see, the Army has a full plate. To meet these 
obligations smoothly and efficiently, timely, predictable funding is 
essential.
    Make no mistake--timely funding is not about the war in Iraq; it is 
about taking care of soldiers and their families and defending this 
country.
    Training and maintenance--and ultimately readiness--are perishable. 
Without stable and timely funding for these activities, skills diminish 
and equipment and facilities degrade.
    I cannot stress enough how critical it is that Congress pass 
essential funding legislation in a timely manner. Our soldiers depend 
upon your legislation.
    Additionally, in a few short months, you will see the fiscal year 
2009 President's budget and global war on terrorism supplemental 
funding request arrive on the Hill. You will see that the Army's part 
of that submission will fully support the four imperatives in our 
strategic direction: sustain, prepare, reset, and transform. We look 
forward for your continued support in fulfilling these imperatives.

                           CONTRACTING ISSUES

    On September 12, I commissioned Dr. Jacques Gansler to provide a 
comprehensive review of the Army's acquisition system. The Commission 
was given a broad charter to examine current operations as well as to 
ensure future contracting operations are more effective, efficient and 
transparent. Based on his extensive experience within DOD and 
specifically as a former Under Secretary of Defense for Acquisition, 
Technology, and Logistics, I was confident that Dr. Gansler would 
provide an uncompromising, big-picture review that the Army needed. On 
November 1, I accepted the report from the ``Commission on Army 
Acquisition and Program Management in Expeditionary Operations'' 
chaired by Dr. Gansler.
    My decision to charter the Gansler Commission followed 
investigations and audits which cited contractors and government 
contracting officials for corrupt activity related to contingency 
contracting operations. The investigations continue. As of November 6, 
the U.S. Army Criminal Investigation Command is conducting 80 
investigations relating to contract fraud in Iraq, Kuwait, and 
Afghanistan. While the cases vary in severity and complexity, most 
involve bribery. There are confirmed bribes in excess of $15 million. 
Twenty-three U.S. citizens, to include 18 government employees, both 
military and civilian, have been charged or indicted in Federal court. 
Contracts valued at more than $6 billion are affected. As a result of 
initial indications of this corruption within theater, the Army 
reorganized its contracting office in Kuwait, replaced its leaders, 
increased the size of the staff and provided more ethics training.
    Dr. Gansler's report offered a very blunt and comprehensive 
assessment that I asked for and that the Army needed, and he also 
outlined a plan for the way ahead after citing structural weaknesses 
and organizational shortcomings in the U.S. Army's acquisition and 
contracting system used to support expeditionary operations. The 
commission outlined four areas as critical to future success:

(1) increased stature, quantity and career development for contracting 
        personnel both military and civilian, particularly for 
        expeditionary operations;
(2) restructure of the organization and responsibility to facilitate 
        contracting and contract management;
(3) training and tools for overall contracting activities in 
        expeditionary operations; and
(4) obtaining legislative, regulatory, and policy assistance to enable 
        contracting effectiveness--important in expeditionary 
        operations.

    The Gansler report traced many of the difficulties to post-Cold War 
cuts in the Army acquisition budget, which led to an undersized 
acquisition workforce in the face of an expanding workload. This 
workforce has not been properly sized, trained, structured, or 
empowered to meet the needs of our warfighters, in major expeditionary 
operations. In fact, currently with operations in Iraq and Afghanistan, 
the Army administered over 25 percent of all Federal contracts in 
fiscal year 2007, valued in excess of $111 billion. We also need to do 
a better job in training our commanders on their responsibilities for 
requirements definition and contractor performance.
    Complementing the Gansler Commission's strategic review, I also 
formed an internal Army task force to review current contracting 
operations and take immediate action where appropriate. The Army 
Contracting Task Force, co-chaired by Lieutenant General N. Ross 
Thompson, Military Deputy to the Assistant Secretary of the Army for 
Acquisition, Logistics and Technology; and Ms. Kathryn Condon, 
Executive Deputy to the commanding general of the U.S. Army Materiel 
Command, has already made recommendations and is implementing 
improvements.
    Expeditionary military Operations in Iraq and Afghanistan have 
placed extraordinary demands on the contracting system and our 
contracting support personnel. The U.S. Army has never fought an 
extended conflict that required such reliance on contractor support. 
Approximately half of the personnel currently deployed in Iraq are 
contractor employees, who provide food services, interpreters, 
communications, equipment repair and other important services. 
Contracting and procurement must be an Army core competency.
    While the overwhelming majority of our contracting workforce, 
civilian and military, is doing an outstanding job under challenging 
circumstances, we must do a better job of organizing, resourcing, and 
supporting them in their critical work. We will take the steps 
necessary to ensure that we execute our responsibility effectively, 
efficiently and fully consistent with Army values.

                               CONCLUSION

    To paraphrase General Abrams, soldiers and their families are the 
All-Volunteer Force. We cannot have a healthy All-Volunteer Force 
without healthy Army families.
    In today's Army, you recruit the soldier, you retain the family. 
Working with General Casey, I am confident we will do both and we will 
do both well.
    I look forward to the dialogue with you today. We seek your 
continued strong support that will enable the Army to execute its many 
missions and help us to achieve the four imperatives set out by the 
Chief of Staff General George Casey. With your continued assistance to 
our soldiers and their families, we will remain the pre-eminent land 
power and we will remain Army Strong!
    Again, thank you for allowing me to testify. I look forward to your 
questions.

    Chairman Levin. General Casey?

  STATEMENT OF GEN GEORGE W. CASEY, JR., USA, CHIEF OF STAFF, 
                       UNITED STATES ARMY

    General Casey. Thank you, Mr. Chairman, members of the 
committee.
    I welcome the opportunity to come before you today to share 
my views with you on what I've seen in my first 7 months on the 
job, and to talk about the direction that the Secretary and I 
believe we need to move the Army, with your help, in the next 3 
or 4 years.
    As has been pointed out, our Nation has been at war for 
over 6 years, and our Army has been a leader on the front lines 
of that war, both abroad and at home. Over time, these 
operations have expanded in scope and duration, and, as a 
result, our All-Volunteer Force has been stretched and 
stressed.
    Over the last 6 years, Congress has responded to our 
request for resources; and that kind of commitment to the Army, 
our soldiers, and our families is both necessary and deeply 
appreciated.
    We live in a world where global terrorism and extremist 
ideologies are realities. As I look to the future, I believe 
that the next decades will be ones of what I call ``persistent 
conflict.'' What I mean by that is a period of protracted 
confrontation among states, nonstates, and individual actors 
who are increasingly willing to use violence to accomplish 
their political and ideological ends. There are several 
emerging global trends that I believe are likely to exacerbate 
this period of protracted confrontation. I'd like to mention 
just a few.
    First of all: globalization. Now, there's no question that 
globalization has had very positive effects on the prosperity 
of a lot of people around the globe, but it has also created 
``have'' and ``have-not'' conditions that are ripe for 
exploitation by some of these global terrorist groups.
    Technology is another double-edged sword. The same 
innovations that improve the quality of life and education and 
livelihood are also employed by terrorists who export terror 
around the globe and to manipulate our media.
    Demographic change. The populations of these lesser-
developed countries are expected to double in the next 20 
years. That'll create a youth bulge that, again, is ripe for 
exploitation by terrorist groups, especially as most of the 
governments of these lesser-developed countries are unable to 
deal with large populations.
    The demand for energy, water, and food for growing 
populations is likely to increase competition, and possibly 
conflict.
    I was on climate change and natural disasters. Now, they 
can cause humanitarian crises, population migrations, and 
epidemic diseases.
    The last two trends, global trends that worry me the most, 
are the proliferation of weapons of mass destruction and safe 
havens.
    But there are over 1,200 terrorist groups around the world, 
and we know for a fact that a lot of them, particularly al 
Qaeda, are seeking weapons of mass destruction. I firmly 
believe that if they get a weapon, they'll attempt to use it 
against a developed country.
    With respect to safe havens--and by that, I mean countries 
that are unwilling or unable to govern their own territory, 
much like we had in Afghanistan prior to September 11--safe 
havens can be used by these terrorists to plan and export their 
terrorist operations around the world.
    So, those are the trends that I believe will exacerbate 
this period of persistent conflict. While analysts generally 
agree with those trends, and they also agree that we can't rule 
out conflict with a state actor, however unlikely that may be--
they also agree that we're going to be unlikely to predict the 
time, location, or scope of these coming conflicts.
    We do know, however, that the Army will remain central to 
our Nation's security, and that we need versatile and agile 
forces that can rapidly adapt to unexpected circumstances.
    Now, the Army has a vision to build those forces, and we're 
already executing it. We intend to transform the current force 
into a campaign-quality expeditionary force that is capable of 
supporting the needs of combatant commanders across the 
spectrum of conflict, from peacetime engagement to conventional 
war in the 21st century. That's what we're about.
    So, Mr. Chairman, as we look to the future, we do so with 
an Army that's already stretched by the impacts of 6 years at 
war. While we remain a resilient, committed, professional 
force, today's Army is out of balance. The current demand for 
our forces exceeds the sustainable supply. We're consumed with 
meeting the demands of the current fight, and are unable to 
provide ready forces as rapidly as necessary for other 
contingencies.
    Our Reserve components are performing magnificently, but in 
an operational role for which they were neither organized or 
resourced. Our current operations requirements for forces in 
limited periods of time between the deployments necessitates a 
focus on counterinsurgency training at the expense of training 
for the full spectrum of operations.
    Soldiers, families, support systems, and equipment are 
stressed by the demands of these repeated deployments. Overall, 
we're consuming our readiness as fast as we can build it. But, 
with your help, we can act to restore balance and preserve this 
All-Volunteer Force, restore necessary depth and breadth to 
Army capabilities, and build capacity for the future.
    Mr. Chairman, I believe there are four imperatives that we 
need to do to restore the Army to balance. Implementing these 
imperatives will require several years, considerable resources, 
and the continued support of Congress and the American people. 
Those imperatives are: sustain, prepare, reset, and transform.
    First imperative: sustain. As Secretary Geren said, we need 
to improve the manner in which we sustain the Army's soldiers, 
families, and civilians. The recruiting and training--and 
retaining of our soldiers, who are the centerpiece of this 
force, can only be done by transforming our quality recruits 
into soldiers who are physically tough, mentally adaptive, and 
who live the warrior ethos. These warriors are our ultimate 
asymmetric advantage, and that's the one thing that no enemy 
can duplicate, now or in the future. We need to keep them with 
us.
    I mentioned we recognize the strain on families. We also 
recognize they play an increasing role in the readiness of this 
All-Volunteer Force, so we will ensure the quality of life for 
soldiers and their families is commensurate with the quality of 
their magnificent service.
    We will also ensure that our wounded warriors are cared for 
and reintegrated into the Army and society, and we'll never 
forget our moral obligation to the spouses and children and 
families who have lost their soldier since September 11.
    Second imperative: prepare. We need to continue to prepare 
forces for success in the current conflict. With your help, 
we've made great strides in equipping our soldiers, and we're 
continually adapting our training and equipment to keep pace 
with an evolving enemy.
    We remain committed to providing our deploying soldiers the 
best available equipment to ensure they maintain a 
technological advantage over any enemy that they face. We will 
also continue to provide tough, demanding training at home 
stations and combat training centers to give our soldiers and 
leaders the confidence they need to succeed in these complex 
environments. Military success in this war is tied to the 
capabilities of our leaders and soldiers, and we will not fail 
to prepare them for success.
    Third is: reset. We have to continue in this--especially in 
this period, to reset our soldiers for future deployments, as 
well as future contingencies. Let me stress the point that, as 
we reset, we are resetting for the future, not resetting the 
past.
    Since 2003, equipment has been used at a rate of over five 
times what we program, in harsh, demanding desert conditions. 
So, in addition to fixing, replacing, and upgrading our 
equipment, and retraining for future missions, we also have to 
revitalize our soldiers and their families by providing them 
the time and the opportunity to recover from the cumulative 
effects of sustained operations.
    Resetting our force is critical to restoring readiness, and 
reset must continue as long as we have forced deployed and for 
several years thereafter. The commitment to providing the 
resources to reset our forces is essential to restoring 
strategic depth and flexibility in the defense of the country.
    Lastly; transform. We must transform our Army to meet the 
demands of the 21st century. Transformation for us is a 
holistic effort to adapt how we fight, how we train, how we 
modernize, how we develop leaders, how we base our forces, and 
how we support our soldiers, families, and civilians. It's a 
journey for us, not a destination.
    Let me just say a few words about one element of our 
transformation. That's modernization.
    We believe we must continually modernize our forces to put 
our cold-war formations and our cold-war systems behind us, and 
to provide our soldiers with a decisive advantage over any 
enemy that they face.
    With your help, we'll continue to rapidly field the best 
equipment to our fighting forces, to upgrade and modernize 
existing combat and support systems, to incorporate new 
technologies spun out of the FCS, and, finally, to begin the 
fielding of FCS Brigade Combat Teams (BCTs) themselves. We're 
ultimately working toward an agile, globally responsive Army 
that's enhanced by modern networks, precision sensors, 
precision weapons, and platforms that are lighter, less 
logistics-dependent, and less manpower-intensive. It's truly a 
21st-century force.
    Sustain, prepare, reset, and transform. Each of these 
imperatives requires resources. At the start of fiscal year 
2007, Congress provided the Army sufficient base and 
supplemental funding to support the war, to reset, and to 
maintain and train the force. We did a lot of good with that. 
As Secretary Geren said, we have challenges this year. We need 
prompt funding of our global war on terror requirements to 
sustain the momentum that you've helped us gain in putting 
ourselves back in balance.
    In closing, your Army is the best in the world at what it 
does, and we are that way because of our values, because of our 
ethos and because of our people.
    We talk about our warrior ethos, and it is what all of our 
soldiers are grounded in, and it gives us a unifying theme 
across the whole force.
    Let me just wrap up, then. I get a lot of questions on 
quality. Some of you mentioned ``quality'' here. I was in 
Baghdad in August, I had the opportunity to pin a Silver Star 
on a young sergeant. It was Sergeant Kenneth Thomas. He was a 
member of the 1st Cavalry Division. He was out on a riverboat 
patrol on the Tigris River with the Iraqi police. The patrol 
was ambushed from the riverbank by about 50 to 75 insurgents. 
The Iraqi policeman that was manning the machine gun, the 
primary weapon of the boat, abandoned his position. Sergeant 
Thomas jumped on the weapon, began returning fire as incoming 
rounds bounced off the steel plates around the boat. They tried 
to punch through. They couldn't. They diverted to the opposite 
side of the river, got everyone out of the boat into a 
depression; so, they weren't taking fire, but they couldn't get 
out. The squad leader turned around and looked ask Sergeant 
Thomas and said, ``Get us a way out of here.'' He charged up 
the bank of the river, under fire, only to find that his 
departure exit was stopped by a fence. He took out his wire 
cutters, he began cutting the fence. The fence was electric. It 
knocked him down. He got back up. He continued to cut the 
fence, while the gloves were melting in his hand. He got 
through, pulled the whole squad through. The last guy got hung 
up, and this is all under fire. He went back, knowing he was 
going to get jolted again, got knocked down, dragged the last 
guy through, organized the squad, assaulted a house, and 
secured it so they could be evacuated. About an hour and a half 
of steady combat. For that, he was awarded the Silver Star. 
That's the kind of men and women that you have in your Armed 
Forces today.
    But it will require more than the courage and value of our 
soldiers to ensure our Army can continue to fight and win the 
Nation's wars in an era of persistent conflict. It'll require 
clear recognition by national leaders, like yourselves, of the 
threats and challenges that America faces in the years ahead 
and the need to ensure that our Armed Forces are prepared to 
meet them. I am optimistic that we can work together to face 
those challenges.
    Thank you.
    [The prepared statement of General Casey follows:]

          Prepared Statement by GEN George W. Casey, Jr., USA

    Mr. Chairman and distinguished members of the committee, on behalf 
of the more than 1 million Active, Guard, and Reserve soldiers, their 
families, and the civilians of the United States Army, serving around 
the globe, the Secretary and I welcome the opportunity to discuss the 
direction we intend to take the Army in the next several years.
    Our Nation has been at war for over 6 years. Our Army has been a 
leader on the front lines of this war and back here at home--protecting 
our people and securing our borders. Over time, these operations have 
expanded in scope and duration. As a result, they have stretched and 
stressed our All-Volunteer Force.
    Over these last 6 years, Congress has responded to the Army's 
requests for resources. In fiscal year 2007 alone, Congress provided 
over $200 billion to the Army, most at the start of the fiscal year and 
in time for the fully-funded Reset Program. That kind of commitment to 
the Army and our soldiers is both necessary and deeply appreciated.
    We live in a world where global terrorism and extremist ideologies 
are real threats. As we look to the future, national security experts 
are virtually unanimous in predicting that the next several decades 
will be ones of persistent conflict--protracted confrontation among 
state, non-state, and individual actors that use violence to achieve 
their political and ideological ends. Adversaries will employ 
propaganda, threat, intimidation, and overt violence to coerce people 
and gain control of their land or resources. Some will avoid our proven 
advantages by adopting asymmetric techniques, utilizing indirect 
approaches, and immersing themselves in the population.
    Many of these conflicts will likely be protracted--ebbing and 
flowing in intensity, challenging our Nation's will to persevere. 
Several emerging global trends may fuel this violence and enable 
extremist groups to undermine governments, societies, and values. 
Globalization, despite its positive effects on global prosperity, may 
create ``have'' and ``have not'' conditions that spawn conflict. 
Population growth and its ``youth bulge'' will increase opportunities 
for instability, radicalism, and extremism. Resource demand for energy, 
water, and food for growing populations will increase competition and 
conflict. Adverse impacts of climate change and natural disasters may 
cause humanitarian crises, population migrations, and epidemic 
diseases. Proliferation of weapons of mass destruction will increase 
the potential for catastrophic attacks that will be globally 
destabilizing and detrimental to economic development. Finally, failed 
or failing states unable or unwilling to maintain control over their 
territory may provide safe havens for global or regional terrorist 
groups to prepare and export terror.
    While analysts generally agree on these trends, we cannot predict 
the exact time, location, or scope of individual conflicts. We do know, 
however, that the Army will remain central to our national strategy to 
ensure our security in spite of these threatening trends. We need to 
ensure our forces are agile enough to respond rapidly to unexpected 
circumstances; led by versatile, culturally astute, and adaptive 
leaders; and supported by institutions capable of sustaining operations 
for as long as necessary to ensure victory. The Army has a vision to 
build that force, and is already executing this vision. We will 
continue along these lines and transform our current force into a 
campaign-quality expeditionary force that is capable of supporting the 
needs of combatant commanders operating effectively with joint, 
interagency, and multinational partners across the spectrum of conflict 
from peacetime engagement to conventional war. Simultaneously, the Army 
will pursue the necessary actions to restore balance to our current 
forces.
    While we remain a resilient and committed professional force, our 
Army today is out of balance for several reasons. The current demand 
for our forces exceeds the sustainable supply. We are consumed with 
meeting the demands of the current fight and are unable to provide 
ready forces as rapidly as necessary for other potential contingencies. 
Our Reserve components are performing an operational role for which 
they were neither originally designed nor resourced. Current 
operational requirements for forces and limited periods between 
deployments necessitate a focus on counterinsurgency to the detriment 
of preparedness for the full range of military missions. Soldiers, 
families, and equipment are stretched and stressed by the demands of 
lengthy and repeated deployments with insufficient recovery time. 
Equipment used repeatedly in harsh environmental conditions is wearing 
out at a far greater pace than expected. Army support systems including 
health care, education, and family support systems that were designed 
for the pre-September 11 era are straining under the pressures from 6 
years at war.
    Overall, our readiness is being consumed as fast as we can build 
it. We will act quickly to restore balance to preserve our All-
Volunteer Force, restore necessary depth and breadth to Army 
capabilities, and build essential capacity for the future, Four 
``imperatives'' frame the work we will do. Implementing them will 
require several years, considerable resources, and sustained commitment 
from Congress and the American people.
    First, we need to improve the manner in which we sustain the Army's 
soldiers, families, and civilians. Recruiting, training, and retaining 
our soldiers--the centerpiece of the Army--can only be done by 
transforming quality recruits into soldiers who are physically tough, 
mentally adaptive and live the Warrior Ethos. These Warriors are our 
ultimate asymmetric advantage--the one thing that cannot be matched by 
our adversaries--now or in the future. We recognize the strain on 
families, are aware that families play an important role in maintaining 
the readiness of our All-Volunteer Force, and must therefore ensure 
that their quality of life is commensurate with their quality of 
service. For these reasons, we will build a partnership with Army 
families and improve family readiness by standardizing and funding 
existing family programs and services; increasing accessibility and 
quality of health care; improving soldier and family housing; ensuring 
excellence in schools, youth services, and family child care; and 
expanding education and employment opportunities for family members. We 
will also ensure that our Wounded Warriors are cared for and 
reintegrated into the Army and society. We must never forget our moral 
obligation to the spouses, children, and families who have lost their 
soldier since September 11. Finally, we must continue to support our 
Army civilians. They have a 230-year record of dedicated service and 
they remain an integral part of the Army. As the Army's missions evolve 
and become more complex, so will the roles of Army civilians.
    Second, we will continue to prepare forces to succeed in the 
current conflict. We have made great strides in equipping our soldiers 
and are continually adapting our training and equipment to keep pace 
with an evolving enemy. We remain committed to providing all deploying 
soldiers the best available equipment to ensure they maintain a 
technological advantage over any enemy they face. We will continue to 
provide tough, demanding training at home stations and in our combat 
training centers to give our soldiers and their leaders the confidence 
they need to succeed in these complex environments. We will implement 
the Army Force Generation model by 2011 to manage the preparation of 
forces for employment and improve predictability for soldiers and 
families. Military success in this war is tied to the capabilities of 
our leaders and our soldiers--we will not fail to prepare them for 
success.
    Third, we must continue to reset our units and rebuild the 
readiness consumed in operations to prepare them for future deployments 
and future contingencies. Sustained combat has taken a toll on our 
soldiers, leaders, families, and equipment. Since 2003, equipment has 
been used at a rate over five times that programmed--in harsh and 
demanding desert and mountainous conditions. In addition to fixing, 
replacing, and upgrading our equipment and retraining for future 
missions, we must also revitalize our soldiers and families by 
providing them time and opportunity to recover in order to reverse the 
cumulative effects of a sustained high operational tempo. Resetting our 
forces is critical to restoring readiness--this year we will reset over 
130,000 pieces of equipment and almost 200,000 soldiers. Reset must 
continue as long as we have forces deployed and for several years 
thereafter to ensure readiness for the future. Commitment to providing 
the resources to reset our forces is essential to restoring balance and 
to providing strategic depth and flexibility for the Nation.
    Fourth, we must continue to transform our Army to meet the demands 
of the 21st century. Transformation is a holistic effort to adapt how 
we fight, train, modernize, develop leaders, station, and support our 
soldiers, families, and civilians. Transformation is a journey--not a 
destination. Transformation is also a multi-faceted process.
    We must grow the Army to provide and sustain sufficient forces for 
the full range and duration of current operations and future 
contingencies. This growth will allow us to revitalize and balance our 
force, reduce deployment periods, increase dwell time, increase 
capability and capacity, and strengthen the systems that support our 
forces. We have authorization to increase the Army's size by 74,000 
soldiers over the next 5 years. We will achieve this as fast as 
possible.
    We must continuously modernize our forces to put our Cold War 
formations and systems behind us and to provide our soldiers a decisive 
advantage over our enemies. We will continue to rapidly field the best 
new equipment to our fighting forces, upgrade and modernize existing 
systems, incorporate new technologies derived from the Future Combat 
Systems research and development, and soon begin to field the Future 
Combat Systems themselves. We are ultimately working toward an agile, 
globally responsive Army that is enhanced by modern networks, 
surveillance sensors, precision weapons, and platforms that are 
lighter, less logistics-dependant, and less manpower-intensive.
    We are over half-way through the largest organizational change 
since World War II. We must continue to convert our combat and enabling 
formations to modular units that are more deployable, tailorable, and 
versatile, and have demonstrated their effectiveness in Iraq and 
Afghanistan. We must also continue to rebalance our capabilities by 
converting less necessary skills to those in high demand, and by 
shifting much-needed Reserve Forces into the Active component.
    We must continue institutional change in processes, policies, and 
procedures to support an expeditionary Army during a time of war. Most 
of our systems were designed to support the pre-September 11 Army. Our 
transformation cannot be cemented until the institutional systems--
personnel, education, training, health care, procurement, and support 
among them--are adapted to meet the realities of our current and future 
environments. We will continue Army Business Transformation through 
management, contracting, and acquisition reform; comprehensive redesign 
of organizations and business processes that support our expeditionary 
Army at war; and consolidation of bases and activities. While this is 
largely an internal process, it may well be the most difficult aspect 
of transformation--and the one that is most essential to giving us the 
Army we will need for the rest of this century.
    We must continue to adapt our Reserve components from a paradigm of 
a strategic Reserve only mobilized in national emergencies, to an 
operational Reserve, employed on a cyclical basis to add depth to the 
Active Force. This has been happening for the last 6 years and will be 
required in a future of persistent conflict. Operationalizing the 
Reserve components requires national and State consensus and support as 
well as continued commitment from Reserve component employers, 
soldiers, and families. It necessitates changes in the way we train, 
equip, resource, and mobilize the Reserve components.
    We must continue to develop agile and adaptive leaders. Leaders in 
the 21st century must be competent in their core proficiencies; broad 
enough to operate across the spectrum of conflict--from humanitarian 
and peacekeeping operations through counterinsurgency to major 
conventional operations; able to operate in joint, interagency, and 
combined environments and leverage political and diplomatic efforts in 
achieving their objectives; at home in other cultures, able to use this 
awareness and understanding to support operations in innovative ways; 
and courageous enough to see and exploit opportunities in the 
challenges and complexities of our future operating environments.
    Each of these imperatives requires resources--on time and in the 
amounts needed to meet the mission. We are 46 days into fiscal year 
2008, and it is imperative that the Army and Congress work in 
partnership to ensure that funding is made available to the Army in 
order for us to sustain, prepare, reset, and transform.
    With enactment of the DOD Appropriations Bill, the Army can 
continue essential missions for a limited time. Lack of funding for the 
global war on terror will cause us to tap into our base programs to 
continue essential operations. In the case of our operation and 
maintenance account, we project that with the base program paying for 
both base and global war on terrorism costs at current levels, OMA 
funds will be exhausted by late January, or if Congress approves a 
reprogramming request, mid-late February.
    I ask Congress to provide the necessary resources to ensure we 
maintain continuity of funding in order to support an Army at War. Our 
continued and close partnership with Congress will be essential as we 
restore the Army's balance over the next several years.
    The Army has long been the strength of this Nation. We were in 
1775, and we are today. For 232 years, the Army has symbolized, in the 
truest sense, American resolve and commitment to defend its interests. 
We protect the homeland and lead the Nation's efforts against the 
scourge of global terror, and we will do so in a future of persistent 
conflict. Our soldiers, their families, and our Army civilians 
epitomize what is best about America: they work hard, selflessly carry 
heavy burdens, and are willing to face a hard road ahead.
    Today, we are locked in a war against a global extremist threat 
that is fixed on defeating the United States and destroying our way of 
life. This foe will not go away nor will it give up easily. At stake is 
the power of our values and our civilization--exemplified by the 
promise of America--to confront and defeat the menace of extremist 
terrorists. At stake is whether the authority of those who treasure the 
rights of free individuals will stand firm against the ruthless and 
pitiless men who wantonly slay the defenseless. At stake is whether the 
future will be framed by the individual freedoms we hold so dear or be 
dominated by demented forms of extremism. At stake is whether we will 
continue to expand freedom, opportunity, and decency for those who 
thirst for it, or let fall the darkness of extremism and terror.
    Faced with such a long and difficult struggle, we must remind 
ourselves that this Army exists to field forces for victory. We are at 
war, fighting for our freedom, our security, and our future as a 
Nation. We have made hard sacrifices, and there will be more. We have 
lost more than 2,400 soldiers to hostile fire and had over 20,000 
wounded--nearly a quarter of those from the Reserve components. We have 
also awarded a Medal of Honor, 9 Distinguished Service Cross Medals, 
440 Silver Stars, and more than 6,700 other awards for valor.
    Our soldiers, families, and civilians are the strength of our Army 
and they make the Army the strength of the Nation. Their sacrifices are 
what builds a better future for others, and preserves our way of life. 
They will lead our Nation to victory over our enemies. They will 
preserve the peace for us and for our allies. Our Warrior Ethos has it 
right--I will always place the mission first, I will never quit, I will 
never accept defeat, and I will never leave a fallen comrade.
    The Secretary and I are greatly encouraged by the recent actions of 
Congress, the President, and the Secretary of Defense, which reflect 
clear recognition of our challenges following 6 years of war. We look 
forward to working with you to maintain our Army--still the best in the 
world at what we do.

    Chairman Levin. Thank you very much, General.
    First, let me ask you, Mr. Secretary--we have wounded 
warrior legislation, a very extensive and comprehensive 
legislation, as part of our Senate-passed authorization bill. 
It would end the conflicts in disability assessments, it would 
end the waits for disability assessments, it would end the gaps 
between the DOD and the Veterans Administration (VA). We've 
worked very carefully with the Veterans Affairs Committee on 
this legislation. Does the administration support our wounded 
warrior legislation?
    Secretary Geren. Well, we see parts of this legislation 
that work very well with what we're trying to do. The President 
would like to see Dole-Shalala implemented, and I understand--I 
haven't seen the----
    Chairman Levin. There are some additional provisions in 
Dole-Shalala which are not in our provision. I know the 
President would like them to be adopted. But, as far as our 
legislation goes, which is comprehensive, does the President 
support our legislation?
    Secretary Geren. Let me speak from the perspective of the 
Department of the Army and the Office of the Secretary of 
Defense (OSD). Again, the President has said he wants to see 
Dole-Shalala, in its entirety, enacted. Your legislation 
addresses parts of that, but not all of it.
    Chairman Levin. I would have put it the other way. I would 
say Dole-Shalala addresses part of our legislation and adds 
something to it. Would you accept that?
    Secretary Geren. There's overlap and issues in your 
legislation that aren't covered in Dole-Shalala, and vice 
versa.
    Chairman Levin. All right. Let me move on, then.
    Chairman Levin. General, the training and equipment 
readiness for our nondeployed units has fallen sharply, would 
you agree with that?
    General Casey. It's actually stayed about the same since 
last summer and it's not good.
    Chairman Levin. All right. But last summer was below what 
it needs to be.
    General Casey. Right.
    Chairman Levin. Would you tell us how far below what it 
needs to be it is, and whether that is an acceptable risk.
    General Casey. At this level of classification at this 
hearing----
    Chairman Levin. Yes.
    General Casey.--as you'll recall from last summer, it is 
not where it needs, and that is a key element of putting 
ourselves back in balance. To do that, we have to increase the 
supply of our forces, and the demand has to come down. The 
sooner we do those two things, the faster we will build the 
readiness in the next-to-deploy forces.
    Chairman Levin. Is the current level of risk, which has 
accompanied that lower level that it needs to be, an acceptable 
level of risk?
    General Casey. I believe the level of strategic risk is 
acceptable.
    Chairman Levin. It is.
    General, would you agree with the following statement: that 
the Army went to war in Iraq with insufficient body armor, 
insufficient armor on wheeled vehicles, insufficient radios, 
machine guns, insufficient aviation survivability equipment--
would you agree with that? If you do agree, can you tell us 
what we are doing to overcome those shortfalls and how we're 
factoring in the lessons that are learned from current 
operations to preclude or to minimize those kind of problems in 
the future? But, first, would you agree with that, what I said 
at the beginning?
    What are we doing now to avoid those from being repeated?
    General Casey. I think, as I said in my opening statement, 
we have already made great strides in equipping our soldiers. 
But I think Senator Inhofe's point here about what happened in 
the 1990s is instructive for all of us. As I came in and I had 
my transition team look out to 2020, I also had them look back 
13 years, to 1994, and I said, ``What was the country doing 
then?'' We were basking in the glow of the great success in 
Operation Desert Storm, basking in the glow of success in the 
Cold War, looking around to spend the peace dividend, and 
decreasing the size of the Army by about 300,000. So, we made 
some decisions a decade ago that put us in the position we 
found ourselves in on September 11, and I think that's a huge 
message for this committee. When we make mistakes like that, it 
takes another decade or so to fix them. So, we all need to work 
on that together.
    Chairman Levin. Thank you.
    On recruiting and retention, according to Army data, 
retention of West Point graduates is lower than historical 
norms. The West Point class of 2000 saw 34 percent leave the 
Service as soon as they were able; 54 percent of that class 
left active Service by the 5\1/2\-year point. Can you tell us 
if that is troubling, and, if so, what is being done to reverse 
that trend?
    The second part of this question has to do with the 
increase over the last 4 years of new recruits that lack a high 
school diploma. In 2003, 94 percent of all new recruits 
graduated from high school; in fiscal year 2007, the number had 
dropped to 79 percent.
    So, both in terms of retention of the West Point graduates, 
which is at the lower level than historically the case, but 
also in terms of the increase of category-4 recruits, which 
means the lower number of high school graduates, in particular; 
what is the Army doing in both of those areas?
    General Casey. First of all, on the officer retention, 
Senator, your data on the--those West Point classes is, in 
fact, right. They're 8 percent above historic norms.
    Chairman Levin. Above, in terms of dropout?
    General Casey. Of dropouts.
    Chairman Levin. Okay.
    General Casey. Now, that said, officer retention, in 
general, is stable. But it is one of our primary concerns. As I 
said in my statement, we invest in these young captains and 
majors and sergeants, and it's an 8- to 10-year investment. If 
we lose them, it takes another decade to build them back. So, 
we're very concerned about that. Several months ago, we 
initiated a selective retention bonus for captains. Over 9,000 
captains have already taken that bonus, and so, we think that's 
a very positive incentive. We are concerned about it. We have 
to keep the good people with us. That's my greatest concern.
    On the quality of recruits, all of our recruits are 
qualified. They may not have a high school diploma, but they 
have a high school education. We are meeting standards in the 
lowest categories, and in the first three intelligence 
categories. We are watching that very closely. When Secretary 
Gates agreed to accelerate the growth of the Army by 2 years, 
he did it with the proviso that we not sacrifice quality to do 
that. The Secretary and I are committed to coming across on 
that.
    Chairman Levin. Is the increase in the number of category-4 
recruits a problem, as far as you can see? I'm asking you 
whether or not it's the increase in that percentage, does that 
trouble you? That's all I'm asking.
    General Casey. No. It's such a small percentage increase, 
I'm not concerned about that right now.
    Chairman Levin. Thank you.
    Senator Warner.
    Senator Warner. Thank you very much, Mr. Chairman.
    I commend both of you. The Army, at this point in its 
history, needs strong leadership. I view, in both of you, that 
potential that you've given it, are giving it, and will 
continue to give it.
    I want to turn to that very interesting statement, that you 
look into the future, General Casey, and you see persistent 
conflict. Regrettably, that may well be the state of the world. 
But, I also wish to draw your attention to the fact that we are 
focusing, here today and the coming budgets, on the Army and 
meeting the four imperatives that you listed, General Casey. 
But, bear in mind that that persistent conflict is across a 
spectrum of challenges that really require this country to 
maintain a very strong Navy, Air Force, Marine Corps, and Army.
    So, throughout history there's always been, I think, a 
strong competition between the military departments, for 
resources. I was privileged to serve in the Pentagon many years 
ago as the Navy Secretary. I saw it firsthand. I've seen it 
here these many years that I've been privileged to serve on 
this committee. That will continue. But, at this point in time, 
I think the pendulum has to swing somewhat towards the Army to 
meet your four imperatives. We cannot take our eye off that 
persistent conflict, diversity, and the challenge that the 
overall Armed Forces may meet.
    After the privilege of being in this body for many years 
and associated with the military. I think future Presidents, 
future Congresses are going to exercise, within their 
respective constitutional powers, very, very firm oversight and 
direction on future military operations. This one has taught us 
many lessons, not only Iraq, but the continuing situation in 
Afghanistan. As a consequence, as we do that, we have to keep a 
balanced force structure, as envisioned by Goldwater-Nichols, 
the jointness that has made, I think, our Armed Forces stronger 
and more effective today.
    You said you need our help. There's a disposition in the 
Congress to give that help. But is that help only in the form 
of money, or do you wish to have some legislation to enable you 
to achieve the four imperatives that you've listed?
    General Casey. Senator, it's primarily in the form of 
money. However, I will tell you, I mentioned the fact that the 
National Guard and Reserve are executing operational missions 
that they weren't originally designed for, and we are working 
within the Department here to reshape some of the legislation 
and policies that were put in place in the 1950s for a 
different kind of Guard and Reserve. We've changed the paradigm 
on our Reserve component forces, and I think we need to level 
with them, tell it what it is. To do that, I think it's 
ultimately going to require some legislation to change that. 
So, I'd like to work with you on that in the coming months.
    Senator Warner. Will that be forthcoming in the present 
budget cycle for 2009?
    General Casey. I think it'll probably be 2010. I don't 
think we're at a point to get it into 2009 just yet.
    Senator Warner. I want to talk broadly about another issue. 
Quite interesting. There's an excellent article, in my 
judgment, in today's Washington Post on the military 
perspective of the situation in Iraq and how the surge 
operations have achieved the result that the President laid 
down; that is, a greater security.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Warner. Yesterday, many of us attended briefings 
with the Secretary of State and Defense and confirmed we have 
not received that degree of political reconciliation from top 
down, as distinguished from bottom up.
    A number of officers have spoken out, I think, very 
courageously on this, but, nevertheless, anonymously and that 
brings me to the following. We're all familiar with General 
Sanchez's comments on October 12, when he spoke about the war, 
and he said, ``America is living in a nightmare with no end in 
sight.''
    Now, I fully respect the right of a retired officer to make 
those comments, hopefully within the bounds never to inflict 
injury or greater risk to the forces fighting. But in that same 
forum, he was asked why he did not bring up his concerns about 
the conduct of the war when he was on Active Duty. He 
responded, ``The last thing you want is for currently-serving 
officers to stand up to political leadership.''
    Reading in that article today, I think those officers that 
were quoted were within the confines, but what is your 
direction, General Casey, to your officer corps today about 
their responsibility to speak up while in uniform and address 
issues which they see, particularly those on the front lines of 
the combat situation, like the deterioration of the ability of 
the Iraqi government to come forward and respond to the 
improved security arrangements which have been fought so hard; 
death, wounds, and all sorts of sacrifices to achieve it?
    General Casey. Senator, what I tell my generals is, they're 
obliged to ask the hard questions and to speak the hard truths. 
They owe it to the country, and they owe it to their soldiers 
to ensure the political leaders, here, their unvarnished views 
on hard issues. I tried to do that the whole time I was in 
Iraq, and I encourage everybody to do the same.
    Senator Warner. My time is up, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Warner.
    Senator Kennedy.
    Senator Kennedy. Thank you very much.
    I listened carefully--General Casey, you talked about the 
attitude of the defense of our country after Operation Desert 
Storm and the Cold War, and that's where we were in September 
11; but on September 11 the Army had 1,300,000 in Active Duty. 
We're battling against Iraq, of 25 million, that had been 
beaten 10 years before against--whose army had been disbanded, 
military had been put in jail--Iraqis who had fought the 
Iranians during that period of time. Five years later, you're 
saying the current demand on our forces exceeds the sustainable 
supply, we are consumed with meeting demands of the current 
fight, unable to provide ready forces rapidly as necessary for 
potential. Our Reserve components are performing an operational 
role which they are neither originally designed nor resourced, 
current operational requirements for forces in limited periods 
between deployment necessitates a focus on counterinsurgent, to 
the detriment of preparedness for full range of military 
missions; soldiers, families, equipment are stretched by 
demands of lengthy, repeated deployments, equipment used in 
harsh environment, wearing out at a far greater pace than 
expected. Who is this mythical military that's battling and 
taking on an army of 1,300,000 people and find ourselves in 
this kind of shape? Who is this incredible military force that 
is challenging the greatest military force that we had, even on 
September 11? Who are they?
    General Casey. Are you talking about the insurgents and the 
terrorists that are operating inside Iraq and Afghanistan?
    Senator Kennedy. I'm talking about who has challenged our 
military, that it put the military in the condition that you've 
just described, when we had 1,300,000 at the start of the war, 
against a country of 25 million, which we defeated successfully 
10 years before, and whose army had been basically dismissed, 
the military had been put in jail, and now we have this 
incredible force, and you talk about how we are going to, in 
the military, we're going to have to take on this increasingly 
threatening force that is out there, the enemy. How did this 
all happen?
    How are we going to alter, change, and shift it?
    General Casey. Senator, I'd go back to what we said about 
decisions that were made in the 1990s. This force in numbers 
was 1.3 million, but it was not organized, trained, and 
equipped fully.
    Senator Kennedy. 1,300,000 against, who? What were they 
against?
    General Casey. Half of those are in the Guard and Reserve.
    Senator Kennedy. All right. But who's their opposition?
    General Casey. The opposition was originally the Iraqi 
military, which we dealt with quite rapidly.
    Senator Kennedy. The military, they were defeated and 
disbanded.
    General Casey. Right.
    Senator Kennedy. With this 1,300,000, who is it that we 
can't handle?
    General Casey. But I'd go back to that 1,300,000, Senator, 
was not properly organized, trained, and equipped.
    Senator Kennedy. To take on an Iraq of 25 million, that had 
been defeated----
    General Casey. To take on anything.
    Senator Kennedy.--10 years before and had a defense budget 
of, what?
    General Casey. There's a perception that the National Guard 
left a bunch of its equipment in Iraq and Afghanistan.
    They never had it.
    Senator Kennedy. If we can keep moving, just to follow up 
on a question posed by Senator Levin. As I understand it, over 
half of the West Point class of 2000 left as soon as possible; 
2001 fared slightly better, 54 percent. So, are we losing half 
of the West Point class now?
    General Casey. Those figures sound about right, Senator. As 
I told Senator Levin.
    Senator Kennedy. Is that the best that we can do?
    General Casey. That is slightly above historical norms.
    Senator Kennedy. Is that acceptable to you? Just as 
somebody who takes seriously the people I appoint to the 
military academy, I'm really rather shocked that the people 
that I appoint, that get that opportunity to serve, are not 
staying in there. They make all kinds of representations when 
they're looking for these appointments to go to the military 
academy, and they're outstanding young people. Well, why is it 
that they're not staying in, with the kinds of opportunities 
they have and the expressions I'm sure they've made to each and 
every one of us. We appoint a certain percent; the House of 
Representatives, the President selects the others; and only 
half of the people that we appoint are staying in the military 
from West Point.
    General Casey. Yes. Senator, all those decisions to stay or 
go are very personal decisions. As I talk to the young captains 
and majors, a big factor is the extended deployments that we're 
putting them on. As I said, we have to put ourselves back in 
balance.
    Senator Kennedy. This is in today's Washington Post. It 
talked about Army Lieutenant General Odierno, the commander. 
It's unclear how long the window, as Senator Warner pointed 
openly, declined at least as they define in attack--sharp 
reduction on attacks on troops and civilians. The lack of 
political progress calls into question the core rationale 
behind the troop buildup President Bush announced in January, 
which is premised on the notion of improved security to create 
space for Iraqis to arrive at new power-sharing. What happens 
if there is no breakthrough at the next summit--if that doesn't 
happen, Odierno said, we're going to have to review our 
strategy.
    Here's General Campbell, 1st Cavalry, complained last week, 
``The Iraqi politicians, out of touch, ministers don't get out, 
they don't know what the hell is going on, on the ground.''
    Aren't we effectively outsourcing American military and 
security issues to the politicians in Iraq that refuse to leave 
the buildings and go out and see what's going on and making an 
accommodation so that we might be able to see the beginning of 
the withdrawal of American troops?
    General Casey. I wouldn't agree with the statement that 
we're outsourcing security, Senator.
    Senator Kennedy. He couldn't say it any better, ``The 
ministers don't get out, they don't know what the hell is going 
on, on the ground.'' We're still staying over there? How long 
are we going to stay over there? Until the civilian leadership 
understand what's going, on the ground?
    General Casey. Senator, I think the better way to say it is 
what we have all said, that the solution in Iraq is ultimately 
not a military solution, it's a political solution. I applaud 
those officers for speaking out about that.
    Senator Warner. I join you and applaud those officers for 
speaking out, because that's the type of information this body 
needs.
    Chairman Levin. I think we all, by the way, are grateful 
when military officers speak out, speak honestly. We ask them 
to do that. They do that. Their comments this morning, as far 
as I'm concerned, are just what many of us have been saying for 
the last few years, and we're grateful for that.
    Secretary Geren. Mr. Chairman, I'm concerned that perhaps 
something that General Casey or I said has been misunderstood, 
based on Senator Kennedy's question. I just want to make sure 
the record is correct, as far as the number of Active Duty 
soldiers. Perhaps we said something referring to the total 
military, but the active-duty military, in 2001, was about 
482,000, and we're now at about 520,000. But with Guard and 
Reserve, it approaches a million. Just to make sure that the 
record reflects that. When you look at the rest of the military 
(Air Force and Navy) obviously, the numbers are greater. But I 
want to make sure the record was clear on that.
    Chairman Levin. Okay, thank you.
    Senator Sessions. Is that just Army? You said ``the 
military.''
    Secretary Geren. 520,000 Active Duty Army and roughly a 
half a million in the Guard and Reserve. So, the total Army is 
around a million soldiers today.
    Chairman Levin. Thank you.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Mr. Secretary, in your testimony you referred briefly to 
improvements in treatment for TBI, which many people have 
called the signature wound of this war. I first became very 
concerned about the lack of accurate and timely diagnoses of 
TBI when a neurologist from Maine came to see me many months 
ago and told me about a soldier, whom he diagnosed as having 
TBI, who had not been caught in any of the screening. That, 
obviously, is very serious. You talk, in your testimony, about 
having a program for every soldier to educate and assist them 
in recognizing and preventing TBI, but what the medical experts 
tell me would be most effective is if there were both pre- and 
post-deployment screening specifically for TBI, so there would 
be a baseline test that could be used, upon a soldier's return, 
to compare, to see if, in fact, there is an incident of TBI 
that has not been picked up. Are you doing that kind of 
screening now?
    Secretary Geren. You're exactly right, we just started this 
past summer in order to properly diagnose and analyze the 
information we have, it's important to have baseline 
information. For all the combat brigades that are going over 
now, we do a baseline test before they go. By early next year, 
we will have that test for everybody that deploys. But we do 
need that information before they leave, so we have something 
to compare to when they get back. When they get back, we have 
an immediate post-deployment health assessment, which includes 
a TBI test. Six months later, we have a second. But we started, 
this summer, at Fort Campbell, with a pilot program on doing 
the predeployment screening, and it's something we're going to 
extend to the entire force. Very important. I agree with you, 
Senator.
    Chairman Levin. I want to thank Senator Collins, by the 
way. One of the reasons we have, in our bill, that requirement 
for predeployment and postdeployment screening is because of 
her efforts. Other members of this committee made a real point 
of putting that into our wounded warriors legislation. There's 
a number of us who have been involved in that.
    Secretary Geren. Thank you, I appreciate that. That's a 
very important initiative.
    Senator Collins. Thank you.
    Thank you, Mr. Chairman.
    I'm also concerned about reports that PTSD is showing up, 
particularly in our Guard and Reserve members, many months 
after they've returned and have resumed their civilian jobs. 
You mentioned, just now, a 6-month reassessment. Is that 
happening for Guard and Reserve members? General Casey, if this 
should be directed to you instead, don't hesitate to intervene.
    Secretary Geren. It's for all forces that have been 
deployed. This issue, I know you're aware of, but I want to 
mention. Starting last summer, we started a chain-teach program 
with the goal of reaching all of our soldiers--Active, Guard, 
and Reserve--on how to spot the symptoms for both PTSD and TBI. 
It's a chain-teach program. So far, we've now taught it to over 
750,000 of our million soldiers. We're going to complete the 
rest over the coming months. But it's a primer on, what kind of 
symptoms to look for, what do you do for treatment? I think, 
most importantly, we believe that this chain-teach program is 
going to help remove the stigma, so people that are 
experiencing problems in this area will come forward and try to 
deal with them, and not be something they're ashamed of. We're 
also providing this chain teaching to families, as well, so 
they would be in a position to spot these symptoms in their 
loved ones.
    So, it's an area where we have a lot to learn. Congress has 
provided us considerable additional resources. You all gave us 
$900 million last year in the supplemental, $300 million for 
research and $600 million for clinical, and we are working to 
apply those resources effectively.
    Senator Warner asked things that Congress could help us 
with--both for mental health and other types of health care 
services, there's a shortage of trained providers. We've had an 
effort out to hire 300 new mental health workers. We've been 
able to fill less than a third of those, up until now. It's a 
real challenge for us.
    We also hear, from around the country, that we aren't 
getting the kind of participation in the TRICARE system to 
provide services to our soldiers and their families outside of 
off-post. So, the health care area is an area that, as a 
country, where we face shortages, and it impacts our ability to 
deliver those services, but it's an area where, as an Army, we 
recognize the challenge, and we're doing better, but it's an 
area, working with Congress, I'm hopeful we'll continue to 
improve.
    Senator Collins. Thank you.
    General Casey, I assume you're familiar with a relatively 
new Government Accountability Office (GAO) report--it came out 
in September--that talks about the readiness challenges of the 
Army National Guard. It points out that equipment shortages and 
personnel challenges have increased as a result of the onerous 
demands that are being put on the Guard and Reserve components, 
as they're being deployed more and more often overseas--and it 
raises concerns about whether our Guard units have sufficient 
resources, in terms of equipment and personnel, to cope with 
natural disasters when they're called up by the States' 
Governors and also their homeland security responsibilities, 
which are of particular concern to me, given my 
responsibilities on the Homeland Security Committee.
    What is being done specifically to ensure that we have 
adequate resources at home to cope with homeland security 
challenges and natural disasters?
    General Casey. Thank you very much, Senator. We are working 
very closely with the Guard to ensure that they have sufficient 
equipment on hand to deal with State missions, as well as to 
prepare themselves for future missions; and then, we are 
absolutely committed to ensuring, when they do deploy, they 
deploy with the latest and best possible equipment.
    We've made great strides in this area, but we have a few 
more years to go. With your help, we have about $35 billion 
over the last few years to put against National Guard 
equipment; about half of that, $14 billion, will be fielded in 
the next 2 years.
    So, just let me give you some examples of what that means. 
In 2001, there were about 5,800 heavy trucks in the Guard; by 
next year--or by 2009, that'll be up to 32,000. Radios, in 
2001, 13,000; by 2009, 66,000.
    So, it's coming. It's not there yet. We do specific work on 
hurricane seasons to make sure that the States that are 
hurricane prone have the equipment they need for those, but we 
understand the needs and we're committed to providing the Guard 
the equipment that they need for both State and for real 
missions.
    Senator Collins. Thank you.
    Mr. Chairman, I know my time has expired. I would suggest 
that the September GAO report paints a far worse picture than 
what General Casey has just described, and I think it would be 
helpful to the committee if the General would respond more 
specifically to the findings in the GAO report.
    General Casey. I don't want to try to paint a rosy picture. 
We are where we are now. What I tried to give you was where 
we'd be in 2 years.
    Senator Collins. Thank you.
    Chairman Levin. General, if you could, for the record, 
respond to the GAO report, as requested by Senator Collins, 
we'd appreciate it.
    [The information referred to follows:]

    The Government Accountability Office (GAO) report sought to address 
the sufficiency of tracking reset expenditures and the reset strategies 
of the Army and Marine Corps. As noted on page 40 of the report, the 
Department of Defense nonconcurred with the GAO's findings.
    In this report, the GAO noted that large amounts of National Guard 
equipment had been left in theater to support ongoing operations in 
Iraq and Afghanistan, citing a dated report from October 2005. The 
facts show that, as of November 25, 2007, the Army National Guard had 
left less than 1 percent of its equipment behind.
    The Army has committed an unprecedented level of resources to 
address National Guard equipping needs. With $17.1 billion in fiscal 
year 2007 funding, the Army reset 9 Army National Guard Brigades, 
repaired 55,145 pieces of National Guard equipment at the State level, 
and began procuring $2.5 billion in equipment to replace Reserve 
equipment left behind in theater. We are also fencing $27 billion for 
Army National Guard procurement through 2013. Equipment deliveries are 
beginning to fill shortages and modernize our fleets.
    However, we need your continued support. Working together, we will 
ensure the Army National Guard maintains the necessary equipment to 
conduct homeland defense and security missions, while also completing 
its transition from a strategic Reserve to an operational Reserve.

    Chairman Levin. Senator Byrd.
    Senator Byrd. General Casey, in your comments before the 
National Press Club in August, and in your prepared testimony 
today, you suggest that increasing competition for oil 
resources, particularly with the growing demand in China and 
India, will be a source of international conflict in coming 
decades. You appear to be suggesting that a primary 
justification for developing an expanded military is to secure 
adequate oil supplies for the U.S. If so, is that not an 
unrealistic objective, and would it not be more prudent to 
accelerate investment in infrastructure and alternative energy 
and to ensure that market mechanisms operate smoothly?
    General Casey. That was not what I was trying to suggest, 
Senator. I was just trying to point out the fact that--for 
example, the middle class population of India is burgeoning, 
and it already exceeds the population of the United States. The 
estimates that I have read about oil research and 
infrastructure improvements say that it's not going to bridge 
the gap, we're not going to have the oil resources that we 
need. As people try to shift to cleaner fuels, like natural 
gas, 60 percent of the world's natural gas resources are in 
Russia, Iran, and Qatar--we're going to be drawn more to the 
Middle East, I think, rather than less. China also has a 
burgeoning middle class. I believe the competition, not just 
for oil resources, but for water and other things, is going to 
generate global competition. Now, whether it turns to conflict 
remains to be seen.
    Senator Byrd. The International Energy Agency forecasts--
contrary, I believe, to your estimate that the demand for oil 
will outpace supply by around 2030--forecasts that the 
Organization of the Petroleum Exporting Countries will have 
little spare capacity left by 2012, and predicts that supply 
increases from other producers will start flagging as early as 
2009. Now, if this estimate is accurate, the competition, that 
you suggest may occur, is already upon us. Specifically, what 
role do you see the military taking in this global struggle for 
energy resources?
    General Casey. Yes. I don't see the military playing a 
direct role in it, Senator. What I highlighted those trends, of 
which this is one, as trends that could exacerbate what is 
already likely to be a period of protracted confrontation. But 
I do not see the military having a direct role in this.
    Senator Byrd. You do not.
    Iran currently has a stable government and economy, and has 
the second largest oil Reserves, globally, with approximately 
10 percent of the world's oil. While the U.S. does not import 
oil from Iran, the economies of Japan and Europe are dependent 
on Iranian oil production and export. Is a military conflict in 
Iran a practical approach to addressing our differences with 
the Iranian government? Is it a practical approach?
    General Casey. Senator, that's a policy question here that 
I wouldn't even want to comment on.
    Senator Byrd. It sounds more like a practical approach to 
oblivion, a military conflict in Iran.
    General Casey, does the United States have the military 
depth to conduct combat operations in Iran? Could we be certain 
that a U.S. strike would destroy all Iranian nuclear 
facilities?
    General Casey. Senator, you're asking hypothetical 
situations that would have to have a lot of conditions before I 
could even give you a remote answer to that. I'd prefer not to 
address it.
    Senator Byrd. Well, hypothetical--I'm asking a question. I 
don't think we're talking about hypothetical situations here. 
Does the United States have the military depth to conduct 
combat operations in Iran? Could we be certain that a U.S. 
strike would destroy all Iranian nuclear facilities.
    General Casey. Senator, the U.S. military has the depth to 
conduct combat operations anywhere in the world. On the second 
question, the track record for destroying targets entirely by 
air is not 100 percent, and so, I would expect any type of 
attack wouldn't be 100-percent successful. Again, this is a 
hypothetical situation.
    Senator Byrd. Thank you, General.
    Chairman Levin. Thank you, Senator Byrd.
    Senator Martinez.
    Senator Martinez. Thank you, Mr. Chairman.
    I want to thank both of the witnesses today for their 
service to our country at this difficult time.
    General Casey, would you expand for me on the condition of 
the National Guard and its equipment as we were faced in a 
post-September 11 world which then require their deployment? 
Because I'm not sure that was fully answered earlier. So, if 
you wouldn't mind.
    General Casey. As I started to respond to Senator Kennedy, 
the Guard and Reserve Forces, prior to September 11, were not 
fully manned and equipped. There's a perception that the reason 
that the Guard and Reserve have equipment shortages was that 
they left it in Iraq is just not true. Less than 5 percent of 
the Guard and the Reserve equipment was left in Iraq. They 
never had it, to begin with, because they were a strategic 
Reserve, and that's what I said in my opening statement. We're 
using them in a role that they weren't originally designed or 
resourced for, as an operational Reserve.
    Now, that said, we've made great strides, right from the 
beginning, in ensuring that the Guard and Reserve had the 
equipment, the right equipment, when they deployed. We made a 
decision, back when I was the Vice Chief of Staff of the Army, 
to issue the first new soldier personal equipment to the Guard 
brigades that were going over in early 2004, and that has 
continued. We have shared the quality of the equipment with the 
Active, the Guard, and Reserve equitably.
    Now, as I said to Senator Collins, we're not where we need 
to be right now, by any stretch of the imagination. But you 
have given us the resources that are going to allow us, over 
the next several years, to buy the equipment and bring the 
Guard and Reserve back to the point where they need to be so 
that they can support the State missions, train for further 
missions, and have the quality equipment they need when they 
deploy.
    Senator Martinez. General, you spoke earlier in your 
testimony, about the challenges of globalization, the ``have'' 
and ``have-nots,'' which, merged into humanitarian crises, 
could lead to mischief in the world and potential conflict and 
problems. My question has to do with the role that you envision 
for the Army, but, as well, the totality of our Federal 
Government as we respond to problems abroad that might present 
themselves, where nations may have problems that, if 
unaddressed, would lead them to potential conflict, how we 
address the issues of financial problems, health issues, 
housing issues, rule of law, education, and the potential for 
economic development and growth, which could then lead to a 
healthier environment in which it would be more difficult for 
the mischief you spoke of to sustain itself. Could you address 
how we are prepared, or not prepared, for that type of 
challenge in the 21st century?
    General Casey. Senator, first of all, considering the 
different trends I mentioned, the reason that they're important 
to us, from a security perspective now, is because global 
terrorism and extremism are realities that we're dealing with, 
and they create recruits that can sustain this effort. As you 
suggest, it's not necessarily going to be the military solution 
that is the one that is ultimately going to bring stability to 
these different countries. As we are seeing in Iraq and 
Afghanistan, there is a great need for civil efforts to do the 
kind of things that the military doesn't necessarily do, like 
build rule-of-law institutions, build financial institutions, 
municipal government and those kinds of things.
    As we look to the future, I believe that we, as a country, 
need to think about how we are organized to do that most 
effectively, because I've been looking at this since Bosnia, 
and I remember, after going into Bosnia, saying, ``You know, we 
ought to put together a group''--I thought it was an 
international group--``that could do post-conflict 
reconstruction kinds of things.''
    Senator Martinez. But sometimes this might even arise in 
the context of no conflict, in fact, but it might be as a 
proactive measure.
    General Casey. It could prevent it.
    Senator Martinez.--could prevent further conflict or 
developing conflicts in underdeveloped areas of the world.
    General Casey. I think you're exactly right. Any strategy 
that helps people help themselves, I believe, is the one that 
would be successful.
    I don't know, Mr. Secretary, if you have any views on that.
    Senator Martinez. Mr. Secretary, I wanted to ask you about 
the family concerns that you expressed and that I know all of 
us share, in terms of the stress that the continued deployments 
and the length of the conflicts we've been involved in have had 
on the military's backbone, which is the strength of the 
military--families. I was particularly intrigued in your 
testimony that you mentioned a program of privatized housing 
programs within the Army, and I wonder if you might comment on 
that a little more and give us your assessment of the 
Residential Communities Initiative (RCI) and the success that 
it has had.
    Secretary Geren. Senator, thank you for bringing up the 
RCI. Again, a question that Senator Warner asked earlier, 
``What are things that Congress can do to help the Army, in 
addition to funding?'' that's a great example. The RCI was not 
something that we started, it was something Congress started. 
It was authority that you all gave us in the late 1990s, and in 
2001 the Army embraced it, and it's been a tremendous success.
    We're in the process, by leveraging government resources 
with private investors, of privatizing all the on-post housing 
in the United States Army. We will have invested close to a 
billion in the private sector. We'll invest around 10 billion 
in this effort to privatize. I know many of you have been to 
the installations and seen this RCI housing. They're top-
quality homes, and they're real neighborhoods--an important 
part of sustaining an All-Volunteer Force. When we ask families 
and young men and women to devote their lives and their careers 
to the military, they shouldn't have to live with substandard 
housing, they ought to have the kind of housing in the Army 
that they would expect for comparably accomplished people on 
the outside. With this RCI, it's been a tremendous success. 
It'll take us several more years to complete it across the 
Army, but every place we've done it, the response from the 
families has been great. In most cases, you double the size of 
the number of square feet in a housing unit, building 
sidewalks, building neighborhoods, building parks, building 
community centers. It has been a tremendous success, and it's 
allowed us to bring into the Army so many of the innovations in 
housing and neighborhood development that most Americans on the 
outside just flat take for granted, but we had not incorporated 
into the quality of life for families. But the commitment the 
Chief mentioned, quality of life commensurate with the quality 
of the service, housing has to be at the top of that list. It's 
at the top of the list of any family you talk to.
    Senator Martinez. Thank you, General Casey, Secretary 
Geren, both of you.
    Thank you. My time is up.
    Chairman Levin. Thank you, Senator Martinez.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    General Casey, published reports suggest that, except for 
the brigades in Iraq and Afghanistan, and those preparing to 
deploy, that the remaining brigades of the Army are--very few, 
if any--are C1; they're either C3 because of training, 
equipment, or personnel. Is that a fair estimate of your 
situation?
    General Casey. It is. I mean, that's what I said--that's 
one of the main elements of being out of balance.
    Senator Reed. So, roughly a half of the brigades in the 
United States Army are not ready, according to your own 
measures.
    General Casey. That's true. I'm hesitating, only because of 
the classification of the hearing.
    Senator Reed. I understand that, but this has been 
discussed in the press.
    General Casey. Again, that's a key element of being out of 
balance.
    Senator Reed. Was that the case in 2000?
    General Casey. That was not the case, Senator.
    Senator Reed. Not the case. So, in the last 6 years, we 
have seen a deterioration in the readiness of the Army, based 
on its own measures of readiness. Is that accurate?
    General Casey. Not exactly, Senator. We have seen a 
deterioration of readiness of the next-to-deploy units. The 
ones that are being committed in Iraq and Afghanistan which are 
absolutely first rate.
    Senator Reed. I'm not suggesting, as I said, that the units 
you're deploying in Iraq are fully ready. You've done that. But 
half of the Army, roughly, is not ready, by your own measures, 
and that's a significant deterioration from 2000.
    General Casey. It is not--it is true--and, again, this was 
raised in the summer of 2006, and it hasn't really changed much 
because I said in my testimony, we're consuming readiness as 
fast as we build it, because of the rotation scheme.
    Senator Reed. But there's been a significant change. I 
mean, the administration has allowed this condition to persist 
for 6 years. We have all allowed it to----
    General Casey. Several variables contribute to this in 
building readiness. One of the first is, as I said, the demand 
for this exceeds our sustainable supply. Everyone's either 
going or getting ready to go. So, because they're turning so 
quickly, they have time to do counterinsurgency training and 
not full-spectrum training. I think we rate ourselves on our 
ability to do full-spectrum training.
    Senator Reed. I know that.
    General Casey. The second piece is the equipment, and we 
discussed it, with the Guard. The same type of thing applied to 
the Active Force. You have given us the money, and it takes 
about 2 years from the time we get the money from you until 
that equipment is in the unit. So, it has been addressed. 
There's a time lag----
    Senator Reed. The reality is that in 6 years, we've seen 
the readiness of the Army deteriorate significantly. I think we 
have to be careful--excepting those forces that are committed, 
who are fully ready to deploy, and you're sending them out 
ready, but we have a significant problem here, because it 
reflects your ability to conduct full-spectrum operations. 
There's no strategic Reserve from a land-forces perspective. 
We're in a much more difficult situation than we were 6 years 
ago.
    The administration reluctantly increased the size of the 
Army. Do you think they did it fast enough and with a 
significant increase to meet your demand problem?
    General Casey. I can't comment on the speed, I wasn't in 
this position when they did that.
    Senator Reed. Well, they didn't do it immediately, because 
they resisted it for several years when some of us proposed it.
    General Casey. I believe that the 547,000 Active that we're 
building here is a good milestone. I believe it's probably not 
big enough. However, I want to get there. Once we get that 
going, then I want to have a discussion about, ``Okay, does it 
need to be bigger? If so, are we prepared to provide the 
resources to make it the quality of force that we need?'' I 
don't want big. Big is not necessarily good. Big and hollow is 
bad.
    Senator Reed. Well, getting there is going to be a 
challenge, because just staying in place is a challenge. You're 
recruiting, and you've met your standards for the last several 
months. One of the ways you've done that is to draw on your 
delayed-entry pool. Until recently, you tried to maintain a 
pool by the measure of 25 percent, I guess, which is a baseline 
number you try to maintain. Now it's down to 9 percent. You're 
pulling people forward and counting them. Are you robbing Peter 
to pay Paul? I think there are two issues here. One is, can you 
keep making this present end-state number? Two is, how do you 
grow the force if you--if it's hard just to stay in place?
    General Casey. We believe we can. We based our accelerated 
growth initiative on the premise that we could recruit about 
80,000 a year. We think we can do that. The Secretary and I 
directed, several months ago, a soup-to-nuts review of how 
we're doing this, because this is the first time we've had to 
recruit an All-Volunteer Force in a protracted conflict since 
the Revolution, and we need to do things differently. So we're 
working that very hard.
    The second piece of it is, we're going to increase our 
retention a bit. Retention is generally good, with the 
exception of the officer retention that we've talked about here 
earlier. But in the noncommissioned officers, retention is 
generally good, and that's very important.
    We're also working on a program we call Active First, where 
the Guard, who has been very successful with the local 
recruiting initiative, is going to bring folks online and then 
put them in the Active Force for 3\1/2\ to 4 years, and then 
they go back to the Guard without prejudice and with GI bill 
benefits.
    We think those three things, together, will give us the 
84,000 or so a year we need to grow the force by 2010.
    Senator Reed. The overall thrust of your questions is that 
you have to get the Army back in balance. Is your objective 
premised on bringing down the deployment in Iraq from the 
current roughly 160 to 130 or 120? Alternatively, if you have 
to maintain the 160 level in Iraq, you can't bring your forces 
in balance.
    General Casey. When we get down to the 15-brigade level, 
which----
    Senator Reed. Which is roughly 130?
    General Casey.--what the President has said, by July 2008, 
we can get ourselves back in balance. It will just take us 
longer. So, if we get down to less than that, we can do this by 
about 2011, which is my target.
    Senator Reed. The final point I want to make is that--long-
term, the Army--would have a very difficult time surging again, 
past 160,000 troops in Iraq, because that would put you further 
out of balance.
    General Casey. Oh, sure. Sure.
    Senator Reed. So, there's an operational force structure 
constraint on the number of forces we can put in Iraq.
    General Casey. Without more extensive mobilization of Guard 
and Reserve brigades, yes.
    Senator Reed. Thank you, Mr. Chairman.
    Secretary Geren. If I could just add one thing, quickly. 
When you talked about the readiness issue, and there's just one 
factor that's important to that. In your discussion at the end 
of your comments about the deployment schedule--at the point in 
time when we're able to have soldiers at home longer, that will 
also impact the readiness. With the short period of time that 
they're home today, the ability to train up for multiple 
specialties is challenging. As we see the time at home grow, 
the training piece of the readiness indicators will improve. 
But when you're home for 12 months, and getting ready to go 
back for counterinsurgency operations, it limits the other type 
of training that you can take on and be competent at. So, 
that's an issue that will get better as the deployment schedule 
gets more back in balance.
    Senator Reed. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Reed.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    General, Mr. Secretary, thank you very much for your 
service.
    I want to ask General Casey, if I might, a question, 
because earlier this year, at the Army posture hearing, I 
believe, that your predecessor, General Schoomaker, raised 
concerns about the effect of not delivering adequate and 
predictable funding, particularly in the form of supplemental 
funding for the war effort. We're 46 days into the first 
quarter of fiscal year 2008, we don't have an authorization 
bill, we don't have a bridge funding bill for DOD, and we don't 
have a fiscal year 2008 global war on terror supplemental. We 
recently sent a Defense appropriations bill to the President, 
which he has signed into law, but that has little to do with 
the war effort.
    So my question is, what will be the effect of no timely 
bridge funding or supplemental funding? Will you have to cancel 
service contracts, lay people off, slow down work at depots, 
those sorts of things, if you could address that subject?
    Secretary Geren. Secretary Gates has instructed us to begin 
planning for that possibility. The signing of the 
appropriations bill did two things. One, it gave us money for 
our base budget, but it also stopped the continuing-resolution 
funding that was going to support the war. So, now we're faced 
with having to fund the war, without a bridge, out of the base 
budget. Our Army O&M account is about $27 billion. When you 
look at our Army base budget needs plus the war, you're talking 
about $6.6 billion a month. If the Army is asked to fund this 
without any type of bridge or without any additional resources, 
we're going to run through that $27 billion probably around 
mid-February, and we cannot wait until then to start making 
some of the decisions that will have to be made.
    Our employment contracts, many of them require 60 or 45 
days notice before you can furlough somebody. We have many of 
the services that are provided by civilians, by contractors. It 
would have a hugely detrimental effect on the home base. We 
will beggar the home front to make sure that our soldiers that 
are in theater have everything that they need, and it will put 
a terrible burden on soldiers, on families, on the 
institutional Army, our ability to train.
    Timely funding is absolutely essential. An organization of 
our size cannot live effectively with unpredictable funding, 
and we need that supplemental passed soon or we're going to 
have to start planning for the possibility that we're not going 
to have it.
    Senator Thune. General Schoomaker also testified that the 
Army was forced to cash-flow itself through the first quarter 
of fiscal year 2006. Could you explain what that means? Will 
the Army have to do that again?
    Secretary Geren. We're in that position now. The O&M 
account is our account that offers us the greatest flexibility. 
Most of the other accounts are constrained by specific--we call 
the term ``color of money.'' But we would find ourselves having 
to spend that O&M money, not only to support the Army, but also 
to support the war effort. So, we are in that position today, 
and using up the funds at a rate of $6.5 billion a month 
against a $27 billion total.
    Senator Thune. Mr. Secretary, there's a saying that you 
recruit a soldier, but you re-enlist a family. This year, 
Congress has yet to send the Military Construction (MILCON)/
Veterans Affairs appropriations bill to the President to get 
signed into law. MILCON funding goes to support important 
aspects of military quality-of-life issues, such as barracks, 
training facilities, childcare centers, and family housing 
units. What is the status of the Army's MILCON accounts? 
Without a MILCON appropriations bill signed into law, when is 
the Army going to experience problems paying for military 
infrastructure and quality-of-life expenditures?
    Secretary Geren. The impact of no MILCON bill affects us on 
several levels. Last year the MILCON bill was slow; we didn't 
get it until well into the fiscal year. We're operating, in the 
MILCON area, still under a continuing resolution, but that 
holds up about $5 billion that we have planned for all types of 
military construction projects.
    Now, the base realignment and closure (BRAC) piece of this 
is still able to be funded under the continuing resolution, but 
at reduced levels. So, it threatens our ability to meet the 
BRAC timelines.
    But MILCON is a significant piece of the quality of life 
for soldiers and their families, and if we cannot get the 
MILCON bill, it holds up about $5 billion, with a delay, and it 
will impact our construction for barracks, for other types of 
quality-of-life improvements, and impact our ability to meet 
our timelines of moving soldiers around the system. It poses a 
real challenge for us. Every day that goes by after the end of 
the last fiscal year puts that part of our Army planning and 
budgeting under stress.
    Senator Thune. General, how do these funding issues, the 
lack thereof, affect our ability to reset and transform?
    General Casey. From my perspective as the Chief, the two 
primary aspects of lack of stable, predictable funding; in 
particular, the current situation. First is, it makes my job--
organizing, training, and equipping the force, harder. Every 
time you have a delay or a perturbation, you get second- and 
third-order effects that just takes you months to recover from.
    I mentioned, in my opening statement, about last year. We 
got the funding--the global war on terror funding with the 
base, and, as a result of that, we were able to get right into 
reset--reset 27 brigades last year, 18 in the Active component, 
9 in the Reserve component. Our depots processed 123,000 big 
pieces of equipment, like tanks and Bradleys, and they fixed 
over 10,000 Humvees for the Guard and Reserve. So, there's a 
lot we can do with the money on time.
    The second element I'd comment on is just that--my role as 
a spokesman for the Army soldiers and families. We have about 
nine brigades that are coming back from Iraq right now, between 
September and January, and it just sends absolutely the wrong 
signal to those soldiers and families who have been out there 
for 15 months, to have the potential of the services that 
support them when they come home cancel.
    Senator Thune. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary and General.
    Chairman Levin. Thank you, Senator Thune.
    Senator Akaka.
    Senator Akaka. Thank you very much.
    I want to follow up on Senator Collins' question on how 
we're screening our soldiers for PTSD and TBI before and after 
deployment. Army researchers released a report, 2 days ago, 
that found between 27 and 35 percent of troops returning from 
Iraq are experiencing mental health issues. General Casey, are 
these troops identified as--mental health issues considered by 
the Army as being deployable, or are they considered to be 
wounded? I just wonder how you classify that. In particular, 
can you address those who are found to be suffering from PTSD 
or TBI, and what happens to them?
    General Casey. Overall, Senator, it really depends on the 
severity of the injury, but we have had a proactive program 
here, since early in the conflict, to measure mental health, 
and we've continually upgraded that program over time. We 
started off just with a post-deployment assessment. As you read 
in that article, about 2005 we started an additional 
reassessment at 6 months, because our doctors told us that the 
symptoms sometimes take that long to develop. We found what we 
thought we'd find.
    The other element that the Secretary mentioned there, we've 
added a baseline assessment on the front end, so we have 
something to compare it to.
    We're working on helmet sensors that we can put in a 
soldier's helmet that will measure the blasts that he or she is 
exposed to, and then we can measure that and keep track, like 
we used to do with those nuclear dosimeters; you measure 
impacts overtime.
    So, it's been a steady process. Again, as the Secretary 
said to me, the most important element of success here is to 
reduce the stigma attached to PTSD and TBI. This chain-teaching 
program that we initiated in July is that we hope to be 
beginning to turn that, and we've already seen indications that 
it has; people are more willing to come forward and talk about 
what's really an injury, not a mental health problem.
    Senator Akaka. General Casey, Hawaii's 29th BCT has been 
notified that they will be deployed to Kuwait next summer, 
which is only 2\1/2\ years after returning from their last 
deployment in Iraq. This is far less than the goal of 5 years 
between deployments for National Guard and Reserves. By the 
time they return from this deployment, they will have spent 
2\1/2\ years deployed in the Middle East over the previous 5-
year period. While they have a greater time between 
deployments, their operational tempo is still comparable to the 
tempo for Active Duty soldiers, in that it is 1 month home for 
every month deployed.
    The question, General Casey is, has the 29th BCT been given 
adequate time to reset its equipment and complete its training 
requirements in time to meet the deployment schedule? Have any 
training requirements been modified, reduced, or even 
accelerated in order to meet the deployment schedule? If so, 
what are those potential impacts on the unit?
    General Casey. Yes, Senator. While I don't know the 
specifics of the preparedness of that particular brigade, I can 
tell you that, for the Guard and Reserve, much like for the 
Active, we're not meeting our objective goals for deployment-
to-dwell ratios. The Guard and Reserve are running about one to 
three-and-a-half. Obviously there are some, like the 29th, that 
are less than that. Again, this is part of putting ourselves 
back in balance.
    I will address your questions on the specifics of the 
29th's preparations, here, and I'll get back to you 
individually, if that's all right.
    [The information referred to follows:]

    The Army National Guard and 1st Army will ensure the 29th BCT is 
well-trained, properly equipped, adequately resourced, and fully 
prepared to meet mission requirements when it deploys next summer. As 
the 29th BCT prepares for its second wartime mission, pre-deployment 
unit training will be conducted at Schofield Barracks to ensure the 
unit's readiness meets the same high standards set for every Army 
unit--whether Active or Reserve.
    The 29th BCT is 1 of 15 Army National Guard brigades deploying in 
fiscal year 2009. All of these brigades have between 20 and 40 months 
of dwell time. Admittedly, the dwell time does not meet our ultimate 
goal of a 1:5 deployment-to-dwell ratio. It is in keeping, however, 
with the dwell time of other brigades being called upon for deployment.
    Meanwhile, the Army is providing $14 billion worth of new equipment 
to the Army National Guard over the next 2 years to reduce equipment 
shortages. We will ensure that critical equipment items are available 
to support Hawaii's pre-deployment training through a cross-leveling of 
equipment within Hawaii and with other States and territories.

    Senator Akaka. Thank you.
    Secretary Geren, in your prepared statement, you briefly 
described the Gansler Commission started to examine current 
Army contracting operations to ensure that future contracting 
operations are more effective, efficient, and transparent. You 
indicated that the Commission identified a number of 
recommendations that you consider critical to future 
contracting success. Are you committed to implementing all of 
the Commission's recommendations? If not, can you describe 
those that you will not be implementing? Also, how long will it 
take to complete the implementation of the Commission's 
recommendations?
    Secretary Geren. Dr. Gansler finished his work a few weeks 
ago, and I asked for a very blunt assessment of our situation, 
and he gave us that. His report is going to provide a 
guideline, a blueprint for us as we move forward in the 
contracting area. He raised issues that are not just specific 
to the Army, but OSD, and there are issues for the entire 
Federal Government. The acquisition workforce, the contracting 
workforce, has been under-resourced, under-invested. We saw 
steady downward pressure on this workforce in the 1990s, and 
the seams were exposed in a dramatic way when we saw this big 
ramp-up in contracting that came with the war. But the problems 
had been there for a while.
    We already are implementing some of his recommendations. 
Some are DOD-wide. I met with Secretary Gates, and he's 
instructed the other Services, as well as the OSD staff, to 
look at this and look where these reforms should be undertaken 
across the entire DOD.
    But what we've learned, as an Army, we are under-resourced 
in this area, we do not have enough personnel, we do not have 
the proper training, we do not have the proper leadership 
structure when it comes to acquisition and contracting, and we 
are not developing either soldiers or civilians in this area to 
meet the challenges of contracting.
    We have a great deal of work to do. It's not going to 
happen overnight. It's going to be years. It's an area that I 
expect, in the next couple of months, we'll be coming forward 
with some legislative initiatives--ask you to consider and to 
support us as we make these reforms.
    The Army of the future, the DOD forces, whether they are 
Army, Navy, Air Force, or Marines, are going to go to war 
strongly supported by a large contractor base. We have to shape 
our organized training-and-equip efforts to make sure that 
those are properly coordinated. We have not done a good job up 
until now. It's one of the lessons that we've learned from this 
protracted conflict. It's a lesson we're taking to heart, and 
we're working aggressively to implement the recommendations of 
Dr. Gansler. I'm going to keep him involved over the coming 
months to make sure that we stay on track.
    Senator Akaka. Finally, Secretary Geren, you indicated that 
the Commission's recommendations were in four broad areas. One 
of those areas is obtaining legislative, regulatory, and policy 
assistance to enable contracting effectiveness by important 
expeditionary operations. My question to you is, do you need 
help from Congress to implement any of the recommendations? If 
so, how can we help?
    Secretary Geren. We will need help from Congress. We're 
working with the Secretary of Defense's office to put together 
that package. We don't have it yet. But we will be coming to 
you with requests for help, because there will be some areas 
where we need some legislative assistance, and there will be 
some policy changes. Not only will we come to you with 
suggestions, but, both among your membership and among your 
staff, you have people very experienced in this area, and I see 
us working together to address this issue. It will be a 
multiyear effort, because we've dug this hole over 15 years, 
and it's going to take more than the next year to dig ourselves 
out of it.
    Senator Akaka. Thank you for your responses.
    Chairman Levin. Thank you, Senator Akaka.
    Senator Sessions.
    Senator Sessions. General Casey and Secretary Geren, we 
thank you for your excellent work. We have to recognize and 
always remember that our Army is a national treasure. It's 
performed beyond expectations that any of us could have had for 
them. The volunteer Army has continued to work in a prolonged 
conflict, our people are still signing up to join the Army, and 
retention remains above what many of us could expect. But we do 
know there's a limit, and if we stress our Army too strong, we 
can hurt or damage this fabulous institution that's served us 
so well. So, I want you to know that we want to be informed on 
the real problems that you have, and this Congress, I believe, 
will respond.
    I had a number of things I wanted to ask you about, but, 
listening to your comments and thinking through where we are, 
we simply have to talk about the funding for our soldiers who 
are in conflict now. We have to have this funding, and we 
cannot wait and wait and wait, and leave the DOD in a position 
of having to rob Peter to pay Paul, to manipulate budget 
accounts, creating all kinds of uncertainty. That is exactly 
the wrong thing for us to do at this time.
    I see Deputy Secretary England's letter from just a few 
days ago to Congressman Murtha, in which he says, ``Without 
this critical funding, the Department will have no choice but 
to deplete key appropriations accounts by early next year. In 
particular, the Army's operation and maintenance account will 
be completely exhausted in mid- to late-January. The limited 
general transfer authority available can only provide 3 
additional weeks of relief. This situation will result in a 
profoundly negative impact on the defense civilian workforce, 
depot situation, base operations, and training activities. 
Specifically, DOD would have to begin notifications as early as 
next year to properly carry out the resulting closure of 
military facilities, furloughing civilian workers, and deferral 
of contract activity.''
    Do you agree that that's the kind of serious situation 
we're facing if we don't pass the supplemental for our troops?
    Secretary Geren. Without the supplemental, we will run 
through our O&M account. We have to fund the base operations of 
the Army, as well as the global war on terror, out of that 
account.
    At the end of your question, you mentioned the civilians. 
This will fall most heavily on them. The Military Personnel 
(MILPERS) accounts will continue to pay soldiers, but if we do 
not get some funding relief by mid-February, we'll be in a 
position where we'll have to start furloughing our civilians, 
canceling contracts. It would be over 100,000 civilians, 
potentially, to be furloughed. In contrast to years before, we 
don't have a bridge this year to sustain us while we wait.
    Senator Sessions. When you say a ``bridge,'' what do you 
mean, a ``bridge''?
    Secretary Geren. In years past, when we've found ourselves 
waiting on the supplemental, there have been bridge funds that 
have helped bridge the gap, I guess is where the term came 
from. We don't have that this year. When the President signed 
the appropriations bill, it cut off the continuing resolution 
support to the war effort. So, a large organization such as 
ours cannot turn on a dime. The Secretary has instructed us to 
start planning for the possibility that this impasse continues. 
It would have a dramatic effect. We will have to make serious 
cuts on services on the homefront in order to continue to 
sustain operations overseas; it will fall heavily on home-based 
troops and their families and on installations.
    Senator Sessions. Mr. Secretary, I'm sure you can go on for 
a whole lot more dire consequences of us failing to do this. 
Let me just say what I think pretty much is undisputable. We 
had a big debate this summer over whether or not we were going 
to fund the surge and continue our effort in Iraq, or withdraw 
or set a firm date and pull out. We rejected that. We agreed to 
fund General Petraeus and the activities that are going on over 
there, with additional surge. That has, in recent weeks, 
produced positive results beyond what I think any of us would 
have imagined at the time when we did that. So, we're having 
positive results of an unexpected degree, and now we're at a 
point where we're nickel-and-diming you, delaying you on the 
fundamental monies you need to continue what is turning out to 
be a successful military operation.
    So, I just think we can't do this. It's just unthinkable 
that we would commit military men and women to harm's way--
General Casey, you've commanded those troops over there--
they're entitled to absolute support from the United States 
Congress. If we're going to say we're not going to do this 
anymore, and we're just going to quit, well, let us step up and 
say that; but that's not what we said this summer, when things 
were much more grim than they are today. After a full 
discussion this summer, Congress said, ``Let's go forward.'' 
So, let's not play political games with this now. It increases 
the risk to our soldiers.
    General Casey, do you believe that if we leave the 
uncertainty of funding for the operations we have underway 
today, that this can adversely affect the morale and confidence 
of our military and our allies, and can put them at greater 
risk?
    General Casey. As I said earlier, Senator, it sends 
absolutely the wrong signal to our soldiers and to our 
families.
    Senator Sessions. Thank you, Mr. Chairman.
    I think we'll work through this. People have some strong 
feelings about the war, they wish we hadn't started it, they're 
not happy with the way it's been conducted. I know that. But, 
at this point, our great Nation has to make a decision, and I 
think our decision was made this summer, to go forward and give 
our military a chance to be successful, which they are proving 
able to do.
    I do want to note that, with regard to the complaints about 
the Government of Iraq and the legislators there, I share a lot 
of those concerns, but would note, for the most part, that's a 
responsibility of the State Department and other departments of 
Government, not the United States military, to work with the 
Government in Iraq. I'm just concerned that State Department is 
having difficulty, it seems to me, in fulfilling their 
requirements in this very difficult time.
    Thank you, Mr. Chairman.
    Chairman Levin. Senator Ben Nelson?
    Senator Ben Nelson. Thank you, Mr. Chairman.
    I want to thank both of you for your service to our 
country.
    Obviously, General Casey, you have commanded the troops in 
Iraq. Secretary Geren, you're getting your feet wet, helping 
the Army as its Secretary, and we appreciate that, as well, and 
appreciate your depth of knowledge in this hearing.
    Part of the problem we have here with the funding is just 
fundamental, and that is that so much of the funding of this 
war, and resetting and repairing, is coming in the form of a 
supplemental, as opposed to being within the general budget to 
begin with. We've talked to Secretary Gates about this, and I 
understand that there are some things that are not predictable. 
I know you want predictable funding. I think if we can make 
sure that more of this funding is in the budget, that we deal 
with an authorization and appropriations in the ordinary course 
of what we do here, we'll be a lot better off, and I think the 
military will be a lot better off, as well.
    So, we're all responsible for some unpredictable funding 
situations here because of the lack of having this in the 
regular budget. If it's in the regular budget, it's going to be 
less likely to become a political football, as, in some cases, 
it may be today.
    But I think there's a serious concern that some have in 
saying that we want to fund it all, and I respect that 
position. It's not mine. I think we should fully fund the war 
effort, and that we should pass the supplemental. But I think 
we ought to do it in a way where there are no strings attached 
to it. There is a rope. The rope is to pull it back up for a 
review on March 31, 2008, in light of what we would require, 
and that would be a report from General Petraeus, as we've had 
before, before Congress. We have a report from the GAO and a 
report from the President on the success, or lack of success, 
or at least the effort at achieving the benchmarks, at least 
the major four benchmarks that we know that we've put in the 
last supplemental. I think it's appropriate to review how this 
is going. That's part of the problem. Just approving $190 
billion and saying, ``Okay, that's that, and what's next? Well, 
we'll find out after all that.'' I think continuing to have an 
interest, where we pull it back up with a rope, but without 
strings, if you understand the difference that I'm saying--it's 
probably a western Nebraska term, to put a rope on something to 
pull it back up. But I think that's what we have to do, to take 
a look at it once it's all funded.
    I agree with you that it needs to be predictable. I don't 
agree with those who suggest Congress is making it less 
predictable, because it becomes less predictable because of the 
process. If we change the process, I think the funding will be 
more predictable for the military.
    What are your thoughts, Secretary Geren?
    Secretary Geren. Well, last year, with the delivery of the 
President's budget, we delivered part of what became the 
supplemental request.
    Senator Ben Nelson. I think we plugged-in about $50 billion 
or something like that.
    Secretary Geren. So, it was a step in the right direction. 
I think the earlier we can get the request through the 
administration to Congress, the better. The day that we're able 
to have those all considered together would be an improvement 
over the situation we find ourselves in today.
    Senator Ben Nelson. Be more predictable, because we're not 
assuming that everything offered would be included.
    Secretary Geren. No.
    Senator Ben Nelson. But the size of it would be most likely 
included in some debate in authorization about the details.
    Secretary Geren. Go through the normal processes that are 
set up for considering it. I think that would be an 
improvement. Again, by submitting most of it at the beginning 
of the year, it provided the opportunity for it to move more 
according to regular order, but there was an additional request 
in the fall. But in the Army we are looking towards the day 
when we expect that the supplementals will all be absorbed into 
the base budget, and trying to look down the road and plan 
accordingly. The process in Congress, with the authorization 
and appropriations committee working together, that would 
provide an approach that would increase the chances of moving 
things together in a predictable fashion, I agree with you.
    Senator Ben Nelson. I hope that you'll continue to believe 
that--I know you will--and also express that concern and our 
frustration to Secretary Gates, because I know he's interested 
in getting the base budget much more in line with what the 
requirements will be, so that we don't end up with 
supplementals, which are outside the budget, in effect. They 
don't go through the authorization process. As far as I 
understand it, they don't even add technically to the deficit, 
that they drop directly to the bottom line of the debt. We have 
to get away from that kind of funding. There are things that 
are predictable. I think most of the expenses for this war will 
be predictable. Hurricane Katrina is not predictable. But there 
are differences, and I don't think we ought to be using 
supplementals the way we are right now.
    One other thing, and that is going to be my proposal, at 
some point along the way, that we approve all of it, if the 50 
percent or the 70 percent that's being talked about do not 
pass, then I would like to see us go to something like I just 
outlined: full funding, no strings, but a rope.
    Thank you, again, for your candor. Also, please express our 
appreciation to the generals and the military officials who, in 
the Washington Post today, were so candid about the future of 
the political side of Iraq. We've all put pressure on Prime 
Minister al-Maliki, and we've put pressure on the Shiite 
government to reach out in a more fundamentally fair and 
equitable way to the Sunnis to bring about reconciliation. 
These comments tell us that the time that we put in place for 
them with the very successful surge, militarily, at a short 
term, they're squandering the opportunity. We can't continue to 
give them this opportunity if they're not going to step forward 
and run their government themselves, which they have to do 
fundamentally correct by meeting at least the top four 
benchmarks.
    Once again, thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Nelson.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    I was going to mention the same thing that Senator Nelson 
did about the article, so I associate myself with his remarks 
there.
    I had to attend this other meeting, the same place Senator 
Warner is right now, so I apologize if I ask what has already 
been. General Casey, you mentioned your three areas of concern, 
the last one being the reset problems. I think that you didn't 
get a chance to elaborate enough on that. It seems to me--and I 
could be wrong--as I go around and I visit the depots, they are 
doing their job; they seem to be adequately funded. But the 
logjam seems to be getting the product of those depots back to 
the field of battle. Is this right? Where do you see the 
problem?
    General Casey. I'm not aware of a difficulty in getting the 
fixed equipment back out to units. The challenge that we have 
with the reset is what we've been talking about here with 
respect to lack of predictable funding. We have to buy the 
spares that we use in a reset, 2 years out. So, every time you 
delay with funding, you push back the time when those spares 
and things are available.
    Senator Inhofe. So, there's really not the problem of 
getting them out, because I can tell you where to go to see the 
long lines of the products that have been finished that still 
haven't quite reached there, so it might be something we can 
look into.
    General Casey. With all the money that you gave us, we have 
also, over the past 4 years, put in a significant effort in 
improving the efficiency of the depots. Last year, 12 of our 
depots won the Shingo award, which is a public-sector award for 
manufacturing excellence. I wanted to get that on the record 
because it's a significant accomplishment here. So, we're 
efficiently using the money that Congress has provided.
    Senator Inhofe. I know you are. By the way, although it's 
not a subject of this committee hearing, the same thing is true 
with air logistics centers around the country, and they've 
done, really, a good job, very competitive job.
    Secretary Geren, you and I have had many discussions about 
FCS and where we are right now. A statement that you made, I 
will quote. You said, ``FCS will give our soldiers the 
knowledge they need to fight and win in any battle space, day 
or night, whether the battle is conventional or asymmetric.''
    While FCS is not in the field yet, there are--the 
technologies and the spin-outs on FCS are in the fight right 
now--aerial drones, robots, sensors, communications equipment.
    Now, my concern is this, that the Defense Appropriations 
Bill for Fiscal Year 2008 contains provisions that are vital 
for the continued success of the funding of FCS, and yet, it 
was cut, I believe, by a little over $200 million--I think, 
$205, $206 million. I'd like to get your idea as to what effect 
that's going to have, that cut, in the progress of the FCS.
    Secretary Geren. Well, let me first say, I want to thank 
this committee for your strong support of FCS. When we look at 
the future, and look at full-spectrum readiness, the FCS is an 
important part of full-spectrum readiness, for whatever type of 
conflict we find ourselves in. FCS is a part of the answer to 
the readiness challenge that we have.
    Over the years that we have had the FCS program, it has 
been cut approximately $850 million. That has caused the 
program to slow down. It has caused it to be restructured, 
caused it to be changed--in some areas, significantly.
    This cut this year will cause some challenges. We're 
working through it right now, trying to figure out how we 
minimize the impact. But we believe that it could slow--it 
could slow the non-line-of-sight (NLOS) cannon, it could slow 
other aspects of the program, the spin-outs. I can't tell you 
with certainty today, but, once we got word of the $200-million 
cut, we have gone to work to figure out how to minimize the 
impact. It will be significant, and it will slow it down. Those 
delays end up costing more in the long-term. So, it won't save 
money long-term, it'll cost money long-term.
    Senator Inhofe. Mr. Secretary, you brought up the NLOS 
cannon. That's one of my major concerns. If you look at the 
deficiencies that we have relative to prospective enemies in 
the field, the cannon is, in my opinion, number one. There are 
five countries now, including South Africa, that make a better 
cannon system, artillery system, than we have. In fact, ours is 
really the World War II technology of the old Paladin. I can 
remember, about 2 years ago, 3 years ago, I made the statement 
that it's so antiquated that, after every shot, you have to get 
out and swab the breach, and nobody believed me until we showed 
them the pictures.
    So, that's something that needs to stay on schedule, as all 
of these do, and I'm really concerned about it.
    Let me just ask you a question, of either one or both of 
you. We've talked about the top line. During the Eisenhower 
administration, the percentage was as high as 10 percent. I'm 
talking a percentage of GDP. We heard testimony about 8 years 
ago from Secretary Rumsfeld in response to a question at that 
time, and--about the problems that we're facing in the future. 
I know we're concerned about what's bleeding the most today, 
but we still have to look toward the future. That's what FCS is 
all about. They commented that we went through the entire last 
century of averaging 5.7 percent of GDP on military readiness 
and on military spending. It got down to as low as 2.7 at the 
end of the 1990s. I'd just like to get your thoughts to get in 
the record at this time as to where you think we ought to be 
eventually looking into the future.
    One of the reasons for this is that I don't care how smart, 
General Casey, all of your generals are, if you look at, ``What 
is our problem going to be 10 years from now?'' you're going to 
guess, but you'll probably be wrong. So, the only way to 
resolve that is to have the best of everything. So, do you have 
any thoughts on that, where we ought to be in the future?
    Secretary Geren. Well, one of the biggest challenges for us 
as a country, over the history of this country, has been 
sustaining readiness in between conflicts. I think the nature 
of a democracy is, when a war is over, we think they'll never 
happen again, and we, unfortunately, plan accordingly. All of 
us who were here in the 1990s are guilty of letting hope 
triumph over our country's experience.
    I don't know what the right percentage is. But I think, as 
leaders in this country, one of the biggest challenges is going 
to be maintaining the kind of investments, when this war is 
over, whenever that is. Modernization initiatives, like FCS, I 
think, come under particular challenge at times when--in 
between conflicts, when Americans' interests turn elsewhere, as 
they did in the 1990s--in sustaining a good base of funding, 
particularly for modernization, and maintaining a quality 
civilian workforce, as well as a properly trained uniformed 
military in those periods, to me, is one of the biggest 
challenges. How we lock ourselves into that course of action in 
between conflicts, I think, is a real challenge for us. I don't 
know that I know the answer, but I think it's something that, 
as leaders, we just need to make sure that the country focuses 
on the reality of the challenge, and not repeat the mistake 
that we made in the 1990s.
    Senator Inhofe. Excellent statement.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Inhofe.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    Gentlemen, there's been some rhetoric from the other side 
today, with the implication that people on this side may be 
reluctant to fully fund the people who are actually on the 
battlefield. We all know that's not going to happen. I don't 
know anybody up here who would, in any way, be moving toward 
that direction. In fact, I don't know anybody up here who 
doesn't strongly believe that, when we put the United States 
military into the field, it's going to be able to control its 
battle space. That's just not the questions. We all know that. 
The true questions before us really are the strategic benefit 
of these tactical policies that are in play, and you could take 
a look at the front page of the Washington Post today and see 
that that's a debate that isn't limited to Democrat versus 
Republican, or even civilian versus military. It's something 
we're all struggling with.
    There's been some comment today, some questions about the 
utility of using the attrition rates from West Point. Mr. 
Chairman, we've seen this go back and forth. General, you've 
made a comment, saying that these numbers are just marginally 
above the traditional attrition rates.
    I have a letter here that I received from a West Point 
Class of 2002 graduate, last week, who was actually thanking me 
for the dwell-time amendment that I introduced, ``As a soldier 
and Iraq war veteran with two tours, I can vouch for the 
importance of your dwell-time amendment. Though the amendment 
fell a few votes short, I sincerely appreciate the fact that 
someone in our Congress understands the strain that multiple 
deployments are placing on our soldiers, families, unit 
training, and equipment.'' He then goes into the attrition 
rates. In his letter he mentions this data that's been going 
back and forth all year, saying that more than 54 percent of 
the 935 graduates in the Class of 2000 had left Active Duty by 
last January. More than 46 percent of 2001. He says in here 
that these numbers are staggering, considering that, 
previously, West Point officer attrition rates usually fell 
between 10 and 30 percent for similar time increments.
    So, what I would ask--and I would assume this could be done 
in a timely manner--is that you could provide us data--even 
these numbers that we're using here, the 54 percent and 46 
percent, that data's now 11 months old. That's as of the end of 
the last year. So, if you could give us, in a timely manner, 
what the numbers are and how they compare with time 
increments--similar time increments in other classes, I think 
we can clear the air on this, Mr. Chairman, if we could put 
this in the record, as well.
    Secretary Geren. We can get you that information today, 
Senator.
    [The information referred to follows:]

    The information requested by Senator Webb was directly provided to 
him in the form of charts. These charts are attached.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      

    Senator Webb. Okay, thank you.
    General Casey. I checked it recently, before we came up 
here, and it's about 8 percent above normal.
    Senator Webb. We've been going back and forth on this, and 
I have other questions I want to ask, but I would like to see 
the data. This individual said, actually along the lines of 
what you have said, ``I can tell you that, for many of us, the 
decision to leave the Service is not because we dislike the 
Army. When we decide to get out, we make it because we 
understand the realities of multiple redeployments and the 
burden it places on our families and loved ones,'' et cetera.
    I'm looking at your covenant, which you're talking about 
today, and I would suggest that the best thing you can do for 
families is to enact a sensible rotation policy for our troops. 
General, I recall when you called me and told me that you were 
going to the 15-month deployment with a 12-month at-home dwell 
time, I was stunned, as someone who knows what it's like to 
have a dad deployed, who knows what it's like to be deployed, 
who knows what it's like to have a son deployed, and who has 5 
years in the Pentagon, 4 years in policymaking, that it's 
something I would have expected a lot of pushback from on the 
uniformed side. Your comment to me at the time was to the 
effect that you have to feed the strategy, that somebody else 
creates the strategy, the Army has to feed it.
    Then, when we had General Petraeus here in September, I 
asked him about it, and his initial comment was, ``Well, that's 
something for the Chief of Staff of the Army.''
    So, my first question, if you could answer this in a 
sentence, is; who is accountable for this policy?
    General Casey. We made the recommendation to the Secretary 
of Defense to go to the 15-month policy, for three reasons. I 
don't remember our particular conversations, but this is what 
I've said consistently. One is to support the needs of the 
commander in the field. Two, it gave us more predictability for 
our soldiers and families. We were in a position where we were 
getting ready to extend a brigade a month, and you know how 
that works, you're next to go, you know you're going, but you 
don't. So, that's the second. The third, probably the most 
important, was, we needed 12 months at home to ensure that the 
soldiers deploying were adequately prepared.
    Now, we have a common interest in establishing, as you 
said, a reasonable deployment policy. We are working that very 
hard. The 15 months was always intended to be temporary. We 
will come off of that as soon as we can. I'm working that very 
hard right now, with all of my different commanders.
    Senator Webb. The Commandant of the Marine Corps has stated 
that his goal is a 2-to-1, not a 1-to-1. What is your goal?
    General Casey. Our goal is 1-to-3, but we don't expect to 
see----
    Senator Webb. 1-to-3?
    General Casey. 1-to-3.
    Senator Webb. For Active Duty?
    General Casey. For Active Duty, to sustain. Now, we're not 
going to get there anytime in the near future, so 1-to-2 is our 
short-term goal.
    Senator Webb. When would you expect to see that?
    General Casey. One of the key elements of putting the Army 
back in balance is to get there by about 2011. To do that, we 
have to increase our supply, which we'll do by about 10 BCTs, 
and the demand has died down.
    Senator Webb. My time is running out, here. I want to ask 
you one other question, just to clear the air on something else 
here. You said something which I believe is important, and that 
is, looking in the future, at the types of enemies we're going 
to face, that we cannot predict the time, nature, or location 
of future conflicts. I think that is a basic assumption of 
American strategy. Would you agree that it is strategically 
dangerous to have such a high percentage of our ground forces 
tied down in one country that was not directly threatening us 
in the first place, and whose major tensions now seem to be 
sectarian, particularly with the fluidity of al Qaeda? Would 
you believe that's dangerous, strategically, for us to be tied 
down the way we are?
    General Casey. I wouldn't agree with your whole statement, 
Senator, but to have all of the numbers of forces that we have 
committed now increases our level of strategic risk. But, as I 
said, I believe, looking broadly at the strategic situation, 
right now it's an acceptable level of risk.
    Senator Webb. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Webb.
    Senator Cornyn.
    Senator Cornyn. Thank you, Mr. Chairman.
    Mr. Secretary, General, welcome.
    General Casey, as the former Commander of Multinational 
Forces in Iraq and General Petraeus's predecessor, could you 
give the committee your assessment of the effectiveness of the 
surge of additional troops and operations in Iraq over the last 
few months?
    General Casey. I could give you my personal views, but I 
think General Petraeus did a marvelous job of laying that out 
for everybody in September, and I certainly agree with the way 
he portrayed it.
    Senator Cornyn. I agree, he did a good job in September. 
Maybe I could just ask you to update your observations from 
that September timeframe over the last 2 months.
    General Casey. My impression is, reading the reports and 
actually talking to General Petraeus, that the security 
situation has continued to improve.
    Senator Cornyn. Certainly seems to be all----
    General Casey. I'm hesitating--it's not what I do anymore.
    Senator Cornyn. I gotcha. There seems to be all the 
published reports I read, the number of attacks, down; 
casualties, down; IEDs, down; imported explosively formed 
penetrators from Iran, down. Sounds like some progress.
    I want to ask you a little bit about the criticism that has 
been made against national Iraqi leaders for lack of political 
reconciliation progress, and to just ask you, from your 
experience--and you have more experience than just about 
anybody on the planet in Iraq--were you surprised, or did you 
expect to see the kind of reconciliation process from the 
bottom up that we've observed in places like Anbar province, 
and which is now apparently extending to other areas of the 
country?
    General Casey. I wasn't surprised with the progress in 
Anbar province. That was in process, as we were there. So, the 
seeds were basically laid for this progress there.
    I'm exceeding my brief here, but the Sunni were really in 
the middle, in the time I was leading, because they were being 
attacked by al Qaeda, they were being attacked by the Shi'a, 
and they were being attacked by us, if they were attacking us. 
So, the fact that they've decided to come in and seek some 
support is not surprising to me.
    Senator Cornyn. Well, I guess there are different types of 
political reconciliation--for our own country, as I recall my 
American history, with the 13 colonies and the States that 
created the National government. So, it shouldn't be surprising 
to us that local and provincial reconciliation progress could 
well proceed and complement efforts made for reconciliation at 
the National level. I would expect that all of us, hoping and 
praying for success in our efforts, and our ability to bring 
our troops home as soon as conditions on the ground permit, I 
would think we would all rejoice and be pleased at those 
developments.
    You and Secretary Geren have talked about the consequences 
of limiting the funds for the so-called ``bridge,'' which I 
would think, for a more descriptive term, would be: ``emergency 
troop funding for the war effort'' would be a better way to 
talk about it--but the House has sent over a $50 billion 
emergency troop funding bill, when the Pentagon has requested a 
$200 billion fund, right at a quarter of what's requested, but 
it comes with a few additions, which I'd like for you to 
comment on. One is a goal for withdrawal of all troops by 
December 15, 2008. What would be the consequence of Congress 
adopting, and the President signing, a troop funding provision 
that provided a goal for withdrawing on December 15, 2008?
    Chairman Levin. Would Senator Cornyn yield, just on that? 
Because it doesn't say ``all troops.'' I wonder if the Senator 
might agree that it doesn't say ``all.''
    Senator Cornyn. I stand corrected, Mr. Chairman. A goal for 
withdrawal of all troops, except those necessary for 
diplomatic, security, counterterror operations, by December 15, 
2008.
    Secretary Geren. Well, the President, as I understand, made 
it clear that he wouldn't sign an appropriation with those sort 
of strings and with those sort of limitations.
    Senator Cornyn. Let me amend my question. What would be the 
consequence of Congress passing that legislation? We can leave 
it to the President to make his mind up as to what he intends 
to do with it.
    Secretary Geren. From the perspective of the Army, in our 
organize, train, and equip role, I'd be reluctant to offer a 
strategic or a tactical perspective from the field. So, I 
decline to answer that, other than that the President has made 
it clear that he will not sign that, and so, the Army is having 
to plan as if that route to funding our needs is not going to 
become a reality. We are forced to look into the future, try to 
anticipate what our funding challenges are going to be, and 
plan accordingly, and that's what we're doing.
    Senator Cornyn. I am asking you what a withdrawal date, 
even as a goal--whether that is helpful or unhelpful, in terms 
of advancing the security situation in Iraq.
    General Casey, what's your opinion?
    General Casey. With my Joint Chiefs hat on, Senator, I----
    Senator Cornyn. Sir, you have those four stars on your 
shoulder, and I respect your military judgment, and, whether or 
not it's within your current portfolio, you have a lot more 
experience than anybody up here on this side of the bench, and 
I'd like your views.
    General Casey. It has been the consistent policy of the 
Joint Chiefs that any type of firm withdrawal date would 
undermine our ability to conduct the operations there in Iraq 
or Afghanistan.
    Senator Cornyn. Would it make any military sense to--in 
your opinion, General Casey, to limit the range of permissible 
operations, by the Commander of Multinational Forces in Iraq, 
to diplomatic security and counterterror operations?
    General Casey. It's also been the consistent position of 
the Chiefs that any statutory limitation to the mission of the 
commander on the ground in an environment as complex as Iraq 
is, it would be extremely detrimental to the accomplishment of 
his mission.
    Senator Cornyn. That's your view as well?
    General Casey. Yes.
    Senator Cornyn. Finally, there's a provision in the House 
bill that would extend the Army's approved interrogation 
techniques under the Army Field Manual to all Federal agencies 
and employees. Do you have any opinion or understanding as to 
why a provision that would not apply to the uniformed military 
would be included in a emergency troop funding bill?
    General Casey. I don't, Senator. I don't have any 
background on that.
    Senator Cornyn. That was, I take it, not part of the 
request from the Pentagon, to cover non-uniformed government 
employees.
    General Casey. Not from the Department of the Army. I don't 
know if the DOD had something.
    Senator Cornyn. Mr. Secretary, is that your understanding, 
as well?
    Secretary Geren. That is. That was not part of the request.
    Senator Cornyn. Thank you, Mr. Chairman. My time's up.
    Chairman Levin. Thank you, Senator Cornyn.
    Senator Bayh?
    Senator Bayh. Thank you, Mr. Chairman.
    Gentlemen, thank you for your service to our country. 
You've been very patient today, and I appreciate your presence 
here.
    I have the unfortunate duty to ask, particularly you, Mr. 
Secretary, about something that I hope to never have to ask an 
official of our government about again, and that is the 
unnecessary death of an American serviceman because of the 
apparent negligence or incompetence of our own government. I 
think we all agree here that wounded servicemen deserve the 
very best care, but that does not appear to have been the case 
when it comes to Indiana National Guardsman Sergeant Gerald 
Cassidy. By all indications, the enemy could not kill him, but 
our own government did. Not intentionally, to be sure. But the 
end result apparently was the same.
    I wrote you a letter about this, Mr. Secretary, on October 
10, which states in part: ``Sergeant Cassidy was assigned to 
Fort Knox following injuries he sustained in Iraq. He died at 
Fort Knox on September 21, under the Army's care, just days 
before he was to be sent home. Preliminary reports state that 
he may have lain unconscious in his room for several days, and 
was possibly dead for several hours before being discovered.''
    So far, I haven't received a response to my letter, but I 
hope to have one here before too long.
    On August 10, Mr. Secretary, you were quoted in the U.S. 
Army press as saying of wounded soldiers who had previously 
been placed on medical hold, and I'm quoting here, ``They're 
all in WTUs, being treated like soldiers rather than patients. 
Every soldier has a primary-care manager, a nurse that's a care 
manager, and a squad leader who understands the soldier and can 
work the soldier through the system.''
    On September 21, Sergeant Cassidy died at Fort Knox, as I 
indicated. By all accounts, he was not receiving the level of 
care and attention that you said was in place on August 10. 
Five days later, a GAO study reported that only 17--that's less 
than a majority--of the 32 WTUs were in place, and they had--
they had 50-percent staff in place--17 of the 32 WTUs had less 
than 50 percent staff in place, and 46 percent of eligible 
soldiers had yet to be assigned to a WTU.
    So, Mr. Secretary, my first question is, what can you tell 
us today to assure the American people that the Army is fixing 
this problem and there won't be another fatality like Sergeant 
Cassidy's or another Walter Reed? The situation is particularly 
shocking, given the revelations at Walter Reed. I'm concerned 
about whether we only respond to adverse publicity, and when 
these folks in the press go away, whether it's just a return to 
business as usual. So, what can you tell us to assure us that 
the system is being fixed? In particular, why should we place 
confidence in your response, given the disparity between the 
press release and the GAO report, about a month later, and what 
they found to be the case?
    Secretary Geren. Let me start with Sergeant Cassidy, a 
tragedy for the Army and a tragedy for his family. The matter 
is under investigation, but we have already taken steps--
relieved his entire chain of command. His platoon sergeant, his 
captain, and his battalion commander were all relieved as a 
result of their conduct of the operations regarding Sergeant 
Cassidy.
    Senator Bayh. By the way, Mr. Secretary, while I'm being a 
little tough on you here today, I do want to compliment you and 
those who made those steps. I mean, there seems to have been 
some real accountability in the chain of command, which I think 
is appropriate.
    Secretary Geren. They were all relieved immediately. I 
asked General Schoomaker and General Tucker to go up there and 
assess the situation. They have. We've made changes there. I've 
been to Fort Knox, I've been briefed on the situation from 
General Williams. I also met with all the soldiers in that WTU, 
and with all their senior leaders out of the room so I could 
hear from them personally, and did. We've taken steps there to 
correct that problem.
    As far as WTUs across the country----
    Senator Bayh. How can you assure us this is an anomaly? 
This took place after the whole Walter Reed revelations.
    In your opinion, was this just an isolated incident? How 
can we assure people this isn't going to happen again?
    Secretary Geren. Thankfully, so far, it has proven to be an 
isolated incident. We took steps to address it, and we put 
people in place that are the right leaders to assume that role.
    Since we began the WTUs, last spring, we've moved an 
additional 1,700 soldiers into support of the soldiers that 
we've put in WTUs. By January 1, we'll be up to the full 
complement, which is 2,400. So, we have, since we were made 
aware of the problems late last winter, early spring, we've put 
1,700 soldiers in support of those soldiers in WTUs. It's not 
to 100 percent yet. It'll be 100 percent in January.
    Senator Bayh. So, you're saying the situation found in the 
GAO report will be rectified by this coming January?
    Secretary Geren. The GAO report talked about the numbers 
who are there now. We were not able to, just overnight, put 
2,400 soldiers--the right soldiers--into these positions. We 
don't only want to fill the positions, we're trying to move the 
best soldiers. In fact, the battalion commander we put in after 
the one that we relieved, one of the tops in the field, and 
he's a wounded warrior himself, and I met with him when I was 
out there. We've moved 1,700 in. By January, we will have all 
2,400 in. The system is a completely different approach to----
    Senator Bayh. So, all eligible soldiers will be in these 
units by this coming January?
    Secretary Geren. All these WTUs will be fully staffed.
    Senator Bayh. So, the staff will be adequate, but what 
about the soldiers who are eligible? Will they have been 
assigned to them?
    Secretary Geren. The soldiers will be assigned, based on a 
determination of what their individual needs are and what their 
medical-care needs are. But the soldiers that we deem to be 
best suited for assignment in those WTUs, yes, will be.
    Senator Bayh. Let me ask you about that, a little bit. In 
the civilian world, when you have a medical problem, you seek 
out the best specialist, and you try and get their care. As I 
understand it, one of the issues here is that, in the military, 
you're assigned to the base closest to where the family 
resides, at least that was the case here. Since we're from 
Indiana, he was assigned to Fort Knox. My staff has traveled 
down there, and the senior officer at Fort Knox candidly told a 
member of my staff that, at least in his opinion, that Fort 
Knox is not the right place for a soldier with a TBI, which was 
believed what Sergeant Cassidy had. So, my question to you, Mr. 
Secretary, is, don't you think a loving family would prefer to 
see that their--I mean, if you can get the right care and be 
close, that's ideal. But if you have to choose between being 
close or getting the right care, my guess is, most families 
would choose: get the right care.
    Secretary Geren. When the soldiers are assigned to a WTU, 
the right care is the primary consideration, also take into 
consideration what sort of family support would be available. 
It's a balancing act. In fact, when I was at Fort Knox 
recently, I had two soldiers in the WTU complain that they were 
not closer to home. One was from Oregon, and he said, ``I'd 
like to be closer to Oregon.'' One was from Rhode Island. So, 
there is that tension.
    The family support, as you well know, is very important. 
The family support that people are able to deliver out at 
Walter Reed is an important part of their rehabilitation. So, 
there's a tension there. We try to put the soldiers close to 
the medical care that they need. I was at Fort Campbell last 
week, and we run daily buses back and forth to the Vanderbilt 
Hospital to make sure that our soldiers can have that highly 
specialized care that's available there. So, it is a balancing 
act, but the availability of the health care is the primary 
driver of those decisions.
    Senator Bayh. Let me ask you one last thing about that. One 
of the tragic aspects here is that the family actually did get 
actively involved and had a team of private neurologists and 
brain specialists lined up in Indianapolis to help provide for 
care for the young man. But it took 5 months for the transfer 
order to be approved. Why did it take so long? What can we do 
to shorten those delays?
    Secretary Geren. I can't speak--to the details of that 
aspect. That is being investigated.
    I can tell you, though, one of the things that we see is 
absolutely essential in providing good care to these soldiers 
is to make sure that their voice is heard. The squad leader who 
is in charge of his unit, it's his or her job to make sure that 
these issues are raised up the chain of command, that they 
don't stay buried, like they apparently did at Walter Reed, to 
give that soldier a voice. Every one of those soldiers has a 
card, one is at your desk, that has his chain of command on the 
back.
    Senator Bayh. That didn't appear to have happened here. I 
mean, it took 5 months.
    Secretary Geren. Sir, it failed. As I said, we relieved his 
entire chain of command, three soldiers that were in his chain 
of command lost their job because of how they handled this 
case. Unacceptable.
    Senator Bayh. That's what I wanted to hear, Mr. Secretary. 
In your opinion, this situation was unacceptable.
    Secretary Geren. Unacceptable, and I think the decisions on 
accountability demonstrated that we believe that, and we acted 
on that.
    Senator Bayh. I'll tell you where I'm coming from. I'm sure 
both of you gentlemen will agree with this. My heart goes out 
to the family of this soldier, and obviously, they're grief-
stricken. But the least we can do is try to ensure, to them and 
the American people, that this sort of thing isn't going to 
happen again.
    Secretary Geren. I can assure you, we hold nothing closer 
to our heart than the commitment to that very principle, not 
only as civilians, but as soldiers.
    When you saw what happened at Walter Reed, I was very 
heartened by the response of the Army and soldiers to that 
situation. Soldiers take care of soldiers. If somebody drops 
the ball in taking care of a soldier, it violates everything 
soldiers stand for. When we have a situation where a soldier 
fails another soldier, this is an institution that holds those 
folks accountable.
    Senator Bayh. Mr. Secretary, that's what I want to hear. I 
mean, accountability, a commitment to correcting the situation, 
making sure there are no more Sergeant Gerald Cassidys.
    Secretary Geren. Thank you, Senator.
    Senator Bayh. We owe that to these men and women. We owe 
that to their families. I'm going to be following up with you 
and your staff to make sure, not only do we get to the bottom 
of this particular incident, but that we put in place the 
systemic improvements that you indicated here, and that they're 
actually put in place.
    Secretary Geren. I share your commitment, I assure you.
    Senator Bayh. Thank you, Mr. Chairman.
    This is the situation that I have alluded to you.
    Chairman Levin. I was going to make reference to that.
    Senator Bayh has been very, very active on this issue and 
the implications of this issue, not just for Sergeant Cassidy, 
tragically gone, and his family, but for other soldiers.
    The language that we have added to the wounded warrior 
legislation, which is added at the request of Senator Bayh, to 
make sure that people like Sergeant Cassidy are not only given 
the appropriate level of care, public or private, but in a 
facility closest to their home. That language is now in our 
wounded warrior legislation, and we want to thank Senator Bayh 
for that effort. It's there because of that effort.
    We, as a committee, are interested in this matter, in this 
particular case, and the outcome of your investigation in this 
matter, which you say is underway, so that, as a committee 
matter, in addition to Senator Bayh's very urgent and 
passionate involvement in this, we would ask that you let the 
committee know of the outcome of this investigation.
    Secretary Geren. Certainly will.
    Chairman Levin. As well as Senator Bayh, personally.
    Senator Bayh. Thank you, Mr. Chairman.
    Secretary Geren. Certainly will. Mr. Chairman, this matter 
is very troubling. The new surgeon general, before he was a 
surgeon general, but while he was under consideration, asked 
him to go up and meet with the families. It was a major 
failing. General Schoomaker is personally involved in making 
sure that we rectify this situation. General Tucker, who has 
also met with your committee, is working this issue. We take it 
very seriously, I can assure you. I think our actions would 
support that, and we will certainly keep you informed.
    Chairman Levin. Thank you.
    Secretary and General, you were asked by Senator Cornyn 
about the language in the House bill. First, on the transition 
question to the more limited mission that is currently the 
case. Have you read the language?
    Secretary Geren. No, sir, I have not.
    Chairman Levin. Well, then let me tell you that he left out 
one of the critical missions, when he did state the missions 
that are laid out here. In addition to protecting diplomatic 
facilities, U.S. Armed Forces, and American citizens, and 
engaging in counterterrorism operations, there's a third 
mission, which is to conduct limited training, equipping, and 
providing logistical and intelligence support to the ISF. 
That's an important element of the House language.
    I understand that the administration has adopted a goal of 
transitioning our mission, putting greater responsibility on 
the Iraqi forces, so that it is the intent of the 
administration to transition the mission from what we currently 
have to the Iraqi forces and evolving into a more limited 
mission over time for our forces. Is that correct, General?
    General Casey. We still have a strategy to transition the 
security mission to the ISF, that's correct.
    Chairman Levin. All right, can you then state what the 
transition would be to for us? Is it different from what I've 
just read? I'm just wondering, is the transition to the 
mission, which you talk about a transition to give them greater 
responsibility. Is the transition to the mission that would 
remain for us different from what I just read to you?
    General Casey. Here's the difference. To say that the 
commander just has a counterterrorism mission----
    Chairman Levin. It doesn't say----
    General Casey. But--as opposed to a counterinsurgency 
mission, for example--you can't tell the players apart, who's a 
terrorist, who's an insurgent.
    Chairman Levin. Right.
    General Casey. It's just an artificial imposition on the 
commander that would only make his job harder, and make the 
troops have to work a heck of a lot harder. That's the concern 
on this.
    Chairman Levin. I understand. What did the President mean 
when he said that he would transition the mission so that there 
would be greater responsibility on the Iraqi troops, lesser 
responsibility--what does the Commander in Chief mean by saying 
there will be a transition?
    General Casey. I'm dated on this, now, but----
    Chairman Levin. Secretary Geren, what does he mean?
    Secretary Geren. I can't speak to that.
    Chairman Levin. All right. Second, you've indicated, if 
there were a firm withdrawal date, that that would be a 
problem. Would you agree that the language that I'm going to 
read to you does not represent a firm withdrawal date, but, 
rather, a goal? Would you agree to that? I'm going to read you 
the language, ``The goal for the completion of the transition 
of the Armed Forces shall be a date not later than December 15, 
2008.'' Would you agree that that is not a firm withdrawal 
date, but as it states, a goal? Would you agree with that?
    Secretary Geren?
    Secretary Geren. Well, the language you read used the word 
``goal.''
    Chairman Levin. That's correct. Is that the same as a firm 
withdrawal date, to you? Does the words mean ``firm withdrawal 
date'' to you when it's stated to be a goal?
    Secretary Geren. I would like to read all of the language. 
This is a first impression for me. I had not seen the 
language----
    Chairman Levin. All right. What is the goal for your 
transition, the President's transition? Is there a goal? You've 
stated there's a transition that he's spoken about, to Iraqi 
forces having greater responsibility. Let me ask you, What is 
his goal for the completion?
    Secretary Geren. I have not spoken to the strategy of the 
combatant commander in the field.
    Chairman Levin. No, of the Commander in Chief.
    Secretary Geren. No, I don't believe that I've spoken to 
that, either.
    Chairman Levin. But is there a goal?
    Secretary Geren. Sir, my role is: organize, train, and 
equip. I'm really not prepared to talk about the strategy of 
the combatant commanders here today.
    Chairman Levin. I wasn't asking you about the combatant 
commanders. I've asked you about the Commander in Chief.
    Secretary Geren. Sir, as well, the conduct of the war is 
outside of the purview of my responsibilities.
    Chairman Levin. General, is there a goal for the transition 
that you've referred to?
    General Casey. You're asking us to make policy comments 
here.
    Chairman Levin. No, I'm not.
    General Casey. We're not the policy guys.
    Chairman Levin. I'm just asking you, is there one? I'm not 
asking you, what should be the goal? That's policy. I'm asking 
you, is there one? That's fact. Is there a goal for the 
transition that the President has talked about? That's my 
question. Do you know of a goal?
    General Casey. A temporal goal?
    Chairman Levin. Yes.
    General Casey. I do not know of a temporal goal.
    Chairman Levin. Mr. Secretary?
    Secretary Geren. I do not know of a temporal goal.
    Chairman Levin. Well, there sure as heck ought to be--if 
there's going to be a transition, which the President has 
spoken of, it seems to me that to simply say there will be one, 
without a goal, is to just simply talk air, rather than to talk 
anything that has a message in it to both our troops, to the 
American people, the American Congress, and to the Iraqi 
leaders. It is just words, unless there's at least a goal. I'm 
not talking about a firm date. I'm talking about a goal of a 
date for something to be achieved. Don't you have goals in the 
military for most of your missions to be achieved? Isn't that 
kind of ordinary?
    General Casey. Sure, we do.
    Chairman Levin. Final question. Do you agree with General 
Odierno's comments in today's Washington Post?
    Secretary Geren. Could you read them? I'm sorry, I don't--
--
    Chairman Levin. I will. Are you familiar with them, 
General?
    General Casey. I have not read them. I've just heard them 
quoted here today.
    Chairman Levin. Well, what he's saying, it's unclear how 
long this window of opportunity is going to be open for the 
political leaders of Iraq to reach a political accommodation. 
Do you agree with that?
    Secretary Geren. Sir, you're asking me to offer opinions in 
an area in which I don't have the experience or the current 
knowledge.
    Chairman Levin. Do you agree that we're going to have to 
review our strategy if the political leaders don't reach an 
accommodation?
    Secretary Geren. Once again, sir, this is beyond my area of 
expertise or responsibility.
    Chairman Levin. General?
    General Casey. Same thing. I mean, I don't know the 
specifics and the context he was talking in.
    Chairman Levin. He's trying to put some pressure on the 
Iraqi political leaders, saying what everyone's seeing with our 
own eyes. Our military has performed magnificently, 
courageously, bravely, at great cost of blood and treasure. Now 
the purpose of the surge, as he states, and as the article 
states, and as the President stated, was to give the political 
leaders breathing space to reach a political accommodation. 
That was its purpose. It has achieved some military gains--
hopefully, longstanding, but we don't know how long they'll 
last. That was the question about, how long will that window of 
opportunity be open? No one knows. It could be a lull. Maybe 
not. Hopefully, long-lasting. But the purpose of the surge, as 
stated by the Commander in Chief, was to give the political 
leaders breathing space. They haven't used it. No one knows how 
long the window of opportunity's going to be open. General 
Odierno says, and I think that's clear, no one knows for sure 
that can--but, for heaven's sakes, are you not able to say 
whether or not you agree with General Odierno, the commander in 
the field, as to whether or not we're going to have to review 
our strategy if the political leaders don't do what they 
committed to do, which is to work out those political 
settlements in those key areas? Aren't you able to say whether 
or not you agree with that?
    General Casey. We don't make the strategy, Senator.
    Chairman Levin. Personally. I'm asking your personal 
opinion. Do you agree with General Odierno, as a personal 
matter?
    General Casey. I don't know the context and the timeline 
he's talking about.
    Chairman Levin. All right. Well, he talks about by next 
summer.
    General Casey. So, he's saying to review the strategy by 
next----
    Chairman Levin. If there's no breakthrough by next summer--
that was the question, apparently, to him. Do you agree with 
that?
    General Casey. Yes, that would make sense to me, yes.
    Chairman Levin. Okay.
    Secretary Geren. Sir, I don't have enough information to 
offer an informed opinion.
    Chairman Levin. All right, thanks. Fair enough.
    Senator Warner.
    Senator Warner. Mr. Chairman, those are very important 
questions, and I think the witnesses--as they state, that falls 
beyond the daily purview of what they're responsible for. But, 
nevertheless, I would suggest to my good friend, the chairman, 
as soon as we come back from this hearing, in 2 weeks, that 
perhaps this committee could get the witnesses who are directly 
responsible--namely, the Chairman of the Joint Chiefs, perhaps 
others who are directly responsible for the formulation of 
policy. Because I will answer the question that General Odierno 
posed. I think we do have to review the strategy in the light 
of the inability of this Government of Iraq to have fulfilled 
what I believe to have been a commitment they made to the 
President at the time of the initiation in January--namely, 
January 10--of the surge. You have my support.
    With all deference to our witnesses, I think they've done a 
very fine job of giving us tough, pragmatic, forthcoming 
responses to a wide range of questions. If there's one thing 
that I would carry out of here with, each of you have shown an 
enormous compassion from the men and women of the Armed Forces 
and their families. I remember, I was privileged, early on in 
my career in the DOD, to get to know General Abrams. I think I 
quote him accurately. He once said, ``The people are not in the 
Army, they are the Army.'' I think you ought to put that up on 
the wall down there. That's one for all of us to follow.
    Secretary Geren. Sir, I'm pleased to tell you, it is on the 
wall in our conference room, and it's a guiding principle for 
us.
    Senator Warner. Is it really? I'm pleased, because I 
remember Secretary Melvin Laird went out, handpicked him to 
take on that job, and history someday may record that, had he 
been given a little more time, we might have had some different 
results in that period of our history. I agree with the 
chairman, the Army has performed brilliantly under these 
circumstances. They've carried out the orders of the Commander 
in Chief. Mr. Chairman, but we must address and I hope you'll 
consider that possibility.
    Chairman Levin. On that point, if the Senator would just 
yield. I thank him for his comments. Those commitments that 
were made by the Government of Iraq were actually made, now, a 
year ago, even long before the surge.
    Senator Warner. Shortly after you and I came back from 
Iraq.
    Chairman Levin. Exactly right. It was actually made a year 
ago this month. They were supposed to have been completed more 
than a year ago. Those commitments were supposed to have been 
carried out, in part, by a year ago this month--carried out, 
not made. They were made a year and a half ago.
    I couldn't agree with General Odierno more, except for one 
thing. I agree with him, it's not clear how long the window is 
going to be open, but--we're going to have to review our 
strategy? It's long overdue that we review our strategy if they 
don't carry out what they've done. In other words, we shouldn't 
wait until next summer. That's the only disagreement I have. 
These commitments were supposed to have been carried out a year 
ago.
    I welcome the suggestion of Senator Warner. As always, he's 
playing a very constructive role. I think we will look into the 
possibility that, in the 2 weeks after we have this, when we 
come back, that we should see if we can get both the Chairman 
of the Joint Chiefs and the Secretary of Defense up here to 
talk about what General Odierno is saying, which is, basically, 
the need to review strategy when the leaders of the Iraq 
Government don't do what they committed to do.
    As my dear friend Senator Warner knows, last time we came 
back, I went so far as to recommend that, because of the 
failure of the Iraqi political leaders, that the assembly over 
there pick some leader who would carry out their commitments. 
Obviously, we can't bind the government. We're not going to 
dictate to the Iraqi government. They're a sovereign 
government. But we have a right to make recommendations and to 
make observations, and they have failed miserably in their 
political roles to carry out the commitments that they made to 
themselves. We didn't extract those commitments from them, they 
made those commitments to themselves. Those are Iraqi 
commitments. It seems to me that, when we look at the sacrifice 
which has been made by our troops, their families, and the 
American people, in terms of their treasury, the least we can 
tell the Iraqi leaders is what General Odierno signaled in this 
morning's Washington Post, that we have to review our strategy 
when they continue to fail to carry out the political 
commitments that they made.
    I've interrupted Senator Warner.
    I just want to thank you, again.
    Senator Warner. I would simply follow on, Mr. Chairman, you 
and I returned to Iraq, in September of this year, and, in the 
presence of the president of Iraq, they displayed to us draft 
documents to solve the energy--the question--the de-
Baathification. They represented to us it was forthcoming.
    Chairman Levin. Very true.
    Senator Warner. Now that was in August and September. So, 
you have my support, and I think it's wise that we have our 
distinguished Secretary of Defense, who spoke with us 
yesterday--you and I had the opportunity to question him 
yesterday--together with the Chairman, to come up and review 
that issue that you raise. I support, 100 percent.
    I'd just like to tie up, Mr. Chairman, one or two things.
    First, this Blackwater situation. We're not about, here 
today, in a few minutes, to try and pronounce judgment, but I 
think we'd better dispel any thought that the Army could pick 
up the myriad of responsibilities that Blackwater has been 
performing by way of internal security in Iraq. I just would 
like to have that as a part of the record. It's not that, if 
ordered, you wouldn't do your best, but that would put an undue 
stress, and particularly a category of individuals--namely, 
security forces--both the Army--we'd probably be a combined 
security force, with all of our services participating--but I 
just think that is something, for the moment, that's not an 
option. Would I be correct on that, General Casey?
    General Casey. I'm not sure exactly what's going on over 
there on this but for us to replace the Blackwater security and 
provide personal security would be very, very difficult for us 
to do.
    Senator Warner. So, let's hope those in positions of 
responsibility--I know the Secretary of State is working on 
this issue, as are others--they can work it out so that there's 
accountability that somehow does not suddenly, overnight, think 
we're going to pick it up here in the United States Army.
    Secretary Geren. Approximately--many other security firms 
operating in Iraq, around 8,000 or 9,000--so, if steps were 
taken, either by the Iraqi government or elsewhere, that caused 
those to leave, it would put a very heavy burden on our 
commitment.
    Senator Warner. Well, indeed, it would.
    The Mine Resistant Ambush Protected (MRAP) vehicle, 
Congress is supporting the acquisition of the numbers that you 
desire. I just wondered two things, General. Are we constantly 
doing a red-team/blue-team analysis of the technical aspects of 
that piece of very expensive equipment, to look into the future 
as to possible vulnerabilities, and, consequently, in the 
design now, taking care of every one that we can possibly----
    General Casey. We do that for all of our systems, Senator. 
We work very closely with Joint Improvised Explosive Device 
Defeat Organization.
    Senator Warner. That's all I need to know.
    General Casey. Yes.
    Senator Warner. Are we designing that vehicle such that it 
could be adapted to future Army missions, which could be 
somewhat different than this one, both in Iraq and Afghanistan?
    General Casey. Short answer is yes, although it's not 
intended to be a replacement for the up-armored Humvee. We 
still need the joint light tactical vehicle. We always had the 
intention of taking these, once they're done with them in Iraq, 
and put them in pre-positioned sets, because the IED, I 
believe, is going to be part of this landscape here for the 
future.
    Senator Warner. Regrettably, it's going to be a weapon of 
the future.
    Your recruiting projections for 2008, have you announced 
what they are?
    Secretary Geren. Our goals are 80,000, plus 1,600 that we 
are forecasting to achieve from the Guard Active First Program. 
So, for the active duty, it would be 81,600, including those 
that have the active and a follow-on Guard commitment.
    Senator Warner. Is that for fiscal year 2008?
    Secretary Geren. Yes, sir, it is.
    Senator Warner. Are you reasonably confident you're going 
to be able to reach those goals?
    Secretary Geren. We're committed to doing that. It's a 
tough recruiting environment, but we believe that those are 
achievable. Last year, we had to work hard to meet those goals, 
but we did. I believe we'll accomplish the goal this year.
    Senator Warner. If it came to a judgment call that you're 
having to rely on trying to build your force and to meet your 
goals, in terms of numbers, but you don't see the quality 
coming in, I would hope both of you'd raise your hand and say, 
``Time out.'' We're not going to burden the Army with 
individuals, which, historically, particularly going back to 
your early days in the military, and that I knew, with the 
draft situation, General Casey--that put a tremendous burden, 
trying--a few individuals on the officer--junior officer corps 
and the senior noncommissioned officers (NCOs), to try and deal 
with those situations. You'll call, ``Time out''?
    Secretary Geren. Yes, sir, absolutely. We're committed to 
maintaining the quality.
    General Casey. We've already told Secretary Gates that that 
was one of the conditions of this accelerated growth.
    Senator Warner. Good.
    Now, your retention of NCOs, the backbone of so much of 
your work, beyond that 20-year level, that is appearing to be 
somewhat of a weak spot. Are you taking some steps to try and 
encourage that, retention of those individuals beyond their 20-
year----
    Secretary Geren. Yes, sir.
    Senator Warner.--enabling them to get to their retirement?
    General Casey. Senator, we are not having a problem with 
NCO retention. I've not heard of a problem of NCO retention 
past 20, except in some specific skills, like signal 
intelligence and special forces.
    Senator Warner. Fine, thank you.
    Mr. Chairman, I think we've had a very good hearing. I 
commend you.
    Chairman Levin. Thank you, Senator Warner, very much.
    Secretary Geren. Mr. Chairman, could I say one thing?
    Chairman Levin. Of course.
    Secretary Geren. Following on Senator Warner's question 
at--early in the hearing about what Congress can do, other than 
send us money. Money certainly helps. But this Covenant with 
Families, we are in uncharted waters when it comes to family 
support. All-Volunteer Force, 7 years of war. Never have we 
done this before as a Nation. The families are volunteers, just 
like the soldiers are volunteers. If we're going to maintain 
this national treasure of the All-Volunteer Force, we're going 
to have to do more to sustain these families--look for better 
ways to provide employment opportunities for spouses, look for 
better ways to meet the educational needs for kids, health 
care, housing. I don't think we can sit here today and say what 
it needs to look like 3 years from now 5 years from now, but if 
we continue in this era of persistent conflict, the stress on 
the families is going to be something that we have not 
addressed as a Nation previously. I don't think it's just this 
committee. It's broader than this committee. But I invite you 
all to help us think through this. All the good ideas won't 
come from the Department of the Army. The RCI came from an 
initiative that you started in the late 1990s.
    So, this, to me, is one of the most important strategic 
issues we face as a Nation. If we're going to retain the All-
Volunteer Force, how do we retain the All-Volunteer Family? I 
think that's one of the biggest challenges we face as an Army 
and a DOD, and I'd invite your participation as we move out, to 
try to figure out what that needs to look like next year and 5 
years from now.
    Senator Warner. I think that's an important observation, 
Mr. Secretary, and you have to put it in the framework that our 
Nation, while the population is--I've never seen greater 
support for the military, since World War II really, when it 
was quite clear that every man and woman in the United States 
supported the people in uniform. That level of support is 
there. But, at the same time, World War II, there was a great 
deal of sharing of the hardships between the civilians at home 
and the military and the military families. We were all sharing 
hardships. Today, our population--I'm not faulting it, just 
observing--they're moving on. But these young families are 
competing with other wives at the malls, in the shopping 
places, and in the schooling and the education, and, while the 
Army and the other military branches do provide some benefits, 
they're very much part of the mainstream of America. That 
mainstream, while supporting them, is not faced with the 
burdens that these families have.
    Secretary Geren. That's true, as I've mentioned, we're 
signing this Covenant with Families at every camp, post, and 
station. We're finishing it up right now. In the spring, we're 
going to do the same thing, a Community Covenant with the 
Families at every camp, post, and station, to draw--we get 
tremendous support, as you well know, from communities around 
our posts, where they help the families, everything from mowing 
lawns to childcare and all sorts of other financial benefits. 
But we're going to ask these communities to sign on the dotted 
line, to broaden the level of support we get at the community 
level.
    I think the significance of the challenge we face in this 
really can't be overstated. We have never fought an extended 
conflict with an All-Volunteer Force before. Half of these 
soldiers are married. The success will depend upon those 
families hanging with us.
    Thank you, Mr. Chairman. Thank you all.
    Chairman Levin. There is, in the wounded warrior 
legislation that's part of our authorization bill, a number of 
provisions which reflect that commitment to families.
    Secretary Geren. There certainly are.
    Chairman Levin. We thank you both.
    We stand adjourned.
    [Questions for the record with answers supplied follow:]

            Questions Submitted by Senator Edward M. Kennedy

                         NATICK SOLDIER CENTER

    1. Senator Kennedy. Secretary Geren, I understand that the Natick 
Soldier Center (NSC) would be better able to hire and retain high 
quality scientists and engineers and therefore be better able to 
perform their designated missions if a laboratory personnel 
demonstration program--similar to one currently being executed at the 
Air Force Research Laboratory and other defense labs--is established 
there. I understand that Natick's attempts to establish a personnel 
demonstration program (as they are authorized to by Congress) has been 
stifled by other parts of the Department of Defense (DOD). What are the 
advantages and disadvantages of establishing a personnel demonstration 
program at Natick?
    Secretary Geren. The previous DOD policy that allowed for new 
laboratory demonstration projects to be approved only if they provided 
for new ``interventions'' different from existing initiatives at 
laboratories has been impacted by the recently passed legislative 
initiatives contained in the National Defense Authorization Act (NDAA) 
for Fiscal Year 2008, sections 1106 and 1107. Given the initiatives 
within the NDAA, Natick will be able to use any flexibility available 
to any other demonstration laboratory enumerated in the legislation. 
Therefore, the Army will not require any statutory changes to implement 
a laboratory demonstration program at Natick.

    2. Senator Kennedy. Secretary Geren, what is the plan and timeline 
for the rapid establishment and implementation of a laboratory 
personnel demonstration program at the NSC?
    Secretary Geren. In order to be considered for Laboratory 
Demonstration status, an organization must be designated as a Science 
and Technology Reinvention Laboratory (STRL). The NSC pre-cursor 
organization, the Soldier, Biological and Chemical Command (SBCCOM), 
was designated by Congress as an STRL in 2004. At issue is whether the 
STRL designation remains valid based on SBCCOM's restructuring that 
formed NSC. The Office of General Counsel (OGC) for the Department of 
the Army has requested a determination of this designation by the DOD 
OGC. Upon the legal determination of the NSC status as an STRL, the 
Army will act appropriately.

    3. Senator Kennedy. Secretary Geren, what are the current 
bureaucratic barriers to the establishment of a personnel demonstration 
program at Natick?
    Secretary Geren. There are no bureaucratic issues to establishing a 
laboratory demonstration program at the NSC if the DOD OGC determines 
the center can retain its status as a valid STRL.

    4. Senator Kennedy. Secretary Geren, do you require any statutory 
changes to Army or DOD personnel authorities to enable Natick to 
establish and implement its demonstration program?
    Secretary Geren. The Army does not require any statutory changes to 
implement a laboratory demonstration program at Natick.
                                 ______
                                 
 Questions Submitted by Senator Edward M. Kennedy and Senator Evan Bayh

                               DEPLOYMENT

    5. Senator Kennedy and Senator Bayh. Secretary Geren and General 
Casey, now that the ``surge'' in Iraq is ending, when will the Army 
provide relief by shortening deployments to a more manageable year, or, 
like the Marine Corps, to 7 months?
    Secretary Geren and General Casey. If the reduction in surge forces 
is completed by July 2008 as planned, our goal is to shorten deployment 
lengths shortly after that. However, circumstances in theater outside 
of the control of the Army will influence the timetable on shortening 
deployments.

    6. Senator Kennedy and Senator Bayh. Secretary Geren and General 
Casey, when will the Army give soldiers the same amount of time home as 
they are asked to spend deployed?
    Secretary Geren and General Casey. Our short-term goal is to give 
our Active component soldiers at least the same amount of time home as 
they are deployed (1:1 ratio) and to have our Reserve component forces 
mobilized for 12 months every 4 years (1:4 ratio). We are currently not 
meeting this goal for either component. It will take a few more 
rotations to meet our goal.
    If the reduction in surge forces is completed by July 2008 as 
planned, our goal is to shorten deployment lengths shortly after that. 
However, circumstances in theater outside of the control of the Army 
will influence the timetable on shortening deployments.

                               EDUCATION

    7. Senator Kennedy and Senator Bayh. Secretary Geren and General 
Casey, with regards to the continued improvement and innovation of 
professional military education (PME) in the Army, how will you measure 
success?
    Secretary Geren and General Casey. To measure the success of PME we 
continuously evaluate our performance in four critical areas. We use 
our findings to make appropriate adjustments to our training curricula. 
First, we continuously seek feedback from combat-experienced soldiers 
on whether we are providing the right content. Our processes for review 
of course content are continuous and rigorous. Professional educators 
and social scientists apply best practices in educational design to 
ensure coherent programs.
    Second, we use performance-based testing and assessment to ensure 
that every Army leader who graduates from a PME course can perform the 
course objectives to standard.
    Third, we survey PME graduates and their supervisors 6 months after 
graduation through our Quality Assurance program. This lets us know if 
graduates are successfully applying what they've learned in PME to 
perform their duties once they return to their units. Our annual 
``Leadership Assessment Survey'' provides another systematic means to 
assess leader performance quality. The emerging Multi-Source Assessment 
and Feedback Program will generate aggregated data on leader 
performance from the perspectives of subordinates, superiors, peers, 
and the leaders themselves.
    Finally, we evaluate the performance of our units and integrate 
lessons learned. We use professional observers and trainers at the 
Combat Training Centers to assess the collective performance of units 
in a realistic training environment. During deployments, Combined Arms 
Assessment Teams collect data on unit and leader performance in actual 
operations. The Center for Army Lessons Learned identifies and 
validates lessons learned and ensures we integrate them into our PME 
curricula as appropriate. By continuously reviewing progress in these 
four areas we are providing effective PME.

    8. Senator Kennedy and Senator Bayh. Secretary Geren and General 
Casey, do you think it is time for a top-to-bottom review of the Army's 
PME, with the goal of better understanding what we're doing today, and 
more importantly, making recommendations to improve the system?
    Secretary Geren and General Casey. The Army Leader Development 
Program (ALDP) represents the Army's continual effort to identify, 
develop and manage the leadership development of our soldiers and 
civilians. As part of this effort, between 2000 and 2007, we conducted 
several studies and programs to include the Army Training and Leader 
Development Panel (ATLDP), Task Force Leader Development and Education 
(TF LD&E), Review of Education, Training, and Assignment of Leaders 
(RCTAL), Army Leaders for the 21st Century, and, most recently, we have 
launched Army Initiative #5 to ``Accelerate Leader Development.''
    Based on feedback from these studies, we have restructured our PME 
and synchronized it with operational deployment cycles by using a 
balance of home station training, distributed learning and resident 
instruction. Examples of changes include:

        <bullet> Officer Education and Warrant Officer Education have 
        been integrated into a single Officer Education System (OES).
        <bullet> OES focuses on Full Spectrum Operations (FSO) in a 
        Joint, Intergovernmental, Interagency, and Multinational (JIIM) 
        environment.
        <bullet> Noncommissioned Officer Education has incorporated a 
        life-long learning strategy, to balance focus on traditional 
        Warrior Leader core competencies with development of critical 
        thinking and resource management skills.

    The ALDP is the Army's solution to continuously assess leader 
development and its supporting education systems and programs.

                               PROMOTION

    9. Senator Kennedy and Senator Bayh. Secretary Geren and General 
Casey, how does the Army promote diversity at flag rank when the 
promotion system is designed to get us officers who have gotten mud on 
their boots by walking a well-traveled career path?
    Secretary Geren and General Casey. The strength of our Army comes 
from our diversity. We recently created a Diversity Task Force, headed 
by a general officer, to assess the current state of Army Diversity. It 
will access policies, practices, and leader awareness and training for 
military and civilians: benchmark successful private industry and 
government models against Army diversity; identify strengths and 
weaknesses; and recommend the way ahead. Our goals are to fill our 
General Officer Corps with the best-qualified officers and for our 
General Officer diversity to reflect that of our Army.

                                 RESET

    10. Senator Kennedy and Senator Bayh. Secretary Geren and General 
Casey, assuming that the Army's responsibilities in Iraq draw down 
sharply over the next 2 years, how long will it take the Army to reset 
its force so that it is fully prepared to handle 21st century threats?
    Secretary Geren and General Casey. Reset must continue as long as 
we have forces deployed and for several years thereafter to ensure 
readiness for the future. Commitment to providing the resources to 
reset our forces is essential to restoring balance and to providing 
strategic depth and flexibility for the Nation.

                                WARFARE

    11. Senator Kennedy and Senator Bayh. Secretary Geren and General 
Casey, please describe the kind of Army you believe is necessary to 
properly execute a counterinsurgency (COIN) strategy?
    Secretary Geren and General Casey. As we look to the future, 
national security experts are virtually unanimous in predicting that 
the next several decades will be ones of persistent conflict protracted 
confrontation among state, non-state, and individual actors that use 
violence to achieve their political and ideological ends. We need to 
ensure our forces are agile enough to respond rapidly to unexpected 
circumstances and led by versatile, culturally astute, and adaptive 
leaders. The Army has a vision to build that force, and is already 
executing this vision. We will continue along these lines and transform 
our current force into a campaign-quality expeditionary force that is 
capable of supporting the needs of combatant commanders operating 
effectively with joint, interagency, and multinational partners across 
the spectrum of conflict from peacetime engagement to conventional war.
    A COIN campaign requires a mix of offensive, defensive, and 
stability operations--in other words, FSOs--conducted along multiple 
lines of operations. COIN requires that our soldiers are able to employ 
a mix of familiar combat tasks along with other skills more often 
associated with nonmilitary agencies.

    12. Senator Kennedy and Senator Bayh. Secretary Geren and General 
Casey, generally, how is today's Army preparing for asymmetric and 
irregular warfare in the future?
    Secretary Geren and General Casey. The Army has been an active 
participant in a number of initiatives aimed at improving the Joint 
Force's ability to train for and conduct asymmetric and irregular 
warfare (IW) in the future. The Army helped develop the Irregular 
Warfare Joint Operating Concept, approved in September 2007, which 
describes how future Joint Force Commanders (JFCs) could conduct 
protracted IW in the 2014-2026 timeframe. We are also participating in 
the IW Capabilities Based Assessment to identify and sponsor potential 
solutions to our capability gaps.
    As we grow the Army, we are improving our capability to conduct 
asymmetric and irregular warfare by adding six Brigade Combat Teams 
(BCTs) by fiscal year 2011. We are growing and rebalancing the 
operating force to provide more of the capabilities in the highest 
demand such as military intelligence, military police, engineers, 
special forces and support units. We are also exploring the concept of 
a Theater Military Advisory and Assistance Group to support security 
cooperation activities such as training and advising foreign security 
forces within regional combatant commands.

                   RECRUITING AND RETENTION STANDARDS

    13. Senator Kennedy and Senator Bayh. Secretary Geren and General 
Casey, what risks do you see in the Army's lowering of its standards 
for enlisted recruits, specifically, on the Army's lowering of 
standards for age, health, education, and criminal records?
    Secretary Geren and General Casey. The Army pays close attention to 
the quality of the force. Without exception, every soldier enlisting in 
the Army is fully qualified for the job for which he/she is enlisting. 
We monitor the attrition rates by all the categories you've listed due 
to the inherent risks they potentially pose (higher attrition, less 
trainability, more indiscipline, et cetera). If negative trends are 
identified, the Army will make policy changes as required. The age 
limit is currently set at 42 in order to allow soldiers an opportunity 
to serve 20 years before the mandatory retirement age of 62. Our older 
soldiers have demonstrated their ability to perform their duties. In 
general, they are highly disciplined, motivated, and great leaders.

    14. Senator Kennedy and Senator Bayh. Secretary Geren and General 
Casey, how has the lowering of standards negatively and positively 
impacted today's forces?
    Secretary Geren and General Casey. The Army has made policy changes 
in recent years which have assisted in meeting our recruiting goals for 
fiscal years 2006 and 2007. Without exception, every soldier the Army 
recruits is fully qualified for the job for which he/she is enlisting. 
Although the numbers of waivers granted has increased in recent years, 
the impact appears to be minimal in terms of attrition, a key 
indicator. In fact, overall attrition for those enlisting with a waiver 
dropped from 18.4 percent to 15.1 percent from fiscal year 2005 to 
fiscal year 2006, and, on average, attrition rates were as good or 
better in every waiver category. For example, the 12 month attrition 
rate for medical waivers in fiscal year 2005 was 19.4 percent and 
dropped to 15.4 percent in fiscal year 2006. We will continue to 
closely monitor the impact of all policy changes and make adjustments 
as required.

    15. Senator Kennedy and Senator Bayh. Secretary Geren and General 
Casey, how will it positively or negatively impact the force in 5-10 
years?
    Secretary Geren and General Casey. We have not seen a significant 
increase in attrition for those soldiers who have been granted waivers. 
Accomplishing our recruiting mission by accessing soldiers with waivers 
positively affects the future of the force by allowing us to continue 
to grow the Army. Soldiers who are accessed with waivers must meet 
Military Occupation Specialty qualifications the same as soldiers 
without waivers. The Army has numerous programs in place to assist all 
soldiers in improving their military and civilian education.

    16. Senator Kennedy and Senator Bayh. Secretary Geren and General 
Casey, has there been a similar relaxation of standards for incoming 
officers?
    Secretary Geren and General Casey. Over the last 10 years, DOD and 
Army standards have remained unchanged. The Army is exploring 
innovative ways to attract exceptionally qualified and talented 
Americans to meet the high standards for becoming an officer. 
Applicants must possess the leadership attributes and technical skills 
required for success in today's challenging environment. Our ability to 
recruit in the current environment--which is unprecedented in the 
history of the All-Volunteer Force--requires innovation, as well as 
perseverance. We must recognize that those who volunteer to serve 
during these difficult times, have distinct qualities all their own.

    17. Senator Kennedy and Senator Bayh. Secretary Geren and General 
Casey, why do you believe that junior officers are leaving in such 
significant numbers and what, other than offering retention bonuses, do 
you plan on doing to stop that loss?
    Secretary Geren and General Casey. The loss rates for junior 
officers are still lower than our historical average rate of losses 
over the past 7 years both across the Army Competitive Category 
branches and specialties, and in the specific grades of captain and 
major. However, we do have shortages because of the growth in 
authorized positions required to create modular formations and 
transform our force for the 21st century. We are addressing this 
challenge through both accessions and retention. Since 2004, the Army 
has increased officer accessions by 1,000 officers, called over 600 
Reserve component officers to active duty, and transferred over 400 
officers separating from the Air Force and Navy through Blue-to-Green 
interservice transfers. In addition, to facilitate these efforts we 
have:

        <bullet> Increased cadet class size for U.S. Military Academy 
        (USMA) and increased Reserve Officer Training Corps (ROTC) 
        scholarship options
        <bullet> Increased ROTC stipends to retain cadets all the way 
        to commissioning
        <bullet> Doubled the capacity of the Green to Gold program for 
        Officer Candidate School
        <bullet> Streamlined NCO nominations for OCS
        <bullet> Begun to appoint officers to the SELRES vice IRR, 
        enhancing flexibility
        <bullet> Increased the cap on Reserve component scholarship 
        reimbursements

    Our retention strategy is focused on near-term, mid-term, and long-
term initiatives to meet growth requirements. We have implemented pre-
commissioning incentives to allow cadets to select a branch of choice, 
post of choice or graduate school opportunity to extend their 
obligation by 3 years. This program was immediately successful in 
extending the obligations of 1,100 officers in fiscal year 2006 and 
1,600 for fiscal year 2007. We will feel the increased retention effect 
in fiscal year 2010 and beyond when the original obligations of these 
officers would have lapsed.
    We have also implemented a ``Menu of Incentives'' program to retain 
a maximum number of our highly experienced mid-career officers. This 
initiative currently targets most of the Army's captains in year groups 
1999 through 2005 by providing an opportunity to select a Branch of 
Choice, Post of Choice, Military School options, an Advanced Degree, or 
Critical Skills Retention Bonus in exchange for their agreement to 
serve 3 additional years beyond their active duty sendee obligation. We 
expect to retain an additional 1,800 officers above normal retention 
patterns between now and 2010 through this incentive.

    18. Senator Kennedy and Senator Bayh. Secretary Geren and General 
Casey, what does this development mean for the Army's planned growth?
    Secretary Geren and General Casey. The Army is trying to retain 
mid-level officers at higher than normal rates to help fill growing 
requirements caused by increased end strength and reorganization to a 
modular concept that requires more mid-grade officers. We have 
developed a menu of options that is available to officers upon 
promotion to captain and prior to their completion of their Active-Duty 
Service obligation. This menu provides officers a choice of incentives 
in exchange for 3 additional years of Active-Duty Service. Officers may 
elect to get their post or branch/functional area of choice; attend a 
military school or obtain language training; attend a fully funded 
graduate degree program; or receive a Critical Skills Retention Bonus.

    19. Senator Kennedy and Senator Bayh. Secretary Geren and General 
Casey, as the Army's responsibilities in Iraq lessen, do you foresee 
junior and mid-career officer retention improving?
    Secretary Geren. Yes. Our Nation has been at war for over 6 years. 
Our Army has been a leader on the front lines of this war and back here 
at home--protecting our people and securing our borders. Over time, 
these operations have expanded in scope and duration. Soldiers and 
families are stretched and stressed by the demands of lengthy and 
repeated deployments. This has tested the commitment of the All-
Volunteer Force, and although they continue to serve and to excel in 
tough situations we must never take their service for granted. With 
congressional assistance we are continuing to improve the manner in 
which we sustain the Army's soldiers, families, civilians, and wounded 
warriors. Through these improvements and by providing soldiers more 
time at home, we expect to see more of our highly-experienced officers 
extend their careers and continue serving the Nation from within the 
Army.

    20. Senator Kennedy and Senator Bayh. Secretary Geren and General 
Casey, as the Army grows, do you anticipate it to be a one-for-one 
growth in comparison with units and capabilities the Army has now?
    Secretary Geren and General Casey. In January 2007, the President 
approved an increase in Army end strength by 74,200 (65,000 Active 
component, 8,200 Army National Guard (ARNG), and 1,000 U.S. Army 
Reserve (USAR)). Approximately 51,200 of this growth is a one-for-one 
basis--an increase in the number of units providing existing or new 
capabilities. Approximately 7,400 of this growth is reflected in design 
changes to existing force structure to meet operational needs or to 
mitigate capability shortfalls in existing units. Additionally, 15,600 
of the Active component growth is invested in the generating force and 
individuals' accounts to improve capabilities in supporting the 
operating force growth and sustainment. The plan builds toward a total 
of 76 BCTs and approximately 227 support brigades with enabling combat 
support and combat service support structure to improve the balance of 
forces across all three components and better meet the global force 
demand in an era of persistent conflict. This decision to expand the 
size of the Army reflects the clear recognition by the President, the 
Secretary of Defense, and Congress of the importance of joint ground 
forces to meet strategic requirements and the need to reduce stress on 
soldiers and families related to the increasing and enduring 
operational demands.

                         HARDWARE AND EQUIPMENT

    21. Senator Kennedy and Senator Bayh. Secretary Geren and General 
Casey, what sort of specific hardware currently in the Army's 
inventory, or that the Army is preparing to procure, best provides the 
Army with the capabilities to meet 21st century threats?
    Secretary Geren and General Casey. The core effort to meet the 
needs of the 21st century lies in the development and fielding of 
Future Combat Systems (FCS) BCTs, and FCS enabled modular brigades. We 
are ultimately working toward a force that is agile, globally 
responsive, and enhanced by modern networks, precision weapons, and 
platforms that are lighter, less logistically dependent and less 
manpower intensive. Current systems such as Stryker, Blue Force 
Tracker, and Warfighter Information Network-Tactical Increment One are 
moving us in the right direction.
    Additionally, FCS precursor capabilities are deployed to theater 
today. These include: 18 Micro Air Vehicles, precursor Class I Unmanned 
Aerial Vehicles (UAVs), with Navy Explosive Ordinance Disposal teams; 
3,700 deployed iRobot/PACBOT precursor Small Unmanned Ground Vehicles; 
and in 2008, 18 precursor Class I UAVs deploying with the 2/25 Stryker 
BCT in support of their operational needs statement.
    Finally, FCS Science and Technology (S&T) efforts have also 
resulted in the deployment of improved fragmentary protection kits for 
High Mobility Multipurpose Wheeled Vehicles (HMMWV) and Mine Resistant 
Ambush Protected (MRAP) vehicles. While these efforts are beneficial to 
the soldier, fielding FCS BCTs and FCS enabled brigades remains our 
core effort in transforming to a force that meets the needs of soldiers 
in an era of persistent conflict.

    22. Senator Kennedy and Senator Bayh. Secretary Geren and General 
Casey, what kinds of hardware and equipment is the Army currently 
procuring that could be labeled legacy as opposed to transformational?
    Secretary Geren and General Casey. Each item the Army is currently 
procuring fills a requirement in transforming to a 21st century force. 
The organizational component of transformation is the conversion to 
modular brigade formations which requires us to draw heavily from 
current force systems. We are upgrading these systems as a primary 
element of our modernization strategy. For example: we are replacing 
aging M35 (2\1/2\-ton trucks) with the Family of Medium Tactical 
Vehicles; we are upgrading Abrams and Bradley fleets to two variants 
across the force; and we are working towards a Patriot pure fleet and 
the fielding of Apache Block III.

    23. Senator Kennedy and Senator Bayh. Secretary Geren and General 
Casey, do you believe that the Army, and DOD at large, is investing 
enough in transformational technologies?
    Secretary Geren and General Casey. Despite the demands of the 
ongoing global war on terrorism, the Army has been able to maintain its 
annual S&T funding requests at over $ 1.7 billion in the past two 
budgets. We believe this level of investment will be sufficient to 
provide the transformational technologies needed to support the Army 
acquisition strategics in the future. Our main modernization program, 
FCS, has been cut by $1 billion over the past several years, impacting 
our ability to invest in transformational technologies.

    24. Senator Kennedy and Senator Bayh. Secretary Geren and General 
Casey, what are the risks of investing too heavily in legacy platforms?
    Secretary Geren and General Casey. The risk in investing too 
heavily into current platforms carries an increasingly large 
operational and support cost burden. Current systems are limited in the 
level of increased capability that can be added due to the inherent 
design constraints of the system. As a result, we may have to send our 
soldiers into battle without the latest, technologically advanced 
equipment. For example, our current tactical wheeled vehicle fleet in 
Iraq and Afghanistan was not designed to be armored, nor were they 
designed to carry all the communications and intelligence/electronic 
warfare.
    By investing in modern technologies we expect to realize 
significant savings in reduced life cycle costs compared to maintaining 
and upgrading current systems which require an increasingly large 
operational and support cost burden. For example, we expect to save $66 
million per year in sustainment, training, and manning costs for every 
heavy BCT that we reequip with the FCS. Upgrading our M1 tanks with FCS 
technologies would cost more than purchasing new manned ground 
vehicles.
    These are some of the reasons why we must continuously modernize 
our forces to put our Cold War formations and systems behind us and to 
provide our soldiers a decisive advantage over our enemies. We will 
continue to rapidly field the best new equipment to our fighting 
forces, upgrade and modernize existing systems, incorporate new 
technologies derived from the FCS research and development, and soon 
begin to field the FCS themselves. We are ultimately working toward an 
agile, globally responsive Army that is enhanced by modern networks, 
surveillance sensors, precision weapons, and platforms that are 
lighter, less logistics-dependant, and less manpower-intensive.

    25. Senator Kennedy and Senator Bayh. Secretary Geren and General 
Casey, what are the risks of overinvesting in transformational 
technologies?
    Secretary Geren and General Casey. All technology investments have 
degrees of risk to achieve desired outcomes. The Army S&T portfolio 
balances investments among the higher risk basic and applied research 
programs and the lower risk, more mature advanced technology 
development programs. The diversity of this portfolio is an appropriate 
balance between investment in technologies that have high potential for 
paradigm shifting, transformational capabilities and technologies that 
significantly improve performance in traditional capability domains.

                  FOREIGN AREA EXPERT OFFICER PROGRAM

    26. Senator Kennedy and Senator Bayh. Secretary Geren and General 
Casey, are there plans to expand the Army's Foreign Area Expert Officer 
Program as the Army grows?
    Secretary Geren and General Casey. Over the last year, we have 
increased Foreign Area Officer (FAO) authorizations from 769 to 825. To 
meet future challenges, we have developed International Military 
Affairs (IMA) organizations. These organizations provide a capability 
for supporting warfighter requirements and developing multi-skilled 
FAOs to become future senior leaders. IMAs for United States Army 
Central, United States Army South, United States Army Pacific, and 
United Slates Army Europe will be fully established by 2010. These IMAs 
will initially provide us an additional 40 FAOs. along with a roadmap 
to add 30 more FAOs by 2012. We anticipate adding more FAOs in the 
future to meet requirements for homeland defense missions and the new 
United States Africa Command.
    We continually balance Army requirements against planned 
capabilities and make adjustments within fiscal planning guidance. 
There is always a risk that our commanders will require more FAOs than 
we can provide. We are filling requirements now that were unforeseen 
several years ago--this causes us to pull FAOs out of other required 
assignments to meet emerging demands. We believe our IMAs will help 
relieve some of this turbulence, but we are continuing to develop 
alternatives. Our future is challenging, but the Army FAO program is 
healthier than it has ever been. We believe that our plans are on the 
right track, and that the only real risk we face is resources 
associated with the implementation of our plans.

    27. Senator Kennedy and Senator Bayh. Secretary Geren and General 
Casey, what are the risks of that decision?
    Secretary Geren and General Casey. See answer to question 26.

                 RESERVE OFFICER TRAINING CORPS (ROTC)

    28. Senator Kennedy and Senator Bayh. Secretary Geren and General 
Casey, has the Army planned on increasing communication between the 
USMA and the Army ROTC program, so that rejected USMA applicants are 
targeted for ROTC scholarships? If not, why not?
    Secretary Geren and General Casey. Yes. The Army has significantly 
increased coordination between the USMA and USACC (ROTC) in the last 12 
months. Applicant sharing is at the center of these coordination 
efforts:

        <bullet> Marketing: All West Point marketing-related 
        publications (brochures, catalogues, et cetera) and the West 
        Point admissions website list ROTC as an alternate 
        commissioning source and encourage candidates to apply.
        <bullet> Candidate Surveys: The USMA Candidate Questionnaire 
        asks candidates if they want to be considered for a ROTC 
        scholarship, if they check yes, West Point forwards the 
        information to Cadet Command electronically.
        <bullet> Candidate File Sharing: West Point habitually sends 
        ROTC candidate information at these dates:

                <bullet> 1st File (end of February). Criteria: 
                Candidates who did not receive a nomination.
                <bullet> 2nd File (end of March). Criteria: Candidates 
                with a nomination whose files are closed.
                <bullet> Qualified Not Selected (mid-May). Criteria: 
                Candidates who are fully qualified but not offered 
                admission to USMA.

        <bullet> Monthly Two-Way File Sharing: Candidate file sharing 
        became two-way in September 2006. USMA and ROTC exchange files 
        monthly for candidates interested in both commissioning 
        sources.

                          GLOBAL WAR ON TERROR

    29. Senator Kennedy and Senator Bayh. Secretary Geren and General 
Casey, how has global war on terror's focus on multinational non-state 
adversaries impacted the Army's PME?
    Secretary Geren and General Casey. Leaders now receive a doctrinal 
education in Stability Operations (SO) and COIN Operations, which 
includes programmed instruction, practical exercises, staff exercises 
and field training exercises. Scenarios and practical exercises portray 
the many real-world adversaries (insurgent groups, paramilitary 
organizations, private security organizations, criminal organizations, 
and non-governmental organizations) in a constantly changing full-
spectrum environment. Tactical and technical lessons learned from 
operational deployments such as Operation Iraqi Freedom and Operation 
Enduring Freedom augment classroom instruction. Leaders also receive 
instruction in Cultural Understanding, Escalation of Force, Every 
Soldier a Sensor (situational awareness), and Foreign Internal Defense.

                               JOB SKILLS

    30. Senator Kennedy and Senator Bayh. Secretary Geren and General 
Casey, a November 17, 2007 Washington Post article described an Army 
General Officer promotion board that would emphasize the importance of 
nontraditional jobs and skills in promotion. Please describe those 
skills and jobs and compare them to what you would consider traditional 
jobs and skills.
    Secretary Geren and General Casey. We must continue to develop 
agile and adaptive leaders. Leaders in the 21st century must be 
competent in their core proficiencies; broad enough to operate across 
the spectrum of conflict--from humanitarian and peacekeeping operations 
through counterinsurgency to major conventional operations: able to 
operate in joint, interagency, and combined environments and leverage 
political and diplomatic efforts in achieving their objectives; at home 
in other cultures, able to use this awareness and understanding to 
support operations in innovative ways; and courageous enough to see and 
exploit opportunities in the challenges and complexities of our future 
operating environments. We recognize that the positions the Army must 
fill, both within and outside the Army, require individuals with 
different strengths, capabilities, and backgrounds. Regardless of an 
officer's area of specialty, the experience gained through deployments 
and in other challenging assignments prepares our officers to lead and 
train soldiers. It is important for officers to have the right mix of 
field and headquarters experience, training, and education to meet the 
current and future leadership requirements of both the Army and the 
Joint Force.

    31. Senator Kennedy and Senator Bayh. Secretary Geren and General 
Casey, as the Army's responsibilities in Iraq begin to dissipate, how 
will you ensure that lessons our military has learned in Iraq and 
Afghanistan remain relevant in Army training and education?
    Secretary Geren. By using Lessons Learned Integration--a 
collaborative network that connects approximately 20 observers in 
combat zones with analysts at every major institutional Army training 
organization and operational force in continental United States--we 
have significantly reduced ``flash to bang time'' for disseminating 
best practices from the field and incorporating them into our training 
and education systems. More than 15,000 observations, insights, lessons 
and tactics, techniques, procedures have been pushed directly to Army 
schools and training centers over the past 12 months.
    The Combined Arms Center (CAC) also manages lessons learned 
websites (classified and unclassified) that allow all servicemembers to 
search, download products, and request specific information. The CAC 
publishes over 100 lessons learned handbooks, newsletters, and studies 
annually. The Center for Army Lessons Learned has distributed nearly 1 
million of these products to all branches of the military, joint 
headquarters, interagency organizations, coalition partners, and our 
allies.
                                 ______
                                 
             Questions Submitted by Senator Daniel K. Akaka

                   RECRUITING AND RETENTION STANDARDS

    32. Senator Akaka. Secretary Geren, the Washington Post is 
reporting that the Army is again considering lowering its standards to 
allow in still more new recruits with trouble in their backgrounds, 
such as a criminal record. Can you confirm the report in the Washington 
Post?
    Secretary Geren. The Army will maintain the same standards for 2008 
as we did for 2007.

    33. Senator Akaka. Secretary Geren, is the Army considering 
reducing its standards again? If so, what changes are being considered, 
and why?
    Secretary Geren. The Army has not changed its recruiting quality 
benchmarks. These marks, 90 percent high school graduates (HSDG), 60 
percent Test Score Category (TSC) I-IIIA, and no more than 4 percent 
TSC IV are established by DOD for all Services and our goal is to 
attain them. Although law prescribes much lower standards <20 percent 
CAT IV and >65 percent HSDG, Army focuses on meeting DOD quality marks. 
In 2007, we met our recruiting goal of 80,000, but fell short of 
attaining the quality mark for HSDG at 79 percent. We did meet the 
quality marks set for TSC I-IIIA at 60.83 percent and CAT IV at 3.97 
percent. Every recruit must have a high school diploma or equivalent 
(e.g., GED, home-schooled). Our focus for 2008 recruiting mission of 
80,000 remains geared toward meeting or exceeding prescribed DOD 
quality marks.

    34. Senator Akaka. Secretary Geren, what are the effects of 
changing the standards?
    Secretary Geren. Without a doubt, America continues to have the 
best Army in the world, and its capabilities today are unmatched by any 
other time in our Nation's history. Thus far. we have not noticed any 
negative trends associated with recent policy changes. These changes 
(age increase, weight allowances, tattoo policy, misdemeanors, et 
cetera) provide the opportunity for hundreds of individuals--who 
previously would not have been afforded the opportunity to serve--with 
the chance to volunteer to defend their Nation as part of America's 
Army. Additionally, these changes align Army policies to more closely 
reflect American society in general. The performance of these men and 
women during our Nation's protracted struggle to defeat global 
terrorism demonstrates that the quality of today's force remains on par 
with the generations of soldiers who have served from Valley Forge to 
the beaches of Normandy to the berms of Operations Desert Shield/Desert 
Storm. In fact, the willingness that this small group of the eligible 
U.S. population displays by volunteering to serve their Nation in the 
Army is a quality that we should hope exists in all Americans.

    35. Senator Akaka. Secretary Geren, have the impacts of these 
changes on the force been studied? If so, could you please provide us 
with the study. If not, how are you assessing whether or not to lower 
the standards?
    Secretary Geren. The Army will maintain the same standards for 2008 
as we did for 2007. We continually check for any second-order effects 
of changes, such as declining trainability, good order and discipline, 
et cetera. So far, the Army has not seen any significant change in 
these soldiers' ability to complete training for their military 
occupational specialty (MOS). Every soldier enlisting is qualified for 
his/her MOS.

    36. Senator Akaka. Secretary Geren, in your confirmation hearing 
responses to my questions for the record, you stated your belief that 
the Army could meet its commitment to increase its end strength with no 
increase in recruiting. You stated that this could be done because of 
continued low attrition, and a 5-percent increase in retention due to 
special expiration of service bonuses currently being offered. Do you 
still believe that the Army can meet its increased end strength 
requirements without increases in recruiting? If so, can you meet the 
increased strength requirements without further erosion of the Army's 
recruiting standards? If not, do you need help from Congress?
    Secretary Geren. The Army is on track to grow end strength by more 
than 10,000 in fiscal year 2008 with 80,000 Recruiting Mission, 1.6K 
Active First accessions and 1.6K additional fiscal year 2008 ETS 
soldiers from the retention program. The Army will grow by more than 
7,000 in fiscal year 2009 with 80,000 U.S. Army Recruiting Command 
(USAREC) accessions and 8,000 in fiscal year 2010 with 80,000 USAREC 
accessions. Recent initiatives and increased incentives have greatly 
aided in achieving over 161,000 accessions over the past 2 years. The 
Army expects to continue this success and meet its 80,000 recruiting 
mission in fiscal year 2008 while maintaining current standards. The 
continued support of Congress is critical in our efforts to growing the 
Army. One of our greatest needs is positive influences to encourage our 
Nation's youth to serve their country.

    37. Senator Akaka. Secretary Geren, how much is the Army currently 
spending on recruiting and retention bonuses?
    Secretary Geren. In fiscal year 2007, the Army spent $1.12 billion 
in recruiting and retention bonuses. This figure is composed of 
reenlistment bonuses ($565.3 million), enlistment bonuses ($472.7 
million), and education benefits ($80.9 million).

    38. Senator Akaka. Secretary Geren, how much was the Army spending 
prior to September 11?
    Secretary Geren. The historical total spending in recruiting and 
retention from fiscal year 1997 to fiscal year 2001 is as follows: 
fiscal year 1997, $98.9 million; fiscal year 1998, $108.9 million; 
fiscal year 1999, $178.6 million; fiscal year 2000, $200.3 million; and 
fiscal year 2001, $278.8 million.
    The total funding for each year is the sum of the Selective 
Reenlistment Bonus and the Enlistment Bonus.

                                TRAINING

    39. Senator Akaka. Secretary Geren, Government Executive.com 
reported on November 12, 2007, that ``the reduction in standards has 
been modest. Pentagon figures show that although only 79 percent of 
Army recruits in 2006 had high school diplomas--down from a 90 percent 
level achieved in recent years--the percentage of soldiers who failed 
basic training has dropped. Instances of bad conduct, unauthorized 
absences, and desertion are unchanged.'' Can you explain why the 
percentage of soldiers who have failed basic training has dropped?
    Secretary Geren. We are witnessing positive effects from two 
fundamental modifications to the execution of Basic Combat Training. 
First, we revised the content of training provided to new soldiers by 
introducing warrior tasks and battle drills. Soldiers train with a 
heightened realism and receive more exposure to weapons training, 
combatives, and convoy live-fire training before departing basic combat 
training. Physical fitness training was redesigned to both improve 
performance and decrease injuries (injuries are highly related to 
attrition). This warrior focused training has created the most 
challenging and effective warrior-oriented basic training in the 
history of the Army.
    Second, we changed the training philosophy of Basic Combat Training 
by introducing the Soldier Investment Strategy. We adjusted the Basic 
Combat Training approach to one of coaching, mentoring, and teaching. 
We changed the image of the drill sergeant to one of an authoritative 
and respectful role model charged with encouraging and leading young 
soldiers through the mastery of combat tasks and accomplishment of 
tough, challenging training.
    We have increased the rigor and relevance of Basic Combat Training 
to produce fully trained soldiers who can immediately contribute to a 
unit in combat. These changes have resonated with our youth and allowed 
us to decrease Basic Combat Training attrition from 15 percent in 2004 
to 6 percent in 2007.

    40. Senator Akaka. Secretary Geren, have the standards for passing 
basic training been changed since 2000?
    Secretary Geren. Since 2000, Basic Combat Training has increased in 
rigor by updating training methods, equipment, and tasks to meet the 
needs of an Army at war. The Basic Combat Training program of 
instruction was completely revised in October 2004 based on lessons 
learned in the operational environment. All soldiers receive 
challenging, focused training in Warrior Tasks and Battle Drills, crew 
served weapons, urban operations, convoy protection procedures, and all 
soldiers are certified as combat lifesavers. Soldiers now train, march, 
and shoot in full combat gear (helmet, pads and body armor) to 
replicate the tactical environment. This includes a weapons immersion 
program in which soldiers must carry and take care of their rifle from 
the first week of training until graduation.
    The Basic Combat Training program of instruction and graduation 
requirements are under constant review and evaluation to ensure 
relevance to current and future combat operations.

    41. Senator Akaka. Secretary Geren, in your prepared statement, you 
stated that ``We are growing the total Army by 74,000 and completing 
the transformation of the Reserve component from a strategic Reserve to 
an operational force.'' You may recall that I asked you during your 
confirmation hearing whether or not we should maintain a ``strategic 
Reserve.'' In your response, you stated that ``We no longer have the 
luxury of extended time periods for training after mobilization.'' 
However, if we had maintained a strategic Reserve before September 11, 
we would have had 6 years to train them and bring them online, and we 
would not be stressing our troops with the operational tempo (OPTEMPO) 
we have today. We would also have troops available for any 
contingencies that emerge while we are engaged in Iraq and Afghanistan. 
In light of our current situation, do you think it may be appropriate 
to reconsider the Quadrennial Defense Review decision to operationalize 
the Reserve Components, and begin the development of a new strategic 
Reserve (even if it would necessitate a large growth in the Reserve 
component)?
    Secretary Geren. Transitioning the Reserve component to an 
operational force integrates the Army National Guard and the U.S. Army 
Reserve into the Army Force Generation Model (ARFORGEN), and 
synchronizes planning, prioritization, and resourcing for sustainable 
force generation. Integration of the Reserve component into the 
ARFORGEN process better enables Reserve component employment as part of 
the Joint Force while preserving some ability to expand the scope by 
accelerating availability. The ARFORGEN will make available a 
continuous mix of ground capabilities with each component providing 
complementing units. The Strategic Reserves are those formations 
throughout the depth of the process, behind those deployed or next to 
deploy.

                          MILITARY CONTRACTORS

    42. Senator Akaka. Secretary Geren and General Casey, a bill has 
been proposed in the House that would require the rapid withdrawal of 
hundreds of armed security contractors who provide protective services 
for the State Department in Iraq. Specifically, the bill would phase 
out approximately 800 armed contractors who work for Blackwater, 
DynCorp International, and Triple Canopy in Iraq over the next 6 
months, and requires them to be replaced with military or diplomatic 
security personnel or military police. Does the Army have the ability 
to meet the requirements of this bill?
    Secretary Geren and General Casey. The Army does not have the 
ability to immediately replace these armed contractors. To do so would 
require a phased approach. Initially Central Command (CENTCOM) would 
have to replace the armed contractors with forces already deployed to 
the CENTCOM theater. This would potentially require CENTCOM to leave 
other theater requirements unfulfilled. The Army or any Services' 
ability to replace armed contractors would depend on CENTCOM's analysis 
of the armed contractor requirement which would result in either a 
Request for Forces or Joint Manning Document. CENTCOM's analysis would 
include the desired rank, MOS, and level of training required. Once 
CENTCOM submits the requirements to the Joint Staff, all Services would 
conduct an analysis to determine their ability to meet the requirement 
and a feasible timeline to replace the armed contractors. For example, 
our Military Police forces are a highly demand asset but they are 
limited in supply. If CENTCOM's requirement called for one of our 
highly demanded forces, it is highly unlikely the Army could 
immediately fulfill this requirement.
    This challenge highlights one of the many reasons why we must 
continue to grow and transform our Army to meet the demands of the 21st 
century. We are over half-way through the largest organizational change 
since World War II, and we must continue to rebalance our capabilities 
by converting less necessary skills to those in high demand, and by 
shifting much-needed Reserve Forces into the Active component.

    43. Senator Akaka. Secretary Geren and General Casey, considering 
the difficulties that have been caused by the use of private security 
contractors (PSCs) in Iraq, is the Army considering any steps to 
eliminate the need for any agency to use security contractors in future 
conflicts? If so, what actions are being considered? If not, why not?
    Secretary Geren and General Casey. Currently, there are no plans to 
eliminate the use of PSCs. To date, there are approximately 20,000 to 
30,000 DOD contractor personnel performing security services in Iraq. 
The Army estimates that it would take several years to assume the 
duties currently being performed by PSCs.
    PSCs perform a number of functions, to include private security 
details for senior officers and civilians, working as static guards for 
Forward Operating Bases, providing site security on reconstruction 
projects, and accompanying contractor convoys of supplies.
    The use of contractors is a force multiplier enabling the U.S. Army 
to keep soldiers engaged in core U.S. Army missions, such as combat 
operations. Reassigning soldiers to perform security support services 
would take them from critical warfighting activities.

    44. Senator Akaka. Secretary Geren and General Casey, is the Army 
paying either directly or indirectly (e.g., through the Logistics Civil 
Augmentation Program contract) for security contractor support in Iraq? 
If so, which contractors are providing support, what kind of support 
are they providing, how much support is being provided by each 
contractor in person-days per year, and what are the costs to the Army?
    Secretary Geren and General Casey. The Office of the Assistant 
Secretary of the Army for Acquisition, Technology, and Logistics 
advises that the Army has contracted for private security and 
transportation services with various vendors in Iraq. The total number 
of contract employees providing these services is 6,048 at a cost of 
$690 million per year.
    Additionally, the U.S. Army Corps of Engineers has contracted for 
PSC services from Aegis Defense Services. Aegis provides 1,386 
contractor personnel at an approximate cost of $200 million per year.

    45. Senator Akaka. Secretary Geren and General Casey, please answer 
the same questions for Afghanistan and for any other major Army 
operations around the world.
    Secretary Geren and General Casey. The Office of the Assistant 
Secretary of the Army for Acquisition, Technology, and Logistics 
advises that the Army has contracted for private security and 
transportation services with various vendors in Afghanistan. The total 
number of contract employees providing these services is 3,152 at a 
cost of $18 million per year.
    The U.S. Army Corps of Engineers has contracted directly with a 
local Afghanistan-based firm to provide security services for U.S. 
personnel. The contract provides for 30 guards a day and 25 bilingual 
personnel a day for a cost of $72,000 per month.

                            CHINA AND RUSSIA

    46. Senator Akaka. Secretary Geren and General Casey, the Chinese 
military has been experiencing double digit increases in its budget 
since the early 1990s. It seems pretty clear that China's intention is 
to build itself up into being a superpower. In addition, the 
administration's plans to deploy two anti-ballistic missile systems in 
Europe has led Russia to suspend its participation in the Treaty on 
Conventional Armed Forces in Europe. In addition, they are considering 
withdrawing from the 1988 treaty on short- and intermediate-range 
missiles. How do you think that China's military buildup or Russia's 
recent actions should affect the force structure for the Army going 
forward from here?
    Secretary Geren and General Casey. The nature of future conflict 
necessitates that we transform the Army for full spectrum capabilities. 
It is vital that our Army ensures that units and soldiers have the 
right capabilities to accomplish the wide variety of operations that we 
will conduct in the 21st century. Continuous modernization is the key 
to enhancing our capabilities and maintaining a technological advantage 
over any enemy we face.

                          PSYCHOLOGICAL DAMAGE

    47. Senator Akaka. General Casey, the Department of Veterans 
Affairs (VA) has nearly 50,000 documented cases of Post-Traumatic 
Stress Disorder (PTSD) since the Afghanistan War began. This number far 
exceeds the 30,000 military personnel officially classified by the 
Pentagon as wounded in the conflicts. The discrepancy in these numbers 
support a view held by many health officials that troops tend to 
ignore, hide, or fail to recognize their mental health wounds until 
after their military service. As I noted during the hearing, a study 
conducted by Army researchers, released on November 13, found that the 
number of soldiers experiencing mental health issues may be between 27 
and 35 percent. The study also concluded that soldiers are more likely 
to report mental health distress 3 to 6 months after returning from 
Iraq. I am very concerned that there may be a substantial number of our 
troops currently serving in Iraq and Afghanistan who are suffering from 
mental health issues such as PTSD and Traumatic Brain Injury (TBI). 
Moreover, I am concerned that we may be sending them back for multiple 
deployments while still suffering from these conditions, and that this 
could be exacerbating their condition. During the hearing, I asked you 
if the troops identified as having mental health issues are considered 
by the Army as being deployable or are they considered to be wounded. I 
specifically asked you to address this question relative to those who 
are found to be suffering from PTSD or TBI. Your answer was somewhat 
disconcerting. You replied that ``it really depends on the severity of 
the injury.'' The reason your answer is disconcerting is that it seems 
that whether a person is wounded or not should have nothing to do with 
severity. They are either injured, or they are not. The severity is 
something one would expect to be considered during treatment. Is the 
Army deploying troops who are still suffering from PTSD and TBI 
incurred during previous deployments?
    General Casey. The Army does not deploy soldiers if they are 
incapable of performing their assigned missions. Our commanders, in 
consultation with medical health professionals, consider each soldier's 
fitness for deployment based upon their symptoms, responsiveness to 
treatment, what medical care is available in theater, the opinions of 
physicians, and the input from the soldier. We do not knowingly deploy 
any soldier who is suffering from a debilitating injury, whether 
physical or mental.
    It is important to note that many people with mild TBI fully 
recover. We are accustomed to seeing athletes in contact sports suffer 
a concussion, recover, and then be allowed to play either later in the 
game or in the next game. Many of our soldiers who suffer a concussion/
mild TBI experience a similar recovery pattern, and are thus, returned 
to duty.

    48. Senator Akaka. General Casey, what is the DOD or Army policy 
for deploying troops with mental health issues?
    General Casey. The Army does not deploy soldiers if they are 
incapable of performing their assigned missions. We medically evaluate 
and clear all deploying soldiers as part of our predeployment 
preparations. Medical professionals make recommendations to Commanders 
regarding each soldier's readiness to deploy. Soldiers who have fully 
recovered from mental health issues such as PTSD would likely be 
medically cleared to deploy. Soldiers who demonstrate persistent 
symptoms that interfere with their duties would not be cleared to 
deploy; rather, they would be further evaluated and treated for their 
condition. Commanders make the decision to deploy or not deploy a 
soldier based on the recommendation of our medical professionals.

    49. Senator Akaka. General Casey, how much recovery time is being 
provided to troops who have mental health issues before they are 
deployed again?
    General Casey. Soldiers are given as much time as they need to 
medically recover--we do not set a limit. The time period for recovery 
varies based on the type of illness, its severity, and its impact on an 
individual's level of functioning (for example, ability to do the job, 
get along with others, or take care of one's self). We will not deploy 
soldiers if they are incapable of performing their assigned missions.

    50. Senator Akaka. General Casey, what percentage of troops 
returning from Iraq have been identified as having TBI?
    General Casey. There are three levels of severity regarding closed 
TBI: mild, moderate, and severe. There are also penetrating TBIs, 
moderate, severe, and penetrating injuries usually result in the 
servicemember's immediate evacuation. Approximately 770 servicemembers 
have been evacuated from theater for moderate, severe, or penetrating 
TBI.
    Based on self-reports from servicemembers during post-deployment 
screening, between 10-20 percent of soldiers returning from Iraq have 
suffered a concussion or mild TBI; however, not all of these soldiers 
have persistent physical symptoms beyond what they experienced around 
the time of injury.

    51. Senator Akaka. General Casey, both TBI and PTSD have symptoms 
that could be detrimental in combat. What are the potential impacts of 
deploying soldiers with TBI or PTSD on the soldier and on the soldier's 
unit?
    General Casey. As part of the Army's unprecedented chain-teaching 
program, we have trained over 750,000 soldiers to recognize the signs 
and symptoms of PTSD and mild TBI. It is important for soldiers and 
family members to have an awareness of PTSD and mild TBI and to seek 
treatment for these conditions as soon as possible.
    PTSD and mild TBI may impair soldier combat effectiveness. They can 
lead to poor marksmanship, delayed reaction time, a decreased ability 
to concentrate, or other performance changes that last for several days 
or longer. Soldiers who have been injured in a blast or who have had a 
head injury from a vehicle accident, fall, or other injury are 
evaluated by a health care provider. The health care provider evaluates 
the soldier's symptoms and performance before making a recommendation 
to return the soldier to duty. Providers carefully evaluate soldiers to 
prevent any negative mission impact.
    The Army recently issued Clinical Management Guidance to primary 
care providers with information and guidance on the evaluation and 
treatment of soldiers with mild TBI. Soldiers with PTSD, depending upon 
the severity of PTSD symptoms, can remain in theater and often complete 
their tour with their unit. However in cases of mild TBI or PTSD, a 
commander who feels the soldier is a risk to himself or the unit will 
refer the soldier to appropriate medical channels for an evaluation and 
treatment as required. In some cases it may be necessary to medically 
evacuate the soldier from theater for additional treatment.

    52. Senator Akaka. General Casey, during the hearing, I asked the 
following question, and you committed to responding in writing. 
Hawaii's 29th BCT has been notified that they will be deployed to 
Kuwait next summer which is only 2 years after returning from their 
last deployment in Iraq. This is far less than the goal of 5 years 
between deployments for National Guard and Reserves. By the time they 
return from this deployment, they will have spent 2 years deployed in 
the Middle East over the previous 5 year period. While they have a 
greater time between deployments, their OPTEMPO is still comparable to 
the tempo for our active duty soldiers in that it is 1 month home for 
every month deployed. Has the 29th BCT been given adequate time to 
reset its equipment and complete its training requirements in time to 
meet the deployment schedule?
    General Casey. The deployment schedule is achievable. The Army 
National Guard and 1st Army will ensure the 29th BCT is well-trained, 
properly equipped, adequately resourced, and fully prepared to meet 
mission requirements when it deploys next summer. As the 29th BCT 
prepares for its second wartime mission, pre-deployment unit training 
will be conducted at Schofield Barracks to ensure the unit's readiness 
meets the same high standards set for every Army unit--whether Active 
or Reserve.
    The 29th BCT is 1 of 15 Army National Guard brigades deploying in 
fiscal year 2009. All of these brigades have between 20 and 40 months 
of dwell time. Admittedly, the dwell time does not meet our ultimate 
goal of a 1:5 deployment-to-dwell ratio. It is in keeping, however, 
with the dwell time of other brigades being called upon for deployment.
    Meanwhile, the Army is providing $14 billion worth of new equipment 
to the Army National Guard over the next 2 years to reduce equipment 
shortages. We will ensure that critical equipment items are available 
to support Hawaii's pre-deployment training through a cross-leveling of 
equipment within Hawaii and with other States and territories.

    53. Senator Akaka. General Casey, have any training requirements 
been modified, reduced, or accelerated in order to meet the deployment 
schedule, and if so, what are the potential impacts on the unit?
    General Casey. The 29th Infantry Brigade Combat Team (IBCT) will 
have the training needed to be successful in its mission. State/
territory Adjutants General have certification authority for pre-
mobilization training. The Director of the Army National Guard has 
validation authority for this pre-mobilization training that was once 
the responsibility of First Army. In early November, the National Guard 
Bureau hosted a conference in Dallas, TX, for all BCTs and States/
territories deploying in the next 3 years to synchronize the pre-
mobilization training efforts. The 29th IBCT and the Hawaii National 
Guard were in attendance. The National Guard Bureau is working to 
finalize coordination for the 29th IBCT, to ensure their success at 
their mobilization station training and performing their mission 
overseas.
                                 ______
                                 
                Questions Submitted by Senator Evan Bayh

                      JOINT LIGHT TACTICAL VEHICLE

    54. Senator Bayh. Secretary Geren and General Casey, what is the 
status of the ongoing Tactical Wheeled Vehicle Study currently being 
undertaken by the Army?
    Secretary Geren and General Casey. Senator, the study you reference 
in your question is called the Tactical Wheeled Vehicle Strategy, which 
was presented to the Joint Requirements Oversight Council (JROC) on 
November 15, 2007. The Tactical Wheeled Vehicle Strategy addressed how 
the Army will use a mixed-fleet approach to balance the protection, 
performance, and payload requirements necessary to protect the soldier 
while achieving mission goals.

    55. Senator Bayh. Secretary Geren and General Casey, when is the 
study expected to conclude?
    Secretary Geren and General Casey. It is not a one-time effort. 
Instead, the Tactical Wheeled Vehicle Strategy will be continually 
refined to account for changes that occur in the global operating 
environment and variations in funding. Additionally, the strategy will 
be adjusted to reflect vehicle performance and capabilities captured by 
soldier feedback, such as feedback on the performance of the newly 
fielded MRAP vehicles.

    56. Senator Bayh. Secretary Geren and General Casey, has the Army 
established requirements for the Joint Light Tactical Vehicle (JLTV)? 
Is there sufficient fiscal year 2008 funding available to support the 
program?
    Secretary Geren and General Casey. The Army is currently in the 
midst of a comprehensive study, the Tactical Wheeled Vehicle Strategy, 
which will inform requirements across the range of Tactical Wheeled 
Vehicle fleets, to include JLTV. It would be premature to provide 
specific numbers until that study is complete. There is sufficient 
fiscal year 2008 funding available to support the program.

                     POST-TRAUMATIC STRESS DISORDER

    57. Senator Bayh. Secretary Geren, can you provide more detail on 
the Army's PTSD and TBI initiatives as they related to both the 
warfighter and their families that is mentioned in your testimony?
    Secretary Geren. The Army is committed to ensuring all returning 
veterans receive the behavioral health care they need. Army leadership 
is taking aggressive, far-reaching steps to provide an array of 
behavioral health services for soldiers and their families to help 
those dealing with PTSD or TBI. Specific initiatives include the Post-
Deployment Health Assessment and Post-Deployment Health Reassessment; 
used to screen, identify, and refer for intervention those soldiers at 
risk for PTSD and the other mental health effects of war. We are now 
performing baseline cognitive assessments on all deploying soldiers 
using the Automated Neuropsychological Assessment Metrics. The Army 
also initiated numerous new training programs such as ``Battlemind'' 
for soldiers and spouses. Provider Resiliency Training, and updated 
Combat and Operational Stress Control training. As part of the Army's 
unprecedented Chain Teaching program, over 750,000 soldiers and family 
members have been trained to recognize the signs and symptoms of PTSD 
and mild TBI. We have also developed instructional DVD/CDs for Families 
such as ``Mr. Poe and Friends'' and ``Military Youth Coping with 
Separation: When Family Members Deploy.''
    In addition, several Army and DOD websites contain easily 
accessible information regarding TBI and PTSD:

        <bullet> The Deployment Health Clinical Center, http://
        www.pdhealth.mil/TBl.asp/#eat;
        <bullet> Army Behavioral Health, http:/
        www.behavioralhealth.army.mil/chainteaching/index.html; and
        <bullet> Defense and Veterans Brain Injury Center, http://
        www.dvbic.org/.

    58. Senator Bayh. Secretary Geren, the Army has published several 
Broad Agency Announcements in fiscal year 2007 for research into both 
PTSD and TBI. What further efforts does Army plan to make in fiscal 
year 2008 to continue and further investigate ways to prevent and treat 
these conditions?
    Secretary Geren. In fiscal year 2008 the Army will continue to 
emphasize the importance of treating and preventing PTSD and TBI. The 
fiscal year 2007 war supplemental will fund studies to be identified 
from fiscal year 2008 through fiscal year 2013 that will focus on the 
key gaps in knowledge for PTSD and TBI prevention, detection and 
intervention. The PTSD/TBI Research Program's Clinical Consortium award 
is designed to introduce new, cutting edge PTSD and TBI focused 
(including PTSD/TBI overlap) clinical studies at multiple study sites, 
over a 5-year projected period. This was designed to provide a means 
for a continual influx and evaluation of potential novel treatments 
and/or interventions. Additionally, it provides an ongoing means of 
expedited fielding of successful treatments and interventions. Another 
extension of this fiscal year 2007 funding program is to facilitate 
collaboration with the congressionally mandated DOD PTSD/TBI Center of 
Excellence.
    The Millennium Cohort Study (MilCohort) will continue to follow 
more than 148,000 U.S. military personnel during and after their 
military service for up to 21 years. The Army began funding MilCohort 
in 2001 for the largest epidemiological cohort study in military 
history to determine how military occupational exposures affect long-
term health by demonstrating a method for establishing the long-term 
health risks and benefits to mental and physical health associated with 
military service.
    In fiscal year 2008 the Army will continue evaluation studies 
assessing the impact of Battlemind training on soldiers' mental health 
status. A spouse version of Battlemind was also developed last year 
with validation studies underway in fiscal year 2008. The Battlemind 
Training System was developed by the Walter Reed Army Institute of 
Research and represents the only scientifically validated resilience 
training program in the military. The research on post-deployment 
Battlemind Training found that it is an effective method of reducing 
mental health concerns compared to standard stress education briefings 
soldiers typically received.

    59. Senator Bayh. Secretary Geren, how will Army ensure that the 
best ideas from private industry and university researchers are 
considered as it further examines the best ways to address both PTSD 
and TBI needs?
    Secretary Geren. The U.S. Army Medical Research and Materiel 
Command (USAMRMC) actively engages private industry and university 
researchers to capture their creative and innovative approaches to help 
solve current and future challenges in the form of research proposal 
submissions. The well established process utilized by USAMRMC to 
execute our core programs and the fiscal year 2007 War Supplemental 
funded PTSD/TBI Research Program ensures that proposals are solicited 
worldwide from industry, academia, and Federal entities.
    The USAMRMC uses external scientists to review the Army's medical 
research programs and proposals to ensure they are state-of-the-art and 
of high quality. Following protocol submission, the proposal evaluation 
and selection consists of an unbiased two tier review process, which 
requires that all proposals undergo both scientific (peer) review as 
well as programmatic review. The peer review panel is comprised mostly 
of external scientists that are experts in their fields. The 
programmatic review panel, consisting of representatives from the 
Departments of Defense, Veterans Affairs, and Health and Human 
Services, conducts programmatic review and makes funding 
recommendations.
    The Army executes the DOD Executive Agency for the Prevention, 
Mitigation, and Treatment of Blast Injuries (Blast EA). The Blast EA 
has and will continue to survey the needs and programs from all the 
Services. It coordinates current and planned research efforts and 
programs future research needs to expand the President's Budget to 
support PTSD and TBI research in civilian universities, private 
industry, and the military Services. One example of both academic and 
military involvement is a drug study for treating anxiety after a TBI 
which is taking place in hospitals from each of the Services and the 
VA. Imaging technologies are being evaluated by several universities 
such as the University of Pennsylvania and the University of 
Pittsburgh.

                  NATIONAL SECURITY EDUCATION PROGRAM

    60. Senator Bayh. General Casey, you discuss the four imperatives 
to restore depth and breadth to Army capabilities, including preparing 
forces to succeed in the current conflict. That preparation should 
include sufficient instruction in the languages and cultures of the 
regions in which they will serve. The National Security Education 
Program (NSEP) is helping to educate U.S. personnel who will be 
stationed in regions critical to U.S. national security interests. What 
are your plans to expand the teaching of language and culture carried 
out through NSEP, particularly in critical areas such as the Central 
Asian Languages, so that the entire array of personnel, from infantry 
to commanders, are adequately prepared to function in these locations?
    General Casey. The NSEP is not an Army program. Recently however, 
NSEP engaged with the Defense Language Office (DLO) to provide ROTC 
cadets the opportunity to study critical languages and cultures. NSEP 
established four programs in fiscal year 2007, including Indiana 
University's Central Asian Language program where 24 Army ROTC cadets 
participate. The Army will continue to work with NSEP, the DLO, and 
Army ROTC detachments to expand NSEP programs to universities with 
large concentrations of Army ROTC cadets. In addition to NSEP, the Army 
continues to pursue a wide range of programs to ensure that soldiers 
receive instruction in the languages and cultures of the regions in 
which they will serve.
                                 ______
                                 
         Questions Submitted by Senator Hillary Rodham Clinton

                       RECRUITMENT AND RETENTION

    61. Senator Clinton. Secretary Geren and General Casey, the United 
States Army met fiscal year 2007 recruitment goals by allowing more 
recruits to enter active duty with a moral waiver; allowing more 
recruits to enter active duty without a high school diploma; providing 
shorter and more lucrative enlistment contracts; and increasing the 
maximum age of recruits from 35 to 42 years. What additional measures 
will the United States Army take in order to meet recruiting goals in 
fiscal year 2008 given the increased end strength goals assigned to its 
recruiting mission?
    Secretary Geren and General Casey. The Army should be able to meet 
its end strength objectives while maintaining a recruiting mission of 
approximately 80,000 per year. The current policies, initiatives, and 
incentive packages should be adequate to meet those recruiting 
missions. Although we are facing the most difficult recruiting 
environment since the beginning of the All-Volunteer Force, the Army 
recruited over 80,000 individuals to serve in the active Army in each 
of the past 2 years.

    62. Senator Clinton. Secretary Geren and General Casey, will the 
quality of the force and future readiness suffer as a result of the 
lower recruit entry standards?
    Secretary Geren and General Casey. While the Army met recruiting 
quality marks mandated by law, we did fall short of the DOD recruiting 
standard to have 90 percent of our new recruits enter with a high 
school diploma. There are troubling trends that challenge the 
recruiting market: the National average for high school graduation is 
80 percent with urban areas less than 50 percent and 36 percent of our 
contracts come from the southern region with those lower graduation 
rates. The Army looks at quality as more than DOD quality marks and 
therefore each soldier we enlist with a waiver is thoroughly screened 
before being approved for entry. We have seen increases in waivers over 
the past few years and remain vigilant in our screening process. Our 
2007 study of waivered recruits, as compared to non-waivered recruits 
from 2003 to 2006, showed these soldiers performed, by several 
standards, better than non-waivered recruits. We do not envision the 
quality of the force or future readiness of the Army suffering, but it 
is a matter that requires constant vigilance.

    63. Senator Clinton. Secretary Geren and General Casey, what 
efforts will the United States Army take to mitigate potential morale 
and discipline problems arising from this recruit demographic?
    Secretary Geren and General Casey. There are no indicators 
demonstrating recruits coming into the force are creating adverse 
morale and discipline problems. Each recruit coming into the Army is 
fully qualified for his or her duty and expected to perform as a 
soldier within a unit according to the Uniform Code of Military 
Justice. A recent study was conducted to see if they were attrition 
differences between applicants coming in the Army with a moral waiver 
and those without a moral waiver. The study showed that there were no 
significant differences between the recruits entering the Army with a 
moral waiver compared to the recruits entering the Army without a moral 
waiver in terms of adverse action discharges (fiscal years 2003-2006 
cohort data).

                               READINESS

    64. Senator Clinton. Secretary Geren and General Casey, in General 
Casey's testimony, a concern was raised that the United States Army is 
currently ``consuming readiness faster than it can be produced.'' This 
is a critical indicator that the current OPTEMPO is having near-term 
and long-term readiness effects. What specific readiness is being 
consumed faster than it can be produced?
    Secretary Geren and General Casey. General Casey's written 
testimony stated that ``overall, our readiness is being consumed as 
fast as we can build it.'' This is because the current demand for our 
forces exceeds the sustainable supply. We are fully consumed with 
meeting the demands of the current fight and will be challenged to 
generate ready forces as rapidly as necessary for other potential 
contingencies. Current operational requirements for forces and limited 
periods between deployments necessitate a focus on counterinsurgency 
training and preparation to the detriment of preparedness for the full 
range of military missions. Units and equipment are stressed by the 
demands of lengthy and repeated deployments with insufficient recovery 
time. Equipment used repeatedly in harsh environmental conditions is 
wearing out at 5-8 times the peacetime rate.
    To address long-term readiness concerns, we are acting quickly in 
order to meet combatant commander needs, restore balance to preserve 
our All-Volunteer Force, and restore necessary depth and capacity for 
the future. In the near-term we continue to deploy units that are fully 
manned, trained and equipped for their theater assigned mission. Our 
units that have just returned from a deployment will initially have 
lower readiness due to personnel turnover and equipment shortages. We 
dedicate timely resources to increase each unit's readiness by 
providing the soldiers, equipment, and training required to perform its 
assigned mission. Currently, the demand for trained and ready units 
exceeds our ability to provide enough soldiers and equipment to units 
during reset, the first 6-month period of a unit's return from 
deployment. With full, timely and predictable funding, we will be able 
to provide units more of their required equipment, earlier in the 
process rather than just-in-time for their next deployment. This will 
also help us restore the Army's strategic depth and increase our 
flexibility to defend the Nation.

    65. Senator Clinton. Secretary Geren and General Casey, what 
current equipment re-set programs are being impacted by these cited to 
consumption OPTEMPO rates?
    Secretary Geren and General Casey. Currently, no equipment reset 
program is being impacted by the higher OPTEMPO rate; however, the 
delay of supplemental funding in fiscal year 2008 may limit the Army's 
ability to reset all equipment in a timely manner. For the past 6 
years, the Army has ensured that every deployed unit has had the 
necessary equipment to accomplish its assigned mission. To support the 
increased OPTEMPO for the surge in Iraq and Afghanistan, the Army 
extended units in theater and accelerated the deployment of units.
    To reverse the effects of combat stress on the equipment, the Army 
is resetting its equipment at an unprecedented rate. Army reset ensures 
that when units return from combat their equipment is restored to the 
desired level of combat capability commensurate with future mission 
requirements. Thanks to past congressional support, the depot 
production in 2007 was the highest output since Vietnam. The depots 
have adequate capacity to meet the Army's needs. The Army has sustained 
operations in Iraq and Afghanistan for 6 years with equipment 
serviceability readiness at greater than 85 percent for ground 
equipment and greater than 75 percent for aviation equipment.
    To sustain equipment readiness, the Army requires timely and 
adequate funding. Cash flowing the Army's reset operation and 
maintenance requirements with the base budget funding places other 
programs at risk. Without the $10.6 billion requested for procurement 
in the fiscal year 2008 global war on terror request, the Army will not 
be able to purchase replacement equipment for battle losses, Army 
prepositioned stocks, and theater provided equipment. For each day that 
funding is delayed, the delivery of essential systems to soldiers is 
delayed. Continued support from Congress will ensure that the Army 
maintains the equipment readiness to support the warfighter and start 
restoring the Army's strategic depth.

    66. Senator Clinton. Secretary Geren and General Casey, what impact 
are these consumption OPTEMPO rates having on force protection for 
deployed soldiers?
    Secretary Geren and General Casey. There are no force protection 
impacts as a result of the current high OPTEMPO rate. The Army is fully 
committed to providing force protection for our deployed soldiers and 
has considered OPTEMPO rates in its force protection equipment 
procurements, fielding, and reset plans.
    Since the start of war the Army, with congressional support, has 
substantively increased the amount and level of force protection. For 
instance:

        <bullet> The in-theater truck fleet, all of which are armored, 
        will be filled to 100 percent of the requirement in January 
        2008. The light truck fleet is already filled to 100 percent, 
        and our medium and heavy truck fleets which are filled to 99 
        percent of requirements are scheduled to be completed in 
        December 2007 and January 2008 respectively. Due to high 
        OPTEMPO demands, these fleets undergo a rebuild process in 
        Theater, as well as battle loss and battle damage replacements 
        from new production.
        <bullet> The Theater Armored Security Vehicle (ASV) requirement 
        is filled to 100 percent and production will support 
        replacement of destroyed ASVs.
        <bullet> The Improved Outer Tactical Vest (IOTV) replaces the 
        previously fielded outer tactical vest and is being issued to 
        all deploying soldiers, Army civilians, and other attached 
        personnel. The IOTV production rate of 25,000 per month will 
        support the unit rotation plan.
                                 ______
                                 
               Questions Submitted by Senator Mark Pryor

                          JOINT CARGO AIRCRAFT
 
   67. Senator Pryor. General Casey, with roots in a genuine decision 
of jointness, the Joint Cargo Aircraft (JCA) has been a hotly debated 
platform for intra-theater airlift. As an example of joint teaming 
between the Services, this aircraft was validated in the Joint 
Capabilities Integration Development System process, approved by the 
JROC, managed by a Joint Program Office (JPO), and produced a 
Memorandum of Agreement (MOA) cosigned by the Vice Chiefs of Staff of 
the Army and the Air Force. Have you had a discussion or do you plan to 
have discussions with General Moseley regarding the necessity of the 
JCA as a viable weapon system in a service organic role for the Army 
and the roles and mission debate that has surrounded this issue?
    General Casey. The Army and Air Force have been in agreement on the 
roles and missions of the JCA for quite a while, an agreement 
recognized by the signing of an MOA on 20 June 2006. General Moseley 
and I continue to discuss a variety of topics to include the JCA. In 
the upcoming Army and Air Force Staff Talks, we will discuss how to 
better support the JCA program to the benefit of both Services, but 
there is no intent to readdress roles and missions on the JCA. The Army 
does not have interest in taking on responsibility for intra-theater 
airlift with the JCA, nor was the JCA ever intended to compete with the 
Air Force's C-17 or C-130 aircraft roles and missions. Our focus is to 
modernize our cargo fleet of aircraft with a better, modern, more 
capable aircraft that will conduct the same organic, direct support 
missions the Army has been conducting with airplanes and helicopters 
for decades. The JCA is a complementary system that fills a gap at the 
tactical (as opposed to operational or strategic) level. That gap is 
the movement of time sensitive, mission critical cargo and key 
personnel from the Initial Staging Base or Port of Debarkation (POD) to 
the BCT and below. This is sometimes described as ``the last tactical 
mile'' of the end-to-end distribution system. These BCTs and smaller 
units are often deployed to austere locations across the noncontiguous 
battlefield. So, the JCA is a multifunctional aircraft that enables the 
JFC to achieve full spectrum dominance through the application of 
focused logistics.

                        LIGHT UTILITY HELICOPTER

    68. Senator Pryor. General Casey, the Operational Test and 
Evaluation (OT&E) Report for the UH-72A Lakota, dated July 2007, 
concludes that this light utility helicopter (LUH) may not meet 
prescribed performance criteria to support homeland defense 
initiatives, and in particular has shown a vulnerability for various 
avionics failures while operating in hot environments. As the Army 
plans to field 322 LUH aircraft over the next 8 years, what are your 
plans to remedy the shortfalls identified in this report?
    General Casey. The LUH program is successfully executing the Army's 
transformation strategy. We are continuing to move forward with full 
rate production to procure 322 aircraft to return UH-60 Blackhawks to 
the warfight and replace aging UM-1 and OH-58 aircraft. The LUH 
fielding is on schedule and on budget and meets or exceeds the Joint 
Staff approved key performance parameters (KPPs).
    The two issues identified in the Director, OT&E report stating the 
aircraft was ``not operationally suitable'' and ``not operationally 
effective'' in certain environments were the cockpit/cabin heat and the 
medical evacuation of two critical patients. Both issues have been 
resolved. The Army Research Lab recently tested and evaluated the 
improved ventilation kit and concluded that the system is operationally 
effective, suitable, and safe, even in hot environments. There have 
been no equipment failures from excessive cockpit heat and the 
``fixes'' that have been incorporated into the aircraft will preclude 
any equipment failures in the future.
    To address concerns over operations in the MEDEVAC LUH, a medical 
evacuation kit, consisting of medical evacuation equipment mounts, 
ceiling rails and additional lighting, has been evaluated and approved. 
It allows for a cabin configuration that will facilitate the 
accomplishment of medical attendant tasks. The LUH is not required to 
transport more than one critical patient at a time.
    In terms of lift performance the LUH exceeds its KPP to lift 906 
pounds out of ground effect. It is important to note that in all 
atmospheric conditions LUH exceeds the lift performance of the aged UH-
1 and OH-58 aircraft it is replacing.
    In summary the LUH Program is successfully meeting all cost, 
schedule and required performance targets specified in the acquisition 
strategy. To date, the Army has purchased 42 UH-72A aircraft and 16 of 
these have been delivered to units in the field.

                              DEPLOYMENTS

    69. Senator Pryor. Secretary Geren, I am concerned that the 
repeated deployments of our Active Army Forces for extended periods of 
combat (boots-on-the-ground extended from 12 to 15 months) is having a 
detrimental impact on the retention of some of our most experienced 
junior officers and noncommissioned officers (NCOs). Extended 
deployments with reduced dwell time must be creating tremendous stress 
on the families. What are your plans for reducing the length of combat 
deployments?
    Secretary Geren. The interim Army Deployment Policy deploys 
soldiers for not more than 15 months with at least 12 months of dwell 
before being deployed again. We made the recommendation to the 
Secretary of Defense to go to the 15-month policy for three reasons: 
one, to support the needs of the commander in the field; two, to give 
us more predictability for our soldiers and families; and three, we 
needed 12 months at home to ensure that the soldiers deploying were 
adequately prepared. The 15-month policy was always intended to be 
temporary and we will come off of that as soon as we can. The Army is 
growing capacity to help achieve a rotation model of 12 month 
deployments followed by at least 12 months at home station. The 
continued goal of the Army is a sustainable unit deployment to dwell 
ratio of 1:3 in a steady state security environment (for example, 9 
months deployed, 27 months home), or 1:2 in a sustainable surge 
environment.

    70. Senator Pryor. Secretary Geren, what do you consider an 
acceptable period of dwell time for soldiers deployed for 15 months?
    Secretary Geren. The continued goal of the Army is a sustainable 
deployment to dwell ratio of 1:3 in a steady-state security environment 
(for example, 9 months deployed, 27 months home), or a ratio of 1:2 in 
a surge environment. In the near-term, the Army is growing capacity to 
help achieve a model of 12 month deployments followed by at least 12 
months at home station.

    71. Senator Pryor. Secretary Geren, why is the Marine Corps able to 
continue sustained operations with 7 month deployments while the Army 
had to extend deployments from 12 to 15 months?
    Secretary Geren. Both the Army and the Marine Corps are rotating 
their combat forces at slightly less than a 1:1 deployment to dwell 
ratio. Army combat units currently spend up to 15 months overseas, with 
at least 12 months to reset and prepare. In other words, soldiers are 
deployed 15 months out of 27 months. Marines deploy for 7 month 
rotations with only 6 months back, and, over two rotation cycles, that 
represents 14 months deployed out of 26 months. We are currently unable 
to sustain shorter deployments because of the volume of Army forces 
required.

                       RECRUITMENT AND RETENTION

    72. Senator Pryor. Secretary Geren, what data are you tracking to 
assess the impact on the force? For example, retention rate of junior 
officers and NCOs; divorce rates; suicide rates; number of medically 
non-deployed soldiers; equipment availability rates; equipment 
operational rates.
    Secretary Geren. The data tracked by the Army covers a full 
spectrum of readiness indicators to include personnel and equipment. 
From a personnel readiness perspective, the Army looks at deployable 
individuals within the total force for mission requirements. Many 
factors influence the available population, to include medical and 
legal issues, professional schooling requirements, and job 
qualifications. To monitor stressors on the force, the Army has, for 
several years, tracked recruiting; first term attrition; and the 
retention of enlisted soldiers, noncommissioned and commissioned 
officers. We closely monitor other behaviors such as divorce rates, 
suicide reports, alcohol and drug abuse statistics as well as general 
misconduct and attrition rates. We monitor equipment readiness by 
tracking equipping levels and operational readiness of the Army's 
fleets, weapons, and other essential equipment.

                             REAL PROPERTY

    73. Senator Pryor. Secretary Geren, I'm sure you are aware that the 
Department has the authority to transfer real property to community 
redevelopment organizations at no cost if those communities agree to 
reinvest land sales and leasing revenues back into job creation and 
infrastructure development. It would be my hope that the Army disposal 
plans for these closing installations balances both public auctions 
with these no cost and other public benefit transfers. We have many 
financial challenges in executing Base Realignment and Closure (BRAC) 
projects, but it is important to me that communities are not left 
without resources to cope with the economic recovery they face and some 
of this property should be considered for open space and other 
important public uses. Can you assure this committee that the 
Department will implement a balanced approach to property disposal and 
grant broad deference to community reuse plans the way the law 
intended?
    Secretary Geren. Yes, the Army will implement a balanced approach 
to property disposal and grant broad deference to community reuse plans 
as the law intended. We are following the property disposal process as 
directed by law. By law, Local Reuse Authorities are responsible for 
State, local, and homeless screening and for producing reuse plans that 
consider the needs of homeless service providers and other state or 
local requests for property for public benefit. The Army will seek fair 
market value for BRAC property, and properly conveyance actions can 
include economic development conveyances at fair market value, or under 
certain circumstances, at no cost. In cases where the Army markets 
properties for sale, we will work with the Local Reuse Authorities and 
market the property in a way that is consistent with their reuse plans.
                                 ______
                                 
              Questions Submitted by Senator Susan Collins

                               READINESS

    74. Senator Collins. General Casey, as ranking member of the Senate 
Homeland Security and Governmental Affairs Committee, I am very 
concerned about the Federal use of our Nation's National Guard 
soldiers. During the last Congress, Senator Lieberman and I worked 
together on the committee, investigating many of the problems that 
plagued the Government's response to the Hurricane Katrina disaster in 
New Orleans. I am concerned however, that 2 years after Hurricane 
Katrina, our National Guard forces may not be ready to perform their 
critical domestic missions, because either the personnel or equipment 
have been deployed overseas. A September 2007 Government Accountability 
Office (GAO) study found that the Army National Guard has less than 
one-third of their required equipment available. The study also found 
that DOD has not fully reassessed its equipment, personnel, and 
training needs and developed a new model for the Reserve component that 
is appropriate to the new strategic environment. The GAO study adds 
that the Army has begun two transformation initiatives to enhance 
Reserve unit's ability to conduct 21st century operations. These 
initiatives are significant, but the extent to which they will 
alleviate equipment and personnel challenges is unclear. What 
reassessment, if any, is being done by the Army to determine the 
appropriate equipment, personnel, and training needs of the Army Guard 
and Reserve, based on the new strategic environment?
    General Casey. The Army is conducting an assessment of the 
requirements to transition the Reserve components from a strategic to 
an operational Reserve. This is part of transforming an Army to meet 
the demands of the 21st century, an era of persistent conflict. Our 
assessment includes a review of pre- and post-mobilization training 
requirements and the associated resources.
    We are continuing to rebalance the force across all components to 
ensure we have the right types of units and soldiers with the skills 
that are in the greatest demand--infantry, engineer, military police, 
military intelligence, and Special Operations Forces. This is a 
collaborative process. We are working closely with the Army Reserve, 
National Guard Bureau, the Adjutants General Force Structure Committee, 
and others within the Department of Defense to address the right mix of 
capabilities and the balance between the Active and Reserve components.
    We have committed an unprecedented level of resources to address 
Reserve component equipment needs. For example, we are fencing $27 
billion for Army National Guard procurement through 2013, and we have 
fielded new Abrams Integrated Management tanks, howitzers, and 
communication equipment to the National Guard. The Reserve components 
are receiving our best night vision equipment, GPS receivers, battle 
command equipment, and trucks.
    Given the National Guard's role as both an operational force and 
the States' first military responder for homeland defense and civil 
support, the Army is committed to resource the Army National Guard 
consistent with those roles. We have fielded more than 11,000 pieces of 
critical equipment to hurricane States, and we have worked closely with 
the National Guard leadership to identify ``dual use'' equipment in 
their ``essential 10'' capabilities.
    The Army Reserve remains among the Nation's first title 10 
responders to provide assistance in serious natural or manmade 
disasters, accidents, or catastrophes that occur in the United States 
and its territories. To ensure that they can meet these 
responsibilities, we have fenced approximately $3.9 billion for Army 
Reserve procurement in fiscal years 2005-2011.
    Thanks to congressional support in fiscal year 2007, we have been 
able to provide units more essential equipment earlier in their 
training cycle to better facilitate pre-deployment training.

                       NATIONAL GUARD AND RESERVE

    75. Senator Collins. General Casey, during the Army's annual budget 
posture hearing last winter, then Chief of Staff of the Army, General 
Peter Schoomaker, testified that 55 percent of the total Army force was 
made up from the National Guard and Reserves. I was surprised and 
concerned about that figure and had the opportunity to ask General 
Schoomaker whether he was comfortable with that ratio, that is only 45 
percent of the total force being made up of active duty soldiers and 55 
percent being National Guardsman and reservists. He stated that he was 
not. I next asked him that if he were designing the total force from 
scratch today, or had a magic wand, what portion would be Active Duty 
and what portion would be Guard and Reserve Forces. General Schoomaker 
answered that he believed that the Active Forces were too small and 
that he would be more comfortable if there was something more on the 
order of 60 percent Active and 40 percent Reserve. I would be very 
interested in your views in this regard. Do you believe that the ratio 
proposed by General Schoomaker, that is 60 percent Active Duty, 40 
percent National Guard and Reserve, is the correct one?
    General Casey. In the current environment, 60/40 is a more 
appropriate ratio. We have congressional authorization to increase the 
Army's size by 74,000 soldiers over the next 5 years. The Army plans to 
accelerate the growth in the Active component and the Army National 
Guard (ARNG) to fiscal year 2010. This will bring the Army's end 
strength to 547,400 Active component soldiers; 358,200 ARNG; and 
206,000 Army Reserve. This growth will also change the ratio of Active 
component/Reserve component to 49/51.
    As I testified on November 15, I believe the 547,000 that we're 
building in the Active component is a good milestone, but probably not 
big enough. This growth will allow us to revitalize and balance our 
forces, reduce deployment periods, increase dwell time, increase 
capability and capacity, and strengthen the systems that support our 
forces. As we get close to 547,000, we will need to have a discussion 
about whether the Army needs to be bigger, and if so, a discussion 
about whether we are prepared to provide the resources to make it the 
quality of force that we need. Creating a large but unresourced and 
``hollow'' Army is not what we need.

                    ``DON'T ASK/DON'T TELL'' POLICY

    76 and 77. Senator Collins. General Casey, this morning you 
described the Army as being strained and stretched. This is a concern 
that I share and that I think every member of this panel shares. During 
the past few years, we have seen longer deployments and more waivers 
granted to recruits with criminal records. In fact, the DOD recently 
granted an extension of the age limit for recruits. The DOD continues 
to have difficulty in filling specialty positions such as for 
linguists, which are obviously very important in Iraq and Afghanistan. 
The DOD has said that 85 linguists, of which 14 were Arabic trained, 
have been discharged from our Armed Forces since the ``don't ask/don't 
tell'' policy was instituted. In addition to the loss of translators, 
more than 9,000 other servicemembers have been separated since ``don't 
ask/don't tell'' policy was instituted by President Clinton back in 
1993. Last spring I met with a retired admiral in Maine who urged me to 
urge the DOD to reexamine the ``don't ask/don't tell'' policy. In your 
view, should Congress reconsider this policy? Would you welcome 
reconsideration of this policy?
    General Casey. ``Don't Ask, Don't Tell'' is a political, not 
military, policy (10 U.S.C. Sec. 654). As Chief of Staff of the Army, I 
am focused on my title 10 responsibilities of preparing and sustaining 
an Army at war. My job is to ensure your Army abides by the Nation's 
laws and policies concerning homosexual conduct and military Service, 
not to make them. Your Army will continue to do this with fairness to 
all concerned, as we did with the policy that preceded ``Don't Ask, 
Don't Tell,'' and the policy that may someday replace it.


                              DOD SPENDING

    78. Senator Collins. Secretary Geren, all of the Services are 
facing tight fiscal constraints and they have to make the hard choices 
between equipment and people. In some instances, we can reduce the 
amount of people through the implementation of technology. This 
however, has its own costs associated with it. Over the last decade, 
the total percentage of the Gross Domestic Product (GDP) spent on 
defense has steadily declined. This year the total amount is around 4 
percent of GDP. In order to adequately meet the requirement to grow the 
Army and Marine Corp personnel while at the same time ensuring we 
recapitalize all our forces, including naval shipbuilding and aircraft 
for the Air Force, do you believe that the Congress should increase the 
top line budget dollars for the DOD?
    Secretary Geren. While I am aware of the budget issues facing the 
other services, I am only able to comment on the Army's budget issues. 
We need increases and the funding, in fact, does increase in fiscal 
year 2008 and over the Program Objective Memorandum.
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss

                           LAKOTA HELICOPTER

    79. Senator Chambliss. General Casey, I have heard about some of 
the problems associated with the Army's new Lakota helicopter. I 
understand the purpose of these LUHs is for homeland security and 
disaster relief missions within the United States or other non-combat 
zones. Critics say the nature of the problems are threefold: excessive 
heat in the aircraft cockpit and cabin; the aircraft does not meet 
prescribed performance criteria for internal and external loads; and 
the aircraft is not effective for medical evacuation of two litter 
patients requiring critical medical care. Although the aircraft meets 
certain performance criteria, and the Army has identified potential 
work-arounds for what appears to be deficiencies in the helicopter, can 
you explain the Army's plan to continue full production and acquisition 
of the remaining helicopters when DOD's Office of OT&E judged the UH-
72A Lakota to be ``not operationally suitable'' and ``not operationally 
effective?'' I would appreciate your response to these findings, and 
your explanation of what the Army is considering in terms of moving 
forward to mitigate any identified problems.
    General Casey. The LUH (UH-72A) Program is successfully executing 
the Army's transformation strategy. We are continuing to move forward 
with full rate production to procure 322 aircraft to return UH-60 
Blackhawks to the warfight and replace aging UH-1 and OH-58 aircraft. 
The LUH fielding is on schedule, on budget, and meets or exceeds the 
Joint Staff approved key performance parameters (KPP's). The two issues 
identified in the Director, Operational Test and Evaluation (DOT&E) 
Report stating the aircraft was ``not operationally suitable'' and 
``not operationally effective'' in certain environments were the 
cockpit/cabin heat and the medical evacuation of two critical patients. 
While the evacuation of two critical patients was never a key 
performance parameter for this aircraft, the Army has pursued an 
improvement to the Medevac configuration to address concerns raised in 
the OTE. Both have been resolved. The Army Research Lab (ARL) recently 
tested and evaluated the improved ventilation kit and concluded that 
the system is operationally effective, suitable, and safe, even in hot 
environments. No equipment failures have resulted from excessive 
cockpit heat.
    A medical evacuation kit, consisting of medical evacuation 
equipment mounts, ceiling rails and additional lighting, has been 
evaluated and approved. It allows for a cabin configuration that will 
facilitate the accomplishment of medical attendant tasks. The LUH is 
not required to transport more than one critical patient at a time.
    In terms of lift performance the LUH exceeds its KPP to lift 906 
lbs. out of ground effect (OGE) in any of its variants. It is important 
to note that the LUH far exceeds the lift performance of the aged UH-1 
and OH-58 aircraft it is replacing in all atmospheric conditions.
    In summary the LUH Program is meeting all cost, schedule and 
required performance targets specified in the acquisition strategy. To 
date, the Army has purchased 42 LUH aircraft with 16 delivered.

                          RULES OF ENGAGEMENT

    80. Senator Chambliss. General Casey, over the past several months, 
there have been a number of troubling incidents in which Afghan 
civilians have been killed or injured in encounters between coalition 
forces and al Qaeda. It is my understanding that the rules of 
engagement actually restrict the use of non-precision weapons due to 
the sensitivity to civilian casualties. Field commanders in both 
Afghanistan and Iraq have submitted two Operational Needs Statements 
citing the urgent need for a precision fire capability organic to our 
infantry BCTs to enable them to effectively engage enemy targets and 
minimize the risk to noncombatants. This requirement has also been a 
top priority for the Infantry School at Fort Benning for some time. The 
capability in question is the Precision Guided Mortar Munitions (PGMM), 
a program that the defense appropriations bill indicates merits support 
and funding. It is my understanding that the Army's analysis identifies 
PGMM as the best solution for meeting the operational need as well. 
Given the operational need and the importance to both the Afghan 
leadership and the U.S. forces of minimizing civilian casualties, what 
is the Army's plan to field PGMM within the next 12 months, and will 
you send Congress a reprogramming request as suggested in the National 
Defense Appropriations Bill?
    General Casey. The field commander's Operational Needs Statement 
(ONS) identified an urgent need for a precision guided 120mm mortar 
munition with a low Circular Error of Probability (CEP) with both the 
Global Positioning System (GPS) and Semi-Active Laser (SAL) guidance 
system capabilities. To date, the PGMM has not met the requirements in 
the ONS as it demonstrated a low CEP with only a SAL guidance system,
    The Army is mitigating its operational needs capability gaps in 
Afghanistan with the deployment of the M777A2 Howitzer, which is 
capable of firing the 155mm Excalibur round. The Army recognizes that 
the M777A2 and Excalibur are not organic to an Infantry Brigade Combat 
Team (IBCT), but the howitzer is regularly deployed to join an IBCT in 
a reinforcing role. In Iraq, a similar capability is already available 
from many static locations across the country. The IBCT commander can 
also request precision munitions from long range missile or aviation 
assets in either the area of operations.
    The Army is considering restoring the PGMM program. If a decision 
is made to restore PGMM. a reprogramming action to support fiscal year 
2008 funding requirements will be required.
    The Future Combat Systems (FCS) program provides precision fires 
capability through its Non-Line-of-Sight Cannon (NLOS-C), Non-Line-of-
Sight Mortar (NLOS-M), and Non-Line-of-Sight Launch System (NLOS-LS). 
The NLOS-C is also capable of firing the Excalibur 155mm, GPS-guided 
round with a range of 23 kilometers. The FCS Brigade Combat Team (FBCT) 
is designed with the additional capabilities provided by the NLOS-M and 
the NLOS-LS. The NLOS-LS platform provides 15 precision munitions with 
a range of 40 kilometers that have the ability to be fired and 
forgotten or guided in flight. Through the use of these three 
platforms, the FBCT is able to mitigate the risk of not having PGMM in 
the future force.

                         ACQUISITION WORKFORCE

    81. Senator Chambliss. Secretary Geren, acquisition reform is never 
far from the front line of the defense world. In fact, a panel led by a 
former Under Secretary for Defense Acquisition recently made a number 
of recommendations for Army acquisition aimed at ultimately reducing 
contracting waste and fraud. One of the findings was that the 
acquisition workforce is understaffed, overworked, undertrained, and 
undersupported. I understand you are considering the panel's 
recommendations right now. In terms of acquisition, what are your 
thoughts on the panel's findings relative to the Lakota helicopter and 
some of the concerns with the aircraft that have recently come to 
light?
    Mr. Geren. The Army is appreciative of the thorough and candid 
assessment the Gansler Commission Report provides. The post-Cold War 
cuts to the Army acquisition budget were a contributing factor in 
today's undersized acquisition workforce. The workload in contracting 
actions has increased more than 350 percent in the last 12 years, yet 
the Army's contracting-oversight has almost been cut in half. 
Furthermore, of those tasked to provide oversight, only 36 percent in 
Iraq and Kuwait are certified.
    The contracting-oversight workforce has not been adequately 
expanded, trained, structured, or empowered to meet the needs of the 
warfighter. Further, an emphasis on expeditionary contracting is 
essential, as the needs of the operational commander are often 
immediate. This is not a problem limited to the Army, but is systemic 
throughout the Federal Government, which is short approximately 1,500 
to 2,000 contracting officers.
    The procurement of the LUH is a sterling example of a streamlined 
acquisition process, utilizing a Commercial Off the Shelf (COTS)/Non-
Developmental Item (NDI) to meet Army requirements. The UH-72A Lakota 
(LUH) is a military use of a widely used commercial helicopter within 
the U.S. for medical evacuation, law enforcement, media use and VIP 
transport. It has proven itself as a general purpose helicopter. The 
use of this COTS/NDI aircraft saved hundreds of millions of dollars in 
research and development costs and years of time. In just over two 
years, the Lakota has gone from requirements approval to full rate 
production.
    The Lakota program was a ``full and open competition'' and the 
selection of the UH-72A was a ``best value'' for the government. The 
program fielding is on schedule, on budget, and meets or exceeds the 
Joint Staff approved key performance parameters. More importantly, the 
performance of the UH-72A far exceeds that of the aging UH-1 and OH-58 
aircraft it is replacing and returns UH-60 Blackhawk aircraft to the 
warfight, specifically for the Army National Guard.
    Key findings from the Director, Operational Test and Evaluation 
report regarding cockpit/cabin heat issues and the medical evacuation 
of critical patients have been resolved. The Army Research Lab recently 
tested and evaluated the improved ventilation kit and concluded that 
the system is operationally effective, suitable, and safe, even in hot 
environments. Additionally, a medical evacuation kit, consisting of 
medical evacuation equipment mounts, ceiling rails and additional 
lighting, has been evaluated and approved.
    As the LUH program moves forward I am confident the Lakota will 
continue to exceed our expectations.

    82. Senator Chambliss. Secretary Geren, what can Congress do to 
support the Army as you work to eliminate shortcomings and make 
improvements in your acquisition workforce?
    Secretary Geren. The Gansler Commission Report identified numerous 
concerns and issues related to the acquisition workforce. The Army is 
reviewing the findings and recommendations and intends to submit 
legislative proposals to eliminate the identified shortcomings and to 
make improvements in our acquisition workforce. The following is a 
representative list of improvements that may require congressional 
support:

        <bullet> The Army and the Defense Contract Management Agency 
        (DCMA) do not have sufficient numbers of contracting officers 
        and contracting administrators to handle the significantly 
        increased workload that we are confronting in the high tempo 
        contingency operating environment.
        <bullet> Certain civil service provisions also may require 
        amendment to ensure that contracting officers who volunteer to 
        go into a war zone have insurance parity with the military.
        <bullet> Continued support for increased stature, quality, and 
        career development for contracting personnel, military as well 
        as civilian, particularly for expeditionary operations. Funding 
        for entry level trainees to make their service competitive with 
        industry, including hiring and retention bonuses, and funds to 
        defray the cost of relocation.
        <bullet> Support for the restructuring of the organization and 
        responsibility to facilitate contracting and contract 
        management.
        <bullet> Support for legislation, as well as regulatory and 
        policy changes to increase contracting effectiveness. This 
        support is crucial in expeditionary operations.
        <bullet> The Army and DCMA also will need support as they take 
        significant steps to improve oversight by implementing the 
        following steps:

                <bullet> Funding to increase the number of military 
                contingency contracting officers and our deployable 
                civilian workforces as COR and ACOs. CORs that need 
                training are typically from the technical or customer 
                communities.
                <bullet> Reexamine our utilization of CORs and ACOs to 
                make them more effective by ensuring their availability 
                for and subsequent placement where requirements are 
                most acute.
                <bullet> Implementing new regulations or policy that 
                improves oversight of contract services by requiring 
                all requiring organizations to maintain a cadre of 
                trained CORs who have the function in their performance 
                standards.
                <bullet> Expanding the number and types of in theater 
                services contracts for which ACO will be responsible.

    [Whereupon, at 12:44 p.m., the committee adjourned.]

                                 <all>

</pre></body></html>
